        REDACTED AND UNCLASSIFIED




   The Internal Effects of the
Federal Bureau of Investigation’s
         Reprioritization

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 04-39
            September 2004




        REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED



    THE INTERNAL EFFECTS OF THE FEDERAL BUREAU OF
          INVESTIGATION’S REPRIORITIZATION

                                                              *
                           EXECUTIVE SUMMARY

       In direct response to the September 11, 2001 (9/11), terrorist attacks,
the Director of the Federal Bureau of Investigation (FBI) initiated a
transformation that, among other things, established a new ranking of
priorities and formally shifted a significant number of agents from traditional
criminal investigative work to counterterrorism and counterintelligence
matters. According to the Director, each of the changes was designed to
reshape the FBI into an organization better able to combat the imminent
threat of terrorism and to prevent another large-scale terrorist attack
against the United States.

      Prior to 9/11, the FBI utilized more of its field agent resources to
investigate traditional criminal activity than to investigate matters related to
terrorism. According to the FBI, since the reprioritization it is striving to
incorporate more proactive, intelligence-based tactics and operations into its
procedures, particularly in terrorism-related matters.

       Non-terrorism related crime, however, still occurs, and because the
FBI has the broadest jurisdiction of any federal law enforcement agency, it is
expected to maintain a response capability for violations of federal criminal
law. However, other federal, state, and local law enforcement agencies may
be capable of taking on increased responsibilities for certain investigative
areas in light of the FBI’s reprioritization. In order for this transition to occur
effectively, the specific areas from which the FBI has reduced its
involvement must be identified.

      The objective of this Office of the Inspector General (OIG) review was
to identify internal operational changes in the FBI resulting from its ongoing
reprioritization efforts, focusing on the types of offenses that the FBI no
longer investigated at pre-9/11 levels. The review, which covered fiscal
years (FYs) 2000 through 2003, examined:



   * This is the unclassified version of the Office of the Inspector General’s (OIG)
   486-page audit report, which was classified “Secret” by the Federal Bureau of
   Investigation (FBI). To create an unclassified report for public release, the OIG
   redacted (deleted) the portions of the report that were classified by the FBI. The
   redacted portions are noted, and included information about the number of FBI
   personnel assigned to national security matters. The full report was provided to the
   Department of Justice, the FBI, and several Congressional committees.



                        REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


      1) the allocation of the FBI’s human resources,
      2) the specific areas in which the FBI utilized its human resources,
      3) the types and number of cases the FBI investigated, and
      4) the direction provided to FBI personnel in how the reprioritization
         was to be implemented.

      Because our objective was to determine changes since the
reprioritization, we concentrated many of our analyses on comparing
information from FYs 2000 and 2003 to obtain a view of resource utilization
both before and well into the FBI’s reprioritization efforts. The 9/11 attacks
caused the FBI’s human resource utilization data and casework data to be
inordinately skewed towards terrorism-related matters at the end of FY 2001
and throughout the first half of FY 2002. Therefore, in order to conduct
accurate analyses of changes within the FBI, we chose to concentrate on a
comparison of FYs 2000 and 2003. Additional details of our audit objective,
scope, and methodology can be found in Appendix I.

FBI Priorities

      In May 2002, the FBI Director issued a new ranking of priorities that
refocused FBI activities. We found that these new priorities guided the FBI’s
post-9/11 efforts and determined the structure of the FBI’s program plans
and new strategic plan, issued in March 2004. The top two priorities focus
on terrorism-related matters, while priorities three through eight are FBI
criminal investigative functions. The priorities are as follows:

 1. Protect the United States from terrorist attack.
 2. Protect the United States against foreign intelligence operations and espionage.
 3. Protect the United States against cyber-based attacks and high technology crimes.
 4. Combat public corruption at all levels.
 5. Protect civil rights.
 6. Combat transnational and national criminal organizations and enterprises.
 7. Combat major white-collar crime.
 8. Combat significant violent crime.
 9. Support federal, state, county, municipal, and international partners.
10. Upgrade technology to successfully perform the FBI’s mission.




                                  - ii -
                       REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


Overall Field Office Agent Allocation and Utilization

       The means by which the FBI’s priorities are most directly translated
into operation is via the establishment of Funded Staffing Levels (FSLs), the
method by which the FBI allocates its personnel resources. In general, as
part of the budget planning and execution process the FBI allocates its agent
resources to the field by establishing FSLs within each of its program areas.
One FSL equates to one funded employee, or one full-time equivalent (FTE).
The FBI sets FSLs by program only for non-supervisory agents in FBI field
offices. Supervisory agent personnel are allocated to field offices in one
lump sum as “management,” while support personnel are allocated to field
offices by type of support function.

       We analyzed changes in the FBI’s field agent allocations for FYs 2000
through 2003 and determined that the FBI generally shifted its allocation to
reflect its new priorities. Specifically, we found that the FBI allocated more
than 560 additional field agent positions to terrorism-related matters in
FY 2003 than in FY 2000, while reducing the number of positions allotted for
matters not related to terrorism during the same time period. Most of this
reduction in non-terrorism related matters occurred within the Organized
Crime/Drugs Program, where a total of 758 field agent positions were
transferred during our review period.

                 COMPARISON OF FIELD AGENT ALLOCATIONS
                IN TERRORISM AND NON-TERRORISM MATTERS
                       FISCAL YEARS 2000 AND 2003




  Source: OIG analysis of FBI Resource Management and Allocation Office data

                                    - iii -
                         REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


       The FBI classifies its cases and tracks the time of most of its field
personnel by means of a three-tiered system consisting of 12 programs that
reflect general crime areas and several administrative functions;
51 sub-programs that fall within 10 of these programs; and 759 investigative
classifications, which provide the greatest level of detail.1 For its human
resource utilization comparisons, the FBI uses a computerized system called
TURK (Time Utilization and Recordkeeping), which among other functions
calculates the average number of personnel on-board at a particular point in
time. This value is referred to as Average On Board (AOB) and is a measure
used throughout this report.

      In order to determine how well its actual utilization of personnel falls in
line with its allocation, the FBI compares AOB to FSLs, generally at the
program level. We performed this same comparison for field agents in
FY 2003 in terrorism-related and non-terrorism related matters. We found
that the FBI utilized 845 more agents than it had allocated for
terrorism-related matters, while it utilized 879 fewer agents than planned in
non-terrorism areas. The following chart illustrates that the FBI exceeded its
planned level of commitment to terrorism-related matters by utilizing
resources it had planned to use on non-terrorism related matters.

                    FIELD AGENT ALLOCATION AND UTILIZATION
                   IN TERRORISM AND NON-TERRORISM MATTERS
                               FISCAL YEAR 2003




   Source: OIG analysis of FBI TURK and Resource Management and Allocation Office data


         1
             These figures are current as of the end of the period reviewed (September 20,
2003).

                                       - iv -
                            REDACTED AND UNCLASSIFIED
                                     REDACTED AND UNCLASSIFIED


       Utilization and Casework Changes by Investigative Classification

              We also compared the FBI’s FY 2000 and FY 2003 field agent utilization
       at the investigative classification level to identify specific areas in which the
       FBI reduced its efforts the most. We then identified the top 30 investigative
       classifications that experienced the most significant reductions in on-board
       agents during our review period. The following chart shows the results of this
       review.
                     TOP 30 INVESTIGATIVE CLASSIFICATIONS EXPERIENCING
                        THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                                    FISCAL YEARS 2000 AND 2003
 Classification                                                      On-board Agent
    Number           Classification Name                               Reduction
       245C          OCDETF – Mexican Organizations                                              -123
       281C          OC/DI – Mexican Organizations                                               -119
       281A          OC/DI – LCN and Italian Organizations                                       -103
       088A          Unlawful Flight to Avoid Prosecution – Crime of Violence                    -101
       209A          Health Care Fraud – Government Sponsored Program                             -89
       091A          Bank Robbery                                                                 -81
       281F          OC/DI – Other Major Criminal Organizations                                   -76
       245F          OCDETF – Other Major Criminal Organizations                                  -62
       245B          OCDETF – Central/South American Organizations                                -61
                                     CLASSIFIED INFORMATION REDACTED
       029C          FIF - $25K - $99,999 Fed-Insured Bank                                        -50
       281B          OC/DI – Central/South American Organizations                                 -44
       281I          OC/DI – Caribbean Organizations                                              -43
       281E          OC/DI – Asian Organizations                                                  -40
       196A          Telema rketing Fraud                                                         -38
       245D          OCDETF – VCMO – Gangs                                                        -37
       196D          Other Wire & Mail Fraud Schemes                                              -35
       209B          Health Care Fraud – Private Ins. Program                                     -32
       245I          OCDETF – Caribbean Organizations                                             -31
       087B          Interstate Transportation of Stolen Property - $25K+                         -29
       026B          ITSMV – Commercial Theft or Chop Shops                                       -29
       092C          Racketeering Enterprise Investigations – Mexican Organizations               -28
       196B          Insurance Fraud                                                              -28
       282A          Civil Rights – Color of Law – Force &/or Violence                            -28
       300A          Counterterrorism Preparedness – Special Events                               -27
       049A          Bankruptcy Fraud $50K+ /or Court Officer                                     -26
       249A          Environmental Crimes                                                         -25
       244           Hostage Rescue Team                                                          -24
                                     CLASSIFIED INFORMATION REDACTED
       015B          TFIS – Loss of $25K; Weapons, Explosives                                     -21
 ACRONYMS :
 OCDETF = Organized Crime Drug Enforcement Task Force          VCMO = Violent Crime/Major Offenders
 OC/DI = Organized Crime/Drug Investigations                   ITSMV = Interstate Transportation of Stolen
 LCN = La Cosa Nostra                                                   Motor Vehicles
 FIF = Financial Institution Fraud                             TFIS = Theft From Interstate Shipment


Source: OIG analysis of FBI TURK data and NFIP Manual



                                                -v-
                                     REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


      Each of the 30 investigative classifications identified is related to an
FBI program. Specifically, 12 of the 30 investigative classifications
experiencing the largest reductions in agent resource utilization are related
to organized crime/drug matters. Eight classifications are associated with
white-collar crime, six are related to violent crime, two are foreign
counterintelligence matters, one is related to civil rights, and the other
pertains to domestic terrorism. In order to develop an understanding of the
general areas that were reduced the most by the reprioritization, we
summarized the total on-board agent decreases within each of these
30 classifications and grouped them into the ir respective program areas.

                  ON-BOARD AGENT REDUCTIONS
                   FISCAL YEARS 2000 AND 2003
 WITHIN PROGRAM AREAS FOR THE 30 CLASSIFICATIONS EXPERIENCING
         THE GREATEST REDUCTIONS IN AGENT UTILIZATION2




   Source: OIG analysis of FBI TURK data




       2
           Foreign Counterintelligence is a sub-program within the FBI’s National Foreign
Intelligence Program (NFIP). The remaining components listed are all FBI programs.

                                     - vi -
                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       As shown in the preceding exhibit, 3 program areas were primarily
affected by the 30 classifications experiencing the greatest reductions in
on-board agents: Organized Crime/Drugs (OC/D), White-Collar Crime, and
Violent Crime. We analyzed each of these program areas in detail, including
analyses of how the reductions in certain classifications impacted various
types of field offices. For example, reductions in certain drug-related
classifications involving Mexican organizations primarily affected field offices
located along or near the southwest border of the United States, while
reductions involving health care fraud generally occurred within the FBI’s
larger field offices.

       In addition to our review of on-board agents, we analyzed a universe
of 404,318 field cases worked by the FBI during our review period and found
121,798 that arose from the 30 classifications we identified as experiencing
the greatest on-board agent reductions. We also reviewed trends in case
openings and found that the FBI opened over 17,000 fewer cases within
these 30 classifications in FY 2003 than in FY 2000. The FBI reduced the
number of cases it opened most significantly with respect to violent
fugitives, where 11,617 fewer cases were opened in FY 2003 than in
FY 2000. No other reductions in case openings were as significant, although
our result for bank robbery cases was notable. We found that although the
FBI reduced its utilization of on-board field agents in the classification for
bank robberies by 26 percent during our review period, the FBI actually
opened 485 more bank robbery cases in FY 2003 than in FY 2000.

       Although we focused the bulk of our review on areas in which the FBI
reduced its investigative efforts, we also identified the 30 investigative
classifications that experienced the greatest increases in agent utilization.
The majority of these classifications were in programs related to terrorism.
Specifically, 24 of the 30 classifications with the greatest increases are part
of either the National Foreign Intelligence or the Domestic Terrorism
programs, while the remaining 6 classifications fall into the Violent
Crime/Major Offenders, White-Collar Crime, and Applicant programs. These
classifications are highlighted in the following table.




                                - vii -
                      REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED



                   TOP 30 INVESTIGATIVE CLASSIFICATIONS EXPERIENCING
                      THE GREATEST INCREASES IN AGENT UTILIZATION
                               FISCAL YEARS 2000 AND 2003
                                                                                                  On-board
 Classification                                                                                    Agent
    Number      Classification Name                                                               Increase
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
       196C         Securities/Commodities Fraud                                                       73
                                     CLASSIFIED INFORMATION REDACTED
       266A         AOT-DT – Violent Crimes – Predicate Offense                                        37
        306         Serial Killings                                                                    28
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
      067D          Support Applicant Investigations                                                   21
                                     CLASSIFIED INFORMATION REDACTED
       067B         Special Agent Applicant Investigations                                             18
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
       089B         Assaulting or Killing a Federal Officer                                            11
                                     CLASSIFIED INFORMATION REDACTED
       164C         Crime Aboard Aircraft – All other                                                  11
                                     CLASSIFIED INFORMATION REDACTED
      253A          Fraud & Rel Activity – Ident Documents (FRAID) – Terrorists                        10
      174D          Bomb Technician Activities                                                          8
      300B          CT Preparedness – Aviation Security                                                 8
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED
      261G          Security Officer Matters – Other                                                   6
                                     CLASSIFIED INFORMATION REDACTED
                                     CLASSIFIED INFORMATION REDACTED

 ACRONYMS:
 AOT = Acts of Terrorism                         FRAID = Fraud & Related Activity Identification Documents
 DT = Domestic Terrorism                         CT = Counterterrorism

Source: OIG analysis of FBI TURK data and NFIP Manual




                                             - viii -
                                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       As with those classifications experiencing the greatest reductions, we
reviewed FBI cases worked during our review period from those
classifications undergoing the largest increases in on-board agents. We
found that 22,993 of the original universe of 404,318 cases worked during
our review period fell into one of these classifications. We analyzed trends
in the number of cases opened during our review period in these
classifications and noted a general upward trend in total case openings.
Specifically, we found that the FBI had opened 2,808 more cases in these
classifications than it had in FY 2000, an increase of 81 percent. Of these
30 classifications, the number of cases opened involving investigations of
[CLASSIFIED INFORMATION REDACTED] increased the most during our
review period. At the same time, we noted significant increases in case
openings for investigations involving Usama Bin Laden, as well as foreign
counterintelligence cases [CLASSIFIED INFORMATION REDACTED].

Conclusions

       Since the 9/11 terrorist attacks, the FBI reprioritized its mission,
formally moved a significant number of funded personnel from traditional
criminal investigative areas to matters related to terrorism, and reorganized
itself with the intent of becoming a more proactive, intelligence-driven law
enforcement agency. Our analyses revealed that FBI activities in FY 2003
were generally in line with its post-9/11 priorities.

      Our analysis of FBI timekeeping data confirms that the FBI is
performing less work in certain traditional criminal investigative areas and
more work in areas related to terrorism. Each of the areas that experienced
the most significant reductions in on-board agents was provided guidance in
how to prioritize their diminished resources, including focusing their efforts
on the major criminal issues that existed in their respective jurisdictions.
Field offices were also told to give first priority to those criminal
investigations that had ties to terrorism.

      This report contains comprehensive, data-driven analyses of the
changes in the FBI’s use of resources as a result of its shift in priorities and
allocation of staff. These types of analyses can be useful to FBI executive
management and program directors for evaluating progress in meeting goals
and obtaining a data-based view of the status of FBI operations. We
recommend that the FBI endeavor to conduct similar analyses on a regular
basis. In a follow-up review we plan to initiate, we intend to conduct further
analyses to determine how the FBI’s shift in priorities and operations has
affected external law enforcement entities.



                                - ix -
                     REDACTED AND UNCLASSIFIED
             REDACTED AND UNCLASSIFIED


  THE INTERNAL EFFECTS OF THE FEDERAL BUREAU OF
        INVESTIGATION’S REPRIORITIZATION

                  TABLE OF CONTENTS

CHAPTER 1:   INTRODUCTION ....................................................1
             Jurisdiction and Organizational Structure ...................1
             FBI Programs ........................................................1
             FBI Transformation ................................................2
             Prior Reviews ........................................................5
             Audit Approach......................................................6

CHAPTER 2:   REPRIORITIZING THE FBI .......................................8
             Funded Staffing Levels............................................9
             Resource Allocation Process.....................................9
             Data Collection.................................................... 10
             Overall FSL Analysis............................................. 10
             FBI Field Offices .................................................. 11
             FBI Headquarters................................................. 20
             Chapter Summary................................................ 23

CHAPTER 3:   RESOURCE UTILIZATION AND CASEWORK............... 25
             Automated System .............................................. 26
             Investigative Programs, Sub-programs, and
             Classifications ..................................................... 27
             Agent Utilization at the FBI Program Level ............... 28
             Comparison of Agent Allocation to Utilization............ 31
             Casework at the FBI Program Level ........................ 33
             Agent Utilization and Casework at the FBI
             Classification Level .............................................. 35
             Chapter Summary ............................................... 47

CHAPTER 4:   REDUCTIONS IN FBI PROGRAMS ............................ 48
             Organized Crime/Drug Matters............................... 49
             Violent Crime Matters........................................... 52
             White-Collar Crime Matters ................................... 56
             Conclusion ......................................................... 59

CHAPTER 5:   CONCLUSIONS AND RECOMMENDATION.................. 60




             REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED


APPENDIX I:      OBJECTIVE, SCOPE, AND METHODOLOGY ................ 63
                 Audit Objective ................................................... 63
                 Scope and Methodology........................................ 63
                 Data Analysis...................................................... 64

APPENDIX II:     DESCRIPTIONS OF FBI PROGRAMS ......................... 71

APPENDIX III:    CROSSWALK OF FBI PROGRAMS AND SUB-PROGRAMS
                 FYS 2000 THROUGH 2003 ..................................... 73

APPENDIX IV:     FBI ORGANIZATIONAL CHART................................ 76

APPENDIX V:      FBI PRE-9/11 ORGANIZATIONAL CHART.................. 77

APPENDIX VI:     CASEWORK IN TOP CLASSIFICATIONS .................... 78

APPENDIX VII:    ORGANIZED CRIME/DRUG MATTERS....................... 80
                 Mexican Organizations.......................................... 81
                 Central/South American Organizations .................... 85
                 Caribbean Organizations ....................................... 88
                 La Cosa Nostra and Italian Organizations................. 91
                 Asian Organizations ............................................. 93
                 Other Criminal Organizations................................. 95

APPENDIX VIII:   VIOLENT CRIME MATTERS..................................... 99
                 Violent Fugitives................................................ 100
                 Bank Robbery ................................................... 103
                 Hostage Rescue Team........................................ 105
                 Interstate Transportation of Stolen Property........... 106
                 Interstate Transportation of Stolen Motor Vehicles .. 109
                 Theft From Interstate Shipment ........................... 111

APPENDIX IX:     WHITE-COLLAR CRIME MATTERS..........................              113
                 Financial Institution Fraud...................................    113
                 Health Care Fraud .............................................   115
                 Other Fraud Investigative Areas...........................        119
                 Environmental Crimes ........................................     125

APPENDIX X:      FBI RESPONSE .................................................. 128

APPENDIX XI:     OFFICE OF THE INSPECTOR GENERAL,
                 AUDIT DIVISION ANALYSIS AND SUMMARY OF
                 ACTIONS NECESSARY TO CLOSE THE REPORT........ 132



                 REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED



                       CHAPTER 1: INTRODUCTION

      Since the terrorist attacks of September 11, 2001 (9/11), the Federal
Bureau of Investigation (FBI) has initiated a large-scale reorganization and
reprioritization. In connection with this, a significant portion of the FBI’s
agents and support personnel have been reassigned to terrorism-related
matters. The objective of this audit was to identify internal operational
changes in the FBI resulting from its ongoing reorganization and
reprioritization efforts, including the types of offenses that the FBI no longer
investigates at pre-9/11 levels.

Jurisdiction and Organizational Structure

      The FBI is the lead investigative agency of the United States
Department of Justice, responsible for enforcing over 200 federal laws. It
has the broadest jurisdiction of any federal law enforcement agency and is
charged with counterterrorism and counterintelligence responsibilities, as
well as the investigation of criminal matters in the areas of civil rights, cyber
crime, organized crime, drugs, violent crime, and white-collar crime.

       The FBI is a field-based law enforcement agency, with its executive
management located at FBI Headquarters in Washington, D.C. In addition
to its headquarters, the FBI is composed of 56 field offices, approximately
400 resident agencies (smaller, satellite offices), 46 Legal Attaché offices,
and several additional, specialized facilities. The specialized facilities include
the FBI Laboratory, the FBI Academy, and the Critical Incident Response
Group (CIRG). Personnel at FBI Headquarters generally provide program
direction and investigative support to FBI field components. As of May 31,
2004, the FBI employed 12,031 agents and 16,243 support personnel.

FBI Programs

       The FBI operates within a framework of programs, sub-programs, and
investigative classifications by which it allocates agent resources to field
offices, tracks the time of most field employees, and classifies cases. This
three-tiered organizational system includes 12 programs that reflect general
crime areas and several administrative functions.3 A program is the most
general category by which information is gathered, maintained, and tracked

       3
          The 12 programs cover the following areas: national foreign intelligence, domestic
terrorism, computer intrusion, white-collar crime, organized crime and drugs, violent crime,
cyber crime, criminal enterprises, civil rights, training, applicants, and miscellaneous
matters. A description of each program is contained in Appendix II.


                         REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


within the FBI. The next level, which is more specific, is the sub-program.
There are a total of 51 sub-programs that fall within ten programs; neither the
Civil Rights nor Miscellaneous programs have sub-programs. The most specific
level that information is organized is an investigative classification. At the end
of FY 2003, there were 751 investigative classifications. A crosswalk of FBI
programs and sub-programs is located in Appendix III.

       The FBI’s program structure often changes to incorporate new
investigative areas or to rename and consolidate existing investigative
efforts and administrative functions. For example, during FY 2003 the FBI
added two new programs, two new sub-programs, and eight new
investigative classifications. Further, the FBI may reduce the number of
classifications it currently maintains. In a memorandum issued in May 2003,
the FBI Director described the list of investigative classifications as
“cumbersome,” and stated that his goal is to reduce the list by at least
20 percent.

FBI Transformation

       In response to the 9/11 terrorist attacks, the FBI Director initiated a
transformation that overhauled FBI management, created a new ranking of
priorities to drive FBI investigations, and formally shifted a significant number
of agents from traditional criminal investigative work to counterterrorism and
counterintelligence matters. According to the Director, each of these changes
was designed to reshape the FBI into an organization better able to combat
the imminent terrorist threat and to prevent another terrorist attack against
the United States. A timeline of the FBI’s transformation is shown in
Exhibit 1-1.




                                -2-
                     REDACTED AND UNCLASSIFIED
                                                       REDACTED AND UNCLASSIFIED


                                                                   EXHIBIT 1-1
                                                          FBI TRANSFORMATION TIMELINE
                                                      FISCAL YEAR 2000 THROUGH MARCH 2004

                                                                 Initial Reorganization of FBI
                                                          December 2001. Includes creation of EADs for:

                                                           Criminal Investigations
                                                           Counterterrorism/Counterintelligence
                                                           Law Enforcement Services
                                                           Administration




                                                                                                            Cyber Division                  Appointment of EAD for
                                                                                                             Established                     Office of Intelligence
                                                                                                             June 2002                           April 3, 2003



                                                                                                                                                                       Revised Organizational Chart of the FBI
                                                                                                                                                                         Approved by the Attorney General
                                                                                                                                                                          March 4, 2004. Includes EADs for:
                                      Terrorist Attacks
                                                                                                                                                                        Intelligence
                                     September 11, 2001                                Reprogramming of
                                                                                                                             Criminal Enterprise
                                                                                                                                                                        Counterterrorism/Counterintelligence
                                                                                                                                Investigations                          Law Enforcement Services
                                                                                      FBI Human Resources
                                                                                                                            Program Established                         Administration
                                                                                          May 29, 2002
                                                                                                                                 August 2002                            Criminal Investigations




FISCAL YEAR 2000                    FISCAL YEAR 2001                                      FISCAL YEAR 2002                                                      FISCAL YEAR 2003            FY 2004




                                                                                                                                Office of Intelligence
                          Robert S. Mueller, III                                                                                     Established
                       Sworn in as New FBI Director                                                                                 January 2003                           FBI Strategic Plan 2004-2009
                           September 4, 2001                                                                                                                                         Released
                                                                                                                                                                                   March 2004
                                                                                                     Announcement of
                                                                                                   FBI Top Ten Priorities
                                                                                                       May 21, 2002



                                                                 Attorney General
                                                                    Announces
                                                               New Priorities of DOJ
                                                                November 8, 2001                                                         Revised Organizational Chart of the FBI
                                                                                                                                           Approved by the Attorney General
                                                                                                                                           May 21, 2003. Includes EADs for:

                                                                                                                                         Intelligence
                                                                                                                                         Counterterrorism/Counterintelligence
                                                                                                                                         Law Enforcement Services
                                                                                                                                         Administration



 Source: OIG analysis of FBI planning materials




                                                                  -3-
                                                       REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       Reorganization – The FBI restructured by merging or transferring
several organizational components, dissolving other components, and
creating new components. In addition, it created a new level of executive
management, which consisted of five new Executive Assistant Director (EAD)
positions. This supervisory level was placed between the office of the
Deputy Director and most of the FBI’s operational divisions and offices.4

       Reprioritization – In addition to creating a new organizational
structure, the Director determined that a new set of priorities clearly
detailing FBI responsibilities should be established to shift the FBI from a
traditional criminal investigative agency to one designed to combat
terrorism. In May 2002 the FBI issued a ranked list of top ten priorities to
focus FBI efforts on areas that other law enforcement agencies could not
effectively address and that the FBI was in a unique position to handle.
These new priorities listed prevention of a terrorist attack as the FBI’s top
priority, and also provided a roadmap for the FBI to evolve into a new,
intelligence-driven law enforcement agency. A more detailed discussion of
the new FBI priorities is contained in Chapter 2.

       Additionally, in March 2004 the FBI formally issued its new strategic
plan. The plan, which had last been updated in 1998, refers to the events of
9/11 and provides background on the FBI’s transformational process since
that date, specifically referencing how the FBI has adopted the concept of
reengineering in order to effect change. Specifically, the plan discusses:
1) the FBI’s intelligence-based forecast for the next five years in each of its
priority areas; 2) the recruitment, hiring, training, and development of
employees; and 3) the tools the FBI needs to achieve its goals, including
information technology, investigative technology, communication systems,
and security. Additionally, the largest part of the plan, organized along the
lines of the FBI’s priorities, articulates ten strategic goals the FBI must
accomplish in order to achieve its mission. Each goal contains objectives
and performance goals that must be met for the FBI to achieve success.

      Reprogramming – To focus the FBI’s efforts on terrorism and align its
resources along the FBI’s new priorities, in May 2002 the FBI Director
formally reprogrammed more than 500 agents from traditional criminal
investigative areas into terrorism-related programs. Most of these agents
were moved from drug, violent crime, and white-collar crime matters to
terrorism-related programs. The FBI’s drug-related work was most


       4
         The FBI’s current organizational structure was formally approved by the Attorney
General on March 4, 2004. An organizational chart depicting this structure is contained in
Appendix IV, while an organizational chart depicting the FBI’s pre-9/11 structure is
contained in Appendix V.

                                    -4-
                         REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


impacted, with the transfer of 400 agents. The Director stated that he made
his reprogramming decisions after consultation with his executive
management staff (including the Special Agents in Charge (SACs) of all field
offices), as well as the United States Attorney’s Offices, Congress, and the
Administrator of the Drug Enforcement Administration. The May 2002
reprogramming is discussed in detail in Chapter 2.

Prior Reviews

       We previously audited the FBI’s casework and resource utilization,
issuing a report in September 2003.5 We found that prior to 9/11, although
the FBI stated that its top priority was terrorism-related work, the FBI
utilized more of its agent resources in traditional criminal investigative
areas, such as white-collar crime, violent crime, and organized crime/drugs
than in terrorism programs. We also found that agent usage in
terrorism-related areas significantly increased in the immediate weeks
following 9/11, and after the initial flurry of activity, resource usage related
to terrorism stabilized at a level higher than prior to 9/11. In that review,
we made several recommendations to the FBI, including that the Director
explore additional means of analyzing the FBI’s resource utilization among
its various programs.

      The U.S. Government Accountability Office (GAO) also reported on the
status of the FBI Reorganization in June 2003.6 The GAO determined that
progress had been made in the FBI’s efforts to transform itself, but major
challenges remained. Specifically, the GAO found that a comprehensive
transformation plan with key milestones and assessment points to guide its
overall transformation plans was still needed. The GAO noted that the FBI
had not yet completed an update of its strategic plan and had not yet
developed a human capital plan.7 According to the GAO, the FBI faced
challenges in using personnel from other criminal investigative programs to

      5
          Office of the Inspector General (OIG) Audit Report number 03-37, “Federal Bureau
of Investigation Casework and Human Resource Utilization,” dated September 2003.

      6
         U.S. Government Accountability Office (GAO) report entitled “FBI Reorganization:
Progress Made in Efforts to Transform, but Major Challenges Continue,” report number
GAO-03-759T, dated June 18, 2003.

      7
           In March 2004, GAO again reported on FBI transformation in its report entitled
“FBI Transformation: FBI Continues to Make Progress in Its Efforts to Transform and
Address Priorities,” report number GAO-04-578T, dated March 23, 2004. GAO reviewed the
FBI’s new strategic and human capital plans, and reported that the FBI was continuing to
make progress in its efforts to transform. However, the GAO noted that while the FBI had
instituted a number of separate reengineering projects, it still did not have an overall
transformation plan.

                                   -5-
                        REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


address counterterrorism matters and the FBI did not possess adequate
numbers of analytical, technical, and administrative support personnel.

Audit Approach

      The purpose of this audit was to review further the FBI’s internal
changes resulting from its post-9/11 reprioritization and reorganization.
Specifically, we sought to identify the investigative areas that experienced
the greatest increases or reductions and then measure the level of change in
both funded and utilized agent resources in these areas. To accomplish this,
we reviewed planning documents and analyzed resource allocation utilization
and casework data. In addition, we interviewed more than 40 officials at
FBI Headquarters in Washington, D.C.; the FBI Academy and Laboratory at
Quantico, Virginia; and the Critical Incident Response Group in Aquia,
Virginia.

      In the wake of 9/11, vast amounts of resources from all FBI program
areas were dedicated to assist in the investigations of the terrorist attacks.
This caused resource utilization and casework data at the end of FY 2001
and throughout the first half of FY 2002 to be skewed towards
terrorism-related matters. Therefore, in order to conduct better
comparisons of FBI data, we eliminated FYs 2001 and 2002 from many of
our evaluations, and instead concentrated on comparing FY 2000 data to
FY 2003 data. Although our review period encompassed the entire period of
September 26, 1999, through September 20, 2003, our decision to focus on
FYs 2000 and 2003 in many of our analyses afforded a better “before” and
“after” view into the FBI’s reprioritization efforts.8

        The results of our review are detailed in Chapters 2 through 5, while
the audit scope and methodology are contained in Appendix I. Specifically,
in Chapter 2 we reviewed the steps the FBI took in implementing its new set
of priorities and analyzed how this translated into funded agent and support
positions in field offices and at FBI Headquarters. We also obtained from the
FBI’s timekeeping system data for on-board agent and support personnel for
FYs 2000 through 2003. In Chapter 3 we analyzed changes at the program,
sub-program, and investigative classification level to determine how the new
list of priorities affected the FBI’s human resource utilization. We also
identified the investigative classifications in which the greatest resource
usage changes occurred during our review period. In addition, we obtained
a universe of field office cases from the FBI’s Automated Case Support (ACS)



      8
         According to the FBI’s Time Utilization and Recordkeeping (TURK) system, FY 2000
began on September 26, 1999, and FY 2003 ended on September 20, 2003.

                                   -6-
                        REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


system for FYs 2000 through 2003, and reviewed them for changes that
reflected the FBI’s new priorities.

      In line with our objective to identify those areas in which the FBI had
reduced its effort, we focused on those criminal investigative matters in which
the largest reductions in resource usage occurred. This included in-depth
analyses on each of these areas to determine how the FBI’s shift in priorities
affected investigative work performed in the program area. The results of
these analyses can be found in Chapter 4.9




       9
         In addition to the analyses presented in the body of this report, we also provided
FBI management with several charts under separate cover. These charts, which contain
more detailed information regarding the changes in on-board agents and casework
experienced by each FBI field office during our review period, are found in Supplemental
Appendices I through III.

                                    -7-
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED



                CHAPTER 2: REPRIORITIZING THE FBI

       On May 21, 2002, the FBI Director issued an e-mail to all FBI
employees containing the new ranking of Top Ten Priorities, which formally
refocused the FBI’s mission. The following chart contains the May 2002
priorities as well as the FBI investigative programs to which each primarily
applies.

                                EXHIBIT 2-1
               FBI TOP TEN PRIORITIES AND RELATED PROGRAMS
      Priorities                                        §
                                                            Related FBI Programs
 1. Protect the United States from terrorist            §     International Terrorism1 0
    attack.                                             §     Domestic Terrorism
                                                    §




 2. Protect the United States against                   §     Foreign Counterintelligence10
    foreign intelligence operations and
    espionage.
                                                    §




 3. Protect the United States against                   §     Cyber Crime
    cyber-based attacks and high                        §     Computer Intrusion
    technology crimes.
                                                    §




 4. Combat public corruption at all levels.             §     Public Corruption1 1
                                                    §




 5. Protect civil rights.                               §     Civil Rights
                                                    §




 6. Combat transnational and national                   §     Organized Crime/Drugs
    criminal organizations and enterprises.             §     Criminal Enterprise Investigations
                                                    §




 7. Combat major white-collar crime.                    §     White-Collar Crime
                                                    §




 8. Combat significant violent crime.                   §     Violent Crime/Major Offenders
                                                    §




 9. Support federal, state, county,
    municipal, and international partners.                           All Programs
                                                    §




10.   Upgrade technology to successfully
                                                                     All Programs
      perform the FBI’s mission.
                                                    §




Source: Director’s memorandum dated May 21, 2002


       10
            This is a sub-program within the National Foreign Intelligence Program.

       11
            This is a sub-program within the White-Collar Crime Program.

                                     -8-
                          REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


       The Director described the top three priorities on the list as being the
FBI’s most critical challenges and the ones that would require the FBI to
change its operational goals. The wording of these priorities highlights that
the most important goals for the FBI are protection and prevention, a change
from its traditional focus as a more reactive law enforcement agency.
Priorities four through eight are more traditional law enforcement functions,
which encompass much of the FBI’s historical investigative activities and
which have remained primarily under the direction of the Criminal
Investigative Division. Priorities nine and ten were designated as the critical
infrastructure to support all of the FBI’s investigative operations.

Funded Staffing Levels

       The means by which the FBI’s priorities are most directly translated
into operation is via the establishment of Funded Staffing Levels (FSLs), the
method by which the FBI allocates its personnel resources. As a reflection of
the shift in priorities, the FBI stated that it would change the number of
agents it had allocated to certain programs. For example, the events of
9/11 caused the Director to reevaluate current practices and reallocate a
significant number of agent positions to terrorism-related areas. We
reviewed this reallocation by comparing the FSL levels in FY 2000 to the
levels in FY 2003.12 Identifying the FSL changes indicated whether the FBI
was, in fact, adjusting its human resource planning to meet its new
objectives.

Resource Allocation Process

       Field Offices – In general, the FBI allocates its agent resources to the
field by establishing FSLs within each of its program areas. One FSL equates
to one funded employee, or one full-time equivalent (FTE). This means that
the FBI manager in charge of a program has a specific number of personnel
to divide among the 56 field offices. The FBI Resource Management and
Allocation (RMA) Office, with input from the Director, Headquarters’ program
managers, and SACs, is responsible for establishing the allocations annually
as part of the budget planning and execution process. The FBI sets FSLs by
program only for non-supervisory agents in FBI field offices. Supervisory
agent personnel are allocated to field offices in one lump sum as
“management,” while support personnel are allocated to field offices as
clerical/administrative, investigative, or technical types of support.




      12
        We utilized final adjusted FSL values, provided by the FBI’s Resource
Management and Allocation Office, for each of our analyses involving FSLs.

                                   -9-
                        REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


      FBI Headquarters – In general, Headquarters personnel are in
administrative positions. Therefore, the FBI does not allocate Headquarters
agent or support positions by investigative programs. Instead,
Headquarters FSLs for both agents and support are allocated according to
organizational divisions (e.g., the Criminal Investigative Division,
Counterterrorism Division, and Finance Division).13 In part, these
organizational divisions encompass the various programs to which FSLs are
allocated in the field. For instance, the Criminal Investigative Division
oversees, among others, the Organized Crime/Drug and Violent Crime/Major
Offenders programs.

Data Collection

       We obtained FSL data for FYs 2000 through 2003 FSLs for the FBI’s
Headquarters and field office personnel, which was further divided between
agent and support positions.14 We analyzed this information and discuss it
in the following sections. It should be noted that the FBI experienced an
overall decline in its FSLs from FYs 2000 to 2001. According to an FBI
official, this reduction was primarily a result of a mandate issued by the
Office of Management and Budget (OMB), which has become known as the
“hollow work year” issue. In short, OMB believed that the FBI did not have
sufficient money to fund its level of authorized positions. Therefore, during
FY 2001 (but prior to 9/11), OMB ordered the FBI to reduce its reported
numbers of funded positions. The FBI adhered to this mandate and cut both
agent and support funded positions within Headquarters and field offices
(although the majority of the reductions occurred in positions allocated to
field offices). In doing this, no employees were terminated. Instead, all
cuts took the form of the elimination of existing unfilled vacancies.

Overall FSL Analysis

       The Headquarters and field office FSLs for our review period are noted
in Exhibit 2-2. The combined total of 27,484 positions for FY 2003 reflects
an increase of 243 compared to those allocated in FY 2000. As shown,
significantly more personnel are assigned to field offices than FBI
Headquarters. From FYs 2000 through 2003, field offices had approximately
twice as many positions as those allocated to Headquarters.


       13
            An organizational chart that includes all FBI divisions is found in Appendix IV.

       14
           The FBI’s FSL data did not include the positions allocated for specialized entities
that are not a part of the field offices or FBI Headquarters (e.g., the International Law
Enforcement Academy in Budapest, Hungary; Legal Attaché Offices; and the Critical
Incident Response Group).

                                    - 10 -
                          REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


                              EXHIBIT 2-2
                 COMPOSITION OF FUNDED STAFFING LEVELS
                    FISCAL YEARS 2000 THROUGH 2003
                                          FY 2000        FY 2001       FY 2002        FY 2003
Total                                       27,241         25,925            26,534    27,484
 Agent                                      11,296         10,785            10,800    11,255
 Support                                    15,945         15,140            15,734    16,229
Field Office FSL Subtotal                   18,439         17,516            17,810    18,197
 Agent 1 5                                  10,474          9,981            10,022    10,124
 Support                                     7,965          7,535             7,788     8,073
Headquarters FSL Subtotal                     8,802          8,409            8,724      9,287
 Agent                                          822            804              778      1,131
 Support                                      7,980          7,605            7,946      8,156
Source: OIG analysis of FBI Resource Management and Allocation Office data


FBI Field Offices

       As noted in Exhibit 2-2, the FBI allocated 18,439 of its personnel
resources to its field offices during FY 2000 and 18,197 during FY 2003.
Thus, there was a slight decrease in the number of funded positions in the
field during this time period, amounting to a reduction of 242 positions. As
previously mentioned, the FBI allocates its non-supervisory field agents by
particular program areas and its field support personnel by the type of
support they provide. Exhibit 2-3 provides a detailed account of how these
agent and support FSLs were allocated from FYs 2000 through 2003.




       15
            The field agent FSLs include positions allocated for supervisory agents within field
offices.

                                     - 11 -
                           REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED



                                EXHIBIT 2-3
             COMPOSITION OF FIELD OFFICE FUNDED STAFFING LEVELS
                   FISCAL YEARS 2000 THROUGH 2003
                                          FY 2000       FY 2001        FY 2002        FY 2003
Field Office FSL Total                      18,439         17,516            17,810    18,197

Field Agent FSL Subtotal                    10,474           9,981           10,022    10,124
   White-Collar Crime Program                2,460           2,404            2,210     2,303
   Organized Crime/Drug
                                               2,279         2,078            1,511      1,521
      Program
   Violent Crime/Major Offenders
                                               2,004         1,821            1,006      1,009
      Program
   National Foreign
                                               CLASSIFIED INFORMATION REDACTED
    Intelligence Program
   Management                                  1,073         1,098            1,111      1,131
   Domestic Terrorism                            439           434              518        505
   National Infrastructure
     Protection/Computer                       CLASSIFIED INFORMATION REDACTED
     Intrusion Program1 6
   Civil Rights Program                          153            153             153       153
   Applicants Program                            132            121              79        79
   Training Program                              131             91              90        90
   Criminal Enterprise
                                                 N/A            N/A             650       701
      Investigations Program
   Cyber Crime Program                          N/A            N/A              269       268
   Technically Trained Agents                   N/A            N/A              N/A        38
   Evidence Response Teams                      N/A            N/A              N/A        20
Field Support FSL Subtotal                    7,965          7,535            7,788     8,073
   Clerical/Administrative                    3,987          3,852            3,940     3,960
   Investigative                              2,822          2,612            2,703     2,957
   Technical                                  1,156          1,071            1,145     1,156

Source: OIG analysis of FBI Resource Management and Allocation Office data


      In FY 2003, the FBI’s 56 field offices ranged in size from as large as
1,972 funded positions (New York City) to as small as 71 funded positions
(Anchorage). In terms of funded positions, the FBI’s five largest field offices
were New York City, Washington, Los Angeles, Chicago, and Miami.
Combined, these offices represented over 30 percent of the total resources
allocated to the field. Exhibit 2-4 provides a list of the total FSLs allocated
to each field office and FBI Headquarters for FYs 2000 and FY 2003.



       16
           In FY 2003, the FBI did not allocate field agent positions for National
Infrastructure Protection, only the Computer Intrusion Program.

                                    - 12 -
                          REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED

                                    EXHIBIT 2-4
AGENT AND SUPPORT FUNDED STAFFING LEVELS FOR FBI FIELD OFFICES AND FBI HEADQUARTERS
                            FISCAL YEARS 2000 AND 2003
                   FY 2000    FY 2003                 FY 2000      FY 2003
    LOCATION                            CHANGE                               CHANGE
                   AGENTS     AGENTS                  SUPPORT      SUPPORT
FIELD OFFICES:
NEW YORK CITY          1,156      1,071      -85           935         901      -34
LOS ANGELES              695        674      -21           448         456        8
WASHINGTON               662        711       49           702         725       23
CHICAGO                  454        432      -22           309         304       -5
MIAMI                    419        408      -11           287         286       -1
SAN FRANCISCO            360        353       -7           265         275       10
NEWARK                   353        326      -27           217         212       -5
PHILADELPHIA             314        273      -41           206         198       -8
HOUSTON                  306        276      -30           233         254       21
BOSTON                   259        242      -17           174         173       -1
DALLAS                   254        227      -27           206         198       -8
ATLANTA                  250        214      -36           177         183        6
DETROIT                  235        234       -1           167         172        5
SAN DIEGO                233        218      -15           158         170       12
PHOENIX                  229        212      -17           130         146       16
BALTIMORE                211        199      -12           178         177       -1
SAN ANTONIO              200        189      -11           147         149        2
SAN JUAN                 177        164      -13           109         106       -3
CLEVELAND                169        166       -3           131         121      -10
SALT LAKE CITY           168        146      -22           138         134       -4
NEW ORLEANS              160        153       -7           104         104        0
TAMPA                    153        145       -8           109         114        5
DENVER                   137        139        2           104         117       13
KANSAS CITY              137        133       -4           103         102       -1
PITTSBURGH               132        134        2           101          99       -2
SEATTLE                  131        130       -1           106         119       13
EL PASO                  130        112      -18            88          84       -4
OKLAHOMA CITY            128        124       -4           102          99       -3



                                     - 13 -
                           REDACTED AND UNCLASSIFIED
                                      REDACTED AND UNCLASSIFIED


                             FY 2000       FY 2003                          FY 2000         FY 2003
       LOCATION                                          CHANGE                                          CHANGE
                             AGENTS        AGENTS                          SUPPORT         SUPPORT
SACRAMENTO                        127             130              3                  88            93           5
CHARLOTTE                         117             114             -3                  82            87           5
MINNEAPOLIS                       115             115              0                  83            88           5
LAS VEGAS                         109             111              2                  82            85           3
NEW HAVEN                         104             103             -1                  75            75           0
ALBUQUERQUE                       101              98             -3                  77            84           7
INDIANAPOLIS                       92              94              2                  73            75           2
PORTLAND                           92             108             16                  64            74          10
BUFFALO                            91             107             16                  79            89          10
MEMPHIS                            90              88             -2                  65            64          -1
HONOLULU                           83              84              1                  68            67          -1
MILWAUKEE                          81              82              1                  67            71           4
CINCINNATI                         79              79              0                  67            66          -1
ST. LOUIS                          77              80              3                  70            67          -3
LOUISVILLE                         75              74             -1                  67            65          -2
ALBANY                             74              72             -2                  62            60          -2
KNOXVILLE                          73              69             -4                  60            68           8
COLUMBIA                           72              70             -2                  57            58           1
BIRMINGHAM                         71              74              3                  63            64           1
JACKSONVILLE                       71              76              5                  65            64          -1
JACKSON                            70              67             -3                  52            54           2
RICHMOND                           69              67             -2                  57            56          -1
OMAHA                              68              78             10                  60            64           4
LITTLE ROCK                        63              67              4                  59            58          -1
NORFOLK                            61              62              1                  54            62           8
SPRINGFIELD                        59              61              2                  51            49          -2
MOBILE                             54              55              1                  50            51           1
ANCHORAGE                          24              34             10                  34            37           3
 TOTAL FIELD OFFICES         10,474         10,124         -350              7,965            8,073       108
    HEADQUARTERS               822           1,131         309               7,980            8,156       176
     GRAND TOTAL             11,296         11,255          -41             15,945           16,229       284
Source: OIG analysis of FBI Resource Management and Resource Allocation Office data


                                                - 14 -
                                      REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


       Field Agent Positions – Exhibit 2-5 highlights the resources allocated
for field agents during our review period. As shown, the total agent
positions allocated to FBI field offices ranged from 10,474 in FY 2000 to
10,124 in FY 2003, reflecting a decrease of 350 funded positions. Except for
a single year decrease from FY 2000 to FY 2001, the number of agents
allocated to field offices has increased in each subsequent fiscal year.

                                    EXHIBIT 2-5
                        FIELD AGENT FUNDED STAFFING LEVELS
                         FISCAL YEARS 2000 THROUGH 200317


                 10,474

                                                                            10,124
                                     9,981               10,022




              FY 2000             FY 2001             FY 2002             FY 2003


       Source: OIG analysis of FBI Resource Management and Allocation Office data


      Because the FBI’s primary reason for transforming itself was to combat
terrorism, we compared non-supervisory field agent resources allocated for
matters related to terrorism to those allocated for non-terrorism work. 18
Exhibit 2-6 illustrates what has occurred in each of these areas during our

       17
            Agent FSLs in this exhibit include those allocated for management positions
within field offices.

       18
           We categorized FBI activities as being related to terrorism based on the program
in which the work is captured. We considered terrorism- related work to be captured in the
National Foreign Intelligence, Domestic Terrorism, and National Infrastructure
Protection/Computer Intrusion programs.


                                    - 15 -
                          REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


review period. In line with its shift in priorities, the FBI assigned additional
non-supervisory field agent positions for terrorism-related matters and fewer
agent resources for non-terrorism related matters.19 In fact, the number of
allocated positions for terrorism-related matters has risen from FYs 2000 to
2002, with a slight decrease from FYs 2002 to 2003. In turn, the non-
terrorism related agent staffing levels declined from FY 2000 to FY 2002,
with a slight increase from FYs 2002 to 2003.

                               EXHIBIT 2-6
               COMPOSITION OF NON-SUPERVISORY FIELD AGENT
                         FUNDED STAFFING LEVELS
                    FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI Resource Management and Allocation Office data


      The figures in Exhibit 2-6 provide the totals for the broad areas to
which non-supervisory field agents were allocated, while Exhibit 2-7 provides
a more in-depth look. This data is separated according to the various
programs to which the FBI allocates field agent positions. As with
Exhibit 2-6, we excluded field office management from this analysis because
the FBI does not allocate supervisory agent positions among the various
programs in the field.

       19
             In FY 2003, the FBI allocated 58 non-supervisory field agent positions to two new
categories: Evidence Response Teams (ERTs) and Technically Trained Agents (TTAs). According
to FBI officials, agents within these two categories provide investigative support to all program
areas. Thus, we excluded these positions from our comparisons of terrorism-related and
non-terrorism related funded positions.

                                    - 16 -
                          REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED


                                     EXHIBIT 2-7
                     ALLOCATION OF NON-SUPERVISORY FIELD AGENTS
                                   FISCAL YEARS 2000 THROUGH 2003
                       FUNDED COMPONENT                   FY 2000    FY 2001   FY 2002   FY 2003
                Foreign Counterintelligence
                International Terrorism
TERRORISM




                Domestic Terrorism
 RELATED




                                                          CLASSIFIED INFORMATION REDACTED
                National Infrastructure
                                                  20
                    Protection/Computer Intrusion
                Security
                                         SUBTOTAL           2,242      2,215     2,943     2,811

                White-Collar Crime                           2,460     2,404     2,210     2,303
                Violent Crimes and Major Offenders           2,004     1,821     1,006     1,009
NON-TERRORISM




                Organized Crime/Drugs                        1,746     1,590     1,023     1,033
                                                     21        N/A       N/A       650       701
                Criminal Enterprise Investigations
   RELATED




                OCDETF2 2                                      533       488       488       488
                Civil Rights                                   153       153       153       153
                Applicant Matters                              132       121        79        79
                Training                                       131        91        90        90
                              23                               N/A       N/A       269       268
                Cyber Crime

                                         SUBTOTAL           7,159      6,668     5,968     6,124

                        OVERALL TOTALS                      9,401      8,883     8,911     8,935

Source: OIG analysis of FBI Resource Management and Allocation Office data


       As can be seen in Exhibits 2-6 and 2-7, the overall reduction in field
agent positions occurred in non-terrorism related programs. These areas
experienced an overall decrease of 1,035 agent positions from FYs 2000 to
2003, a change of 14 percent. Specifically, the funded components that fall
under the Criminal Investigative Division (CID) lost more than 1,200 agent
positions during our review period, which equates to a decline of almost


                20
            In FY 2003, the National Infrastructure Protection Center, which had been a part
of the FBI’s National Infrastructure/Computer Intrusion Program, was transferred to the
Department of Homeland Security.
                21
          The FBI established the Criminal Enterprise Investigations Program during
FY 2002 and began allocating field agent positions to this area in that fiscal year.

                22
            The Organized Crime/Drug Enforcement Task Force (OCDETF) program is a
coordinated effort of nine federal agencies The FBI’s budget specifically earmarks positions
for this purpose and identifies them as reimbursable resources.
                23
           The FBI established the Cyber Division in FY 2002 and began allocating field agent
positions to its two components, Computer Intrusion and Cyber Crime, at that time.

                                             - 17 -
                                   REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


20 percent.24 While most of these funded positions lost from CID programs
were moved to terrorism-related work, some were redirected to the Cyber
Division (i.e., the Computer Intrusion and Cyber Crime Programs) in
FY 2002.

      Conversely, the overall number of non-supervisory field agent
positions allocated to terrorism-related matters increased significantly from
FYs 2000 to 2003. More than 560 additional funded positions were allocated
to these areas in FY 2003, an increase of 25 percent. In particular, the
number of allocated agent positions [CLASSIFIED INFORMATION
REDACTED].

       Using data from Exhibit 2-7, we examined FSL changes during our
review period at the program level and developed a graphical
representation, which is presented in Exhibit 2-8. As shown, the
combination of the White-Collar Crime and Organized Crime/Drug programs
accounted for more than half of the FBI’s allocated non-supervisory field
agent positions during FY 2000. By FY 2003, however, the greatest number
of allocated positions resided within the White-Collar Crime and National
Foreign Intelligence (NFIP) programs. Additionally, although it appears that
the percentage of FBI funded agent positions encompassed by VCMO
declined by approximately ten percent between FYs 2000 and 2003, this is
not the case. In FY 2002, the FBI removed several sub-programs from
VCMO and placed them into the newly-established Criminal Enterprise
Investigations Program (CEI), which deals with violent criminal enterprises.
Thus, a portion of VCMO agent resources was transferred to CEI. When
combined, the percentage of FBI agent resources devoted to violent crime
matters dropped by only two percent.




      24
         The components in Exhibit 2-7 that fall under CID are White-Collar Crime, Violent
Crime/Major Offenders, Organized Crime/Drugs, Criminal Enterprise Investigations,
OCDETF, and Civil Rights.

                                  - 18 -
                        REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


                               EXHIBIT 2-8
            NON-SUPERVISORY FIELD AGENT FUNDED STAFFING LEVEL
                        ALLOCATIONS BY PROGRAM
                      FISCAL YEARS 2000 AND 200325




                     CLASSIFIED INFORMATION REDACTED




            FISCAL YEAR 2000                                   FISCAL YEAR 2003
            Source: OIG analysis of FBI Resource Management and Allocation Office data


       Field Support Positions – Based upon the data obtained from the FBI,
FSLs for support resources in the field totaled 7,965 in FY 2000. In FY 2003,
the total number of FSLs was 8,073, an increase of 108 positions since
FY 2000. Exhibit 2-9 provides an overview of the total positions allocated to
the field for support personnel.

      As noted, in contrast to field agent positions, which are allocated at
the program level, FSLs for field support personnel are divided into three
categories: Clerical/Administrative, Investigative, or Technical. From the
data collected by the FBI, it is not possible to determine if support personnel
are working in areas that are terrorism or non-terrorism related. However,
we reviewed how the FBI allocated resources to its three support categories
in each fiscal year of our review period and found very little change. As
shown in Exhibit 2-9, on average approximately half of the support positions
in the field were comprised of Clerical/Administrative positions. Another
35 percent were allocated to the Investigative category, which includes
positions such as special surveillance groups and language specialists. The
remaining 15 percent were assigned to the Technical area, which includes
positions such as electronics technicians.

       25
           NFIP consists of the Foreign Counterintelligence, Security, and International
Terrorism sub-programs. OC/D includes Organized Crime, Drugs, and OCDETF.

                                   - 19 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


                        EXHIBIT 2-9
    FUNDED STAFFING LEVELS FOR FIELD SUPPORT CATEGORIES
              FISCAL YEARS 2000 THROUGH 2003

                               Clerical/Administrative   Investigative   Technical
                                                                                          TOTAL
               TOTAL                                           TOTAL
                                    TOTAL                                                  8,073
                7,965                                           7,788
                                     7,535

              1,156                                                                     1,156
                                                            1,145
                                  1,071



              2,822                                         2,703                       2,957
                                  2,612




              3,987               3,852                     3,940                       3,960




          FY 2000              FY 2001                   FY 2002                     FY 2003



   Source: OIG analysis of FBI Resource Management and Allocation Office data


FBI Headquarters

       Headquarters agent and support personnel are allocated by divisions
or offices, and in FY 2000 the FBI allocated 8,802 FSLs to these
Headquarters components (about 30 percent of the FBI’s total resources).
Since that time, the resources allotted for Headquarters personnel have
grown by 485 positions. As mentioned earlier, Headquarters’ FSLs can be
further broken down into agent and support personnel.

      Headquarters Agent Positions – There was not a significant change in
the number of agent positions allocated to FBI Headquarters between
FYs 2000 and 2002. However, there was a significant increase during
FY 2003 when the number of allocated agent resources expanded from 778
in FY 2002 to 1,131 in FY 2003. Thus, from FYs 2000 to 2003, the number
of Headquarters agent positions increased by 309 positions, or nearly
40 percent.




                                   - 20 -
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


                               EXHIBIT 2-10
                   ALLOCATION OF HEADQUARTERS AGENTS
                       FISCAL YEARS 2000 AND 2003
                                            FY 2000 FY 2003       FSL    PERCENT
 HEADQUARTERS COMPONENT
                                              FSL       FSL     CHANGE CHANGE
Criminal Investigative Division                  144       154        10         7
Laboratory Division                              139        66      -73        -53
Counterterrorism Division                      CLASSIFIED INFORMATION REDACTED
Training & Development Division                  102       124        22        22
Counterintelligence Division                   CLASSIFIED INFORMATION REDACTED
Office of International Operations                57        17      -40        -70
Inspection Division                               30        29        -1        -3
Office of Professional Responsibility             28        25        -3       -11
Administrative Services Division                  27        21        -6       -22
Information Resources Division                    20         2      -18        -90
Office of the General Counsel                     18        20         2        11
Criminal Justice Information
                                                    17            12             -5    -29
   Services Division
Office of Public Affairs                            17            18           1        6
Finance Division                                    11             8          -3      -27
Director’s Office                                    5            10           5      100
Office of EEO Affairs                                5             4          -1      -20
Cyber Division2 6                                  N/A            48          48      N/A
Investigative Technology26                         N/A           104         104      N/A
Records Management Division26                      N/A             2           2      N/A
Security Division26                                N/A            63          63      N/A
                TOTALS                            822         1,131          309      38%
Source: OIG analysis of FBI Resource and Management Allocation Office data


       Exhibit 2-10 shows the allocation of agent positions to Headquarters
divisions for FYs 2000 and 2003, along with the corresponding changes over
this time period. From this data, we noted that the FBI enhanced its agent
staffing levels in those divisions with a direct connection to its new,
terrorism-focused priorities. For instance, the Counterterrorism Division
experienced an increase [CLASSIFIED INFORMATION REDACTED].
Furthermore, the Counterintelligence Division was allocated [CLASSIFIED
INFORMATION REDACTED]. In turn, the FBI reduced the level of agent
resources allocated to other divisions. For example, the Laboratory
Division’s FSLs decreased by 73 agent positions from FYs 2000 to 2003, a
reduction of more than 50 percent. However, according to an FBI official, a
portion of these positions were moved from the Laboratory Division to the
Investigative Technology Division, which was established during FY 2003.


       26
            No agent positions were allocated to this division during FY 2000.

                                    - 21 -
                          REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       In terms of composition, based upon the FSL data the
Counterterrorism Division was the largest FBI Headquarters Division during
FY 2003, accounting for 20 percent of the total resources allocated for
Headquarters agent personnel. From FYs 2000 to 2002, the Criminal
Investigative Division was the largest FBI Headquarters division. From this
perspective, the FBI has focused its FSL allocations according to its
priorities.

      Headquarters Support Positions – Unlike the FSLs for Headquarters
agents, the total allotted positions for support personnel within FBI
Headquarters did not significantly change from FYs 2000 to 2003. Over this
time period, these resources increased by 176 positions, a growth of only
2 percent. However, as shown in Exhibit 2-11, the composition of
Headquarters support positions did change to reflect the FBI’s new priorities.

       Similar to Exhibit 2-10, Exhibit 2-11 shows the allocation of support
personnel positions to Headquarters divisions for FYs 2000 and 2003, along
with the corresponding changes over this time period. These changes
indicate the FBI also allocated its support staffing levels in accordance with
terrorism-driven priorities. For example, the Counterterrorism Division was
allotted [CLASSIFIED INFORMATION REDACTED], while the
Counterintelligence Division received [CLASSIFIED INFORMATION
REDACTED]. At the same time, several new components were created and
allocated support positions, including the Cyber Division and the Records
Management Division. In turn, the FBI reduced the level of resources
allocated to other divisions. Notably, the Office of Public and Congressional
Affairs (OPCA) experienced the greatest reduction of support positions within
any Headquarters component, a decline of 680 positions. However,
according to an FBI official, the majority of these positions were from the
Freedom of Information/Privacy Acts Section, which was moved from OPCA
to the Records Management Division during FY 2002.




                               - 22 -
                     REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


                                    EXHIBIT 2-11
            ALLOCATION OF HEADQUARTERS SUPPORT PERSONNEL
                          FISCAL YEARS 2000 AND 2003
                                       FY 2000 FY 2003 NUMBER PERCENT
  HEADQUARTERS COMPONENT
                                         FSL       FSL     CHANGE CHANGE
Criminal Justice Information
                                          2,974     2,512      -462      -16
   Services Division
Laboratory Division                         949       610      -339      -36
Office of Public & Congressional
                                            766        86      -680      -89
    Affairs
Information Resources Division              753       572      -181      -24
Administrative Services Division            726       604      -122      -17
Finance Division                            359       323       -36      -10
Training & Development Division             334       269       -65      -19
Investigative Services Division2 7          297       N/A      -297     -100
Counterintelligence Division              CLASSIFIED INFORMATION REDACTED
Counterterrorism Division                 CLASSIFIED INFORMATION REDACTED
Office of the General Counsel               152       176        24       16
Criminal Investigative Division             143       194        51       36
Inspection Division                          66        63        -3       -5
Office of Professional Responsibility        41        39        -2       -5
Director’s Office                            26        44        18       69
Office of EEO Affairs                        23        22        -1       -4
Cyber Division2 8                           N/A        45        45      N/A
Office of International Operations 28       N/A        84        84      N/A
Investigative Technology28                  N/A       514       514      N/A
Records Management Division28               N/A       851       851      N/A
                  28
Security Division                           N/A       556       556      N/A
                 TOTALS                          7,980         8,156         176             2%
Source: OIG analysis of FBI Resource and Management Allocation Office data


Chapter Summary

       A significant part of the FBI’s transformation plans included allocating
its funded positions (or FSLs) in accordance with its new priorities. Based
upon our analysis of the data, we found that the FBI had, in fact, deployed its
FSLs according to its new priorities in both the funded positions allocated to
field programs and those allocated to Headquarters divisions.




       27
          No support personnel positions were allocated to this division during FY 2003; it
was disbanded in the FBI’s post-9/11 reorganization.

       28
            No support personnel positions were allocated to this division during FY 2000.

                                    - 23 -
                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       Within field offices, the FBI increased the number of agent positions it
allocated for terrorism-related matters. More than 560 additional funded
positions were allocated to these types of areas in FY 2003 compared to
FY 2000, an increase of 25 percent. In particular, the number of allocated
agent positions [CLASSIFIED INFORMATION REDACTED]. In turn, 1,035
fewer agent positions were allotted for non-terrorism related matters.
Specifically, the resources allocated to various programs within the Criminal
Investigative Division dropped by almost 20 percent.

      Similar changes occurred within FBI Headquarters as the FBI enhanced
its Counterterrorism and Counterintelligence divisions by allotting additional
agent and support resources to each. In particular, the Counterterrorism
Division’s FSLs increased [CLASSIFIED INFORMATION REDACTED] in both
agent and support positions, while the Counterintelligence Division
experienced a growth [CLASSIFIED INFORMATION REDACTED] in its
allocated agent resources from FY 2000 to FY 2003. We further noted that
while the FBI added a relatively small number of positions (10 agents and 51
support personnel) to the Criminal Investigative Division, it also reduced the
agent and support resources to some Headquarters divisions, such as the
FBI Laboratory.




                                - 24 -
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



  CHAPTER 3: RESOURCE UTILIZATION AND CASEWORK

      In order to determine the specific investigative areas in which the FBI
was concentrating its efforts, we reviewed resource utilization levels and
casework data within the fiscal years covered by our review. While the FSL
analysis in Chapter 2 assesses the FBI’s planned resource usage, the
examination of resource utilization in this chapter shows the types of
investigations FBI personnel actually spent time performing. Moreover, the
analysis of casework data provides additional information on certain
investigative areas. We conducted these analyses to identify the areas of
change in the FBI’s operational efforts as a result of its reprioritization and
reprogramming.

       Based on our analyses of this FBI timekeeping data, we found that the
FBI utilized agent resources consistent with its mandate to make combating
terrorism its primary focus. Moreover, during FY 2003, agent resources were
utilized above the allocated levels for matters related to the FBI’s three
highest priorities – counterterrorism, counterintelligence, and cyber crime.
We also found that most of our casework analyses supported the same
conclusions. The results of our analyses also specifically identified
investigative areas in which the FBI significantly changed its resource
utilization, either by increasing or decreasing its effort. To comply with FBI
priorities, resources dedicated to terrorism matters significantly increased.

       As discussed in Chapter 2, resources were transferred from traditional
criminal investigative programs, specifically, the Organized Crime/Drug
(OC/D), White-Collar Crime (WCC), and Violent Crime/Major Offenders
(VCMO) programs, to programs related to combating terrorism. We found
certain investigative areas, mostly within the OC/D, WCC, and VCMO
programs, to be significantly affected by the reduction in funded agent
resources. Moreover, in traditional crime programs, actual agent resource
utilization decreased at an even greater rate than what was allocated.
Therefore, the FBI’s transformation significantly impacted the number of
agents investigating traditional crime, even beyond what the FBI had
planned.




                                - 25 -
                      REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


Automated System

      The FBI uses the Time Utilization and Recordkeeping (TURK) system to
record time spent by most FBI field office personnel on various types of
investigative matters.29 The TURK system requires field agents to report daily
the proportion of their time worked in FBI investigative classifications.
Therefore, the data derived from the FBI TURK system is only as valid as the
information reported by FBI field agents. TURK data is recorded for the
following personnel:

               AGENTS                             SUPPORT PERSONNEL
  •    non-supervisory special                •   investigative specialists
       agents grade GS-13 and                 •   language specialists
       below
                                              •   financial assistants/analysts
  •    grade GS-14 Chief Division
       Counsels                               •   information technology
                                                  specialists-forensic examiners
  •    grade GS-14 Assistant
       Division Counsels                      •   intelligence research specialists
                                              •   surveillance specialists

      For each agent (or support employee) the FBI TURK system
maintains the percentage of time worked each day according to FBI
investigative classifications, which the FBI calls Average on Board (AOB).
The percentages are based on a 10-hour day for agents and an 8-hour day
for support personnel. The FBI considers the TURK system’s AOB data to be
the best way to assess the actual amount worked by FBI employees in
specific FBI investigative programs, sub-programs, and classifications. For
the purposes of this report, we use the term AOB and on-board employee
(agent or support) interchangeably.

       Although time and attendance data is recorded daily by FBI personnel,
data collection in the TURK system is divided into 13 TURK periods each
fiscal year, making each TURK period consist of 2 pay periods. For example,
the terrorist attacks on September 11, 2001, occurred during TURK period
13 of FY 2001.




       29
          FBI Headquarters personnel are not required to record their time in TURK
because, generally, they do not work on specific investigative matters. In addition, top
level management within FBI field offices do not record time in TURK.

                                   - 26 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


Investigative Programs, Sub-programs, and Classifications

       The FBI assigns each of its cases to an investigative classification based
on the crime that is being investigated. The investigative classification is the
greatest level of detail to which the FBI tracks resource utilization. Each
classification is assigned to a program and, if appropriate, a sub-program. An
example of this is detailed in Exhibit 3-1. If a “TURKing” FBI employee
worked a bank robbery case, the percentage of time worked would be
recorded for Classification 091A (Bank Robbery), which is within the Violent
Incident Crimes sub-program of the Violent Crime/Major Offenders Program.

                               EXHIBIT 3-1
                   FBI INVESTIGATIVE NOMENCLATURE
      Category             Name                          Indicator
      Program              Violent Crime/Major Offenders   VCMO
        Sub-program        Violent Incident Crimes          VC
           Classification  Bank Robbery                    091A
      Source: FBI Finance Division

      Data Collection – We obtained TURK AOB information for both agent
and support personnel from September 26, 1999, through September 20,
2003. 30 The universe included a total of 1,009,971 records, consisting of
agent AOB captured for each FBI field office at the program, sub-program,
and investigative classification level for each TURK period of our reviewed
timeframe.

      Data Analysis – In general, we analyzed AOB data by fiscal year.
Exhibit 3-2 shows the total agent AOB from FYs 2000 through 2003 for the
FBI as a whole. Agent utilization within field offices has decreased by nearly
400 agents since FY 2000. A large portion of this decrease is related to a
hiring freeze the FBI experienced in FY 2001, often referred to by the FBI as
the “hollow work year” issue.31




      30
            September 26, 1999, through September 20, 2003, encompass FYs 2000
through 2003 in the TURK system. Because TURK periods are comprised of pay periods,
fiscal years in the TURK system do not always end on September 30 or begin on October 1.

      31
           The hollow work year issue is discussed in Chapter 2.

                                   - 27 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


                                EXHIBIT 3-2
                     TOTAL FBI ON-BOARD FIELD AGENTS
                     FISCAL YEARS 2000 THROUGH 2003




         Source: OIG analysis of FBI TURK data


Agent Utilization at the FBI Program Level

      We further analyzed agent resource utilization by reviewing AOB at the
program level for FYs 2000 through 2003. However, it must be noted that
both the WCC and VCMO programs had sub-programs transferred to the new
Cyber Crime Program (CCP) and Criminal Enterprise Investigations (CEI)
Program for FY 2003, as detailed in Exhibit 3-3.

                               EXHIBIT 3-3
         SUB-PROGRAMS TRANSFERRED BETWEEN PROGRAMS
                                 FYs 2000 – 2002 FY 2003
          Sub-program
                                     Program     Program
  Intellectual Property Rights         WCC         CCP
  Innocent Images Initiative          VCMO         CCP
  OCDETF – VCMO                       VCMO         CEI
  Major Theft                         VCMO         CEI
  Violent Gangs                       VCMO         CEI
  Source: FBI Finance Division

       Therefore, to accurately compare the change in the FBI’s investigative
efforts at the program level, we adjusted the WCC and VCMO programs’
agent utilization figures for FY 2003 to encompass the transferred
sub-programs’ agent utilization data. Exhibit 3-4 illustrates the average

                                   - 28 -
                         REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


agent utilization within each FBI program for FYs 2000 through 2003,
charting the change in the number of agent resources investigating cases
within particular programs.

                                EXHIBIT 3-4
                  AGENT UTILIZATION WITHIN FBI PROGRAMS
                 ADJUSTED FOR SUB-PROGRAMS TRANSFERRED
                     FISCAL YEARS 2000 THROUGH 2003




                     CLASSIFIED INFORMATION REDACTED




Source:     OIG analysis of FBI TURK data


      As evidenced in Exhibit 3-4, traditional crime area programs,
specifically the WCC, OC/D, and VCMO programs, experienced significant
agent resource reductions during our review period.32 This reduction in
resources is in accord with FBI officials’ statements that resources were
transferred from traditional crime programs to terrorism-related efforts.
Conversely, the National Foreign Intelligence Program (NFIP) experienced a
large increase in agent utilization. Between FYs 2000 and 2002,
[CLASSIFIED INFORMATION REDACTED]. This increase coincides with the
FBI’s changed priorities in counterterrorism and counterintelligence matters.




       32
           A more detailed discussion of these programs and their agent utilization
reductions is contained in Chapter 4.

                                     - 29 -
                           REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       As noted in Chapter 1, the 9/11 attacks caused agent utilization data
at the end of FY 2001 and throughout the first half of FY 2002 to be skewed
towards terrorism-related matters. Therefore, in order to conduct a better
comparison of resource utilization within the FBI, we concentrated our
analysis on comparing FY 2000 data to FY 2003 data. This approach
provided a view of resource utilization both before and well into the FBI’s
reprioritization efforts, revealing the areas of greatest change in actual agent
(and support personnel) time worked at the program, sub-program, and
classification levels.

       We computed the change in agent utilization within the FBI programs,
as shown in Exhibit 3-5. Again, we adjusted the VCMO and WCC programs
to reflect the programs’ sub-program composition in FY 2000.33 The
program experiencing the largest increase in the number of agents working
its investigations was NFIP, [CLASSIFIED INFORMATION REDACTED] in
FY 2003. Traditional crime programs – VCMO, WCC, and OC/D –
experienced the largest reductions in agent utilization. These resource
changes correlate with the FBI's new priorities and its changes to agent
allocations (FSLs).

                              EXHIBIT 3-5
                ON-BOARD AGENT CHANGES IN FBI PROGRAMS
                      FISCAL YEARS 2000 AND 2003




                  CLASSIFIED INFORMATION REDACTED




      Source: OIG analysis of FBI TURK data




      33
         Exhibit 3-3 details which sub-programs were transferred from the VCMO and
WCC programs to the CEI Program and CCP.

                                   - 30 -
                         REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      In addition to analyzing the change in the number of agents utilized
within each program between FYs 2000 and 2003, we evaluated the
proportion of the total number of agents utilized in each program, as
graphically presented in Exhibit 3-6. These charts show the percentage of
FBI agent resources used within each program for FYs 2000 and 2003. As
shown, the largest decrease occurred in the OC/D Program; of the total
investigative agents in each fiscal year, the OC/D Program utilized
10 percent fewer agents in FY 2003 than in FY 2000. Alternatively,
the percentage of total agents investigating [CLASSIFIED INFORMATION
REDACTED].

                              EXHIBIT 3-6
                 AGENT UTILIZATION AS A PERCENTAGE OF
                        TOTAL AGENT RESOURCES
                     FISCAL YEARS 2000 AND 2003

             FISCAL YEAR 2000                             FISCAL YEAR 2003




                 CLASSIFIED INFORMATION REDACTED




                         Source: OIG analysis of FBI TURK data


       Exhibit 3-4, Exhibit 3-5, and Exhibit 3-6 show that, before the FBI’s
reprioritization, the traditional criminal programs – WCC, OC/D, and VCMO –
used more agent resources than other programs. However, subsequent to
the reprioritization, NFIP, compared to all other programs, utilized the largest
percentage of total FBI field agent resources and increased its agent
utilization more than any other program.

Comparison of Agent Allocation to Utilization

      As discussed in Chapter 2, the FBI allocates agent resources in terms
of Funded Staffing Levels (FSLs). The data discussed within this chapter
focuses on agent utilization – how agent resources were actually used.
Exhibit 3-7 graphically compares allocated to actual field agent data for
FYs 2000 through 2003. The difference between the allocated resources
                               - 31 -
                     REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


(FSLs) and actual resources utilized (on-board agents) generates what the
FBI refers to as the “burn rate.” In FY 2001, the FBI experienced an
“overburn,” which occurs when resources are utilized at a level above the
FSL; the overburn in FY 2001 was 165 agents. An “underburn” occurs when
resources are utilized at a level below the FSL. This was the case in
FYs 2000, 2002, and 2003. The largest underburn during our review period
occurred in FY 2002; the FBI utilized 128 fewer on-board agents than it was
allocated.

                            EXHIBIT 3-7
        COMPARISON OF FIELD AGENT ALLOCATION TO UTILIZATION
                 FISCAL YEARS 2000 THROUGH 200334

                             Agent Funded Staffing Level   On-Board Agents



            9,401
                     9,301

                                            9,048
                                                                        8,993
                                   8,883              8,911                     8,901
                                                              8,783




              2000                   2001             2002              2003
                                        FISCAL YEAR
     Source: OIG analysis of FBI TURK data and Resource Management and Allocation Office data


      To better assess how the FBI’s reprioritization of terrorism-related
work has affected its agent utilization since 9/11, we compared burn rates in
two broad investigative categories: terrorism-related and non-terrorism
related.35 As seen in Exhibit 3-8, in FY 2003 the FBI experienced an

      34
          On-board agent data only captures non-supervisory field agents, including ERTs
and TTAs. Therefore, we excluded management positions allocated to field offices from this
analysis.

      35
           The FSL and on-board agent data for “Terrorism- Related” and “Non-Terrorism
Related” correspond with the categories listed in Exhibit 2-7.

                                       - 32 -
                             REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


overburn of 845 field agent resources in terrorism-related matters and an
underburn of 879 agent resources in non-terrorism related matters.

                         EXHIBIT 3-8
    COMPARISON OF FIELD AGENT ALLOCATION TO UTILIZATION
                     FISCAL YEAR 200336




    Source: OIG analysis of FBI TURK and Resource Management and Allocation Office data


Casework at the FBI Program Level

       In addition to agent utilization, we reviewed the universe of all field
office cases in the ACS system during our review period and compared the
number of cases opened, by program, in FY 2000 to those opened in
FY 2003. We found that by FY 2003, the FBI opened fewer cases in
traditional criminal areas and more in those areas related to terrorism. As
shown in Exhibit 3-9, the number of cases opened in the National Foreign
Intelligence Program (NFIP) and Domestic Terrorism (DT) Program increased
between the two periods, while the number of cases opened in the OC/D,
WCC, and VCMO programs decreased.




      36
          On-board agent data only captures non-supervisory field agents. Therefore, we
excluded management positions allocated to field offices from this analysis.

                                   - 33 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


                                EXHIBIT 3-9
                FIELD OFFICE CASES OPENED IN FBI PROGRAMS
                       FISCAL YEARS 2000 AND 200337




  Source: OIG analysis of FBI ACS data


      Specifically, the FBI opened 8,925 more NFIP cases in FY 2003 than in
FY 2000, reflecting an increase of more than 70 percent. The FBI opened
over 50 percent more Domestic Terrorism cases in FY 2003 than in FY 2000.
In contrast, the FBI opened over 50 percent fewer Organized Crime/Drug
cases, 40 percent fewer Violent Crime cases, and more than 25 percent
fewer White-Collar Crime cases in FY 2003 than in FY 2000. The FBI also
opened fewer Civil Rights, Training, and National Infrastructure
Protection/Computer Intrusion cases in FY 2003 compared to FY 2000.




      37
          The VCMO and WCC totals were adjusted to reflect the sub-programs from each
that moved into new programs in FY 2003, as noted in Exhibit 3-3.

                                   - 34 -
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


      We then consolidated the data found in Exhibit 3-9 into terrorism and
non-terrorism related matters in order to review how trends in case
openings within these two broader categories changed from FY 2000 to
FY 2003. As shown in Exhibit 3-10, we found that the FBI increased the
number of terrorism-related cases it opened by more than 60 percent and
reduced the number of non-terrorism related cases it opened by 37 percent
during our review period.

                             EXHIBIT 3-10
             TERRORISM-RELATED AND NON-TERRORISM RELATED
                      FIELD OFFICE CASES OPENED
                     FISCAL YEARS 2000 AND 200338




     Source: OIG analysis of FBI ACS data


Agent Utilization and Casework at the FBI Classification Level

       To obtain the most detailed information possible, we analyzed agent
utilization at the investigative classification level between FYs 2000 and
2003. Since our focus was on the FBI’s investigative efforts, we eliminated
training and administrative classifications tracked within the TURK system
from this analysis. Also, classifications that changed or existed in only one
of the two fiscal years examined were not included in the analysis.39

       38
           Case openings in the MISC program, which are captured in Exhibit 3-9, are not
included in this analysis because they are generally administrative (non-investigative) in
nature.

       39
            The classifications eliminated from our review are noted in Appendix I.

                                    - 35 -
                          REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


      During our analysis, we recognized the large impact of percent
changes in agent utilization within classifications or programs. This is best
explained by an example. In Classification 281A (OC/DI LCN and Italian
Organizations ) the Albany Field Office experienced a reduction from
0.49 agents in FY 2000 to 0.03 in FY 2003, a 95 percent change.40
Therefore, even though Albany dedicated very few resources to investigating
Classification 281A matters in any fiscal year, when looking at the percent
change, one is led to believe that Albany was signi ficantly impacted by its
reduction in agent resources conducting such investigations. Thus, given
this example, it would be misleading to focus exclusively on percent
changes. Therefore, we focused our analysis primarily on total on-board
agent changes. Still, percent changes cannot be entirely discounted, and we
present them when they are appropriate for our analyses.

      Increase in Resource Utilization – The FBI lists counterterrorism and
counterintelligence as its top two priorities and, as discussed, it has
transferred large amounts of resources to target these two priorities. As a
result, a great majority of the investigative classifications experiencing the
largest increase in agent utilization are related to counterterrorism and
counterintelligence. This became apparent when we analyzed the TURK data
and identified the 30 investigative classifications experiencing the greatest
on-board agent increases between FYs 2000 and 2003. Our results are
displayed in Exhibit 3-11.




       40
           According to the FBI, La Cosa Nostra (LCN) is a nationwide alliance of organized
criminals with its roots in Italian Organized Crime.

                                   - 36 -
                         REDACTED AND UNCLASSIFIED
                                 REDACTED AND UNCLASSIFIED


                                       EXHIBIT 3-11
                             30 CLASSIFICATIONS EXPERIENCING
                       THE GREATEST INCREASES IN AGENT UTILIZATION
                           BETWEEN FISCAL YEARS 2000 AND 2003
                                                                                            AOB Change
                                                                                           FYs 2000- 2003
Classification
   Number      Classification Name                                                         Number         Percent
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
     196C         Securities/Commodities Fraud                                                    73          54
                                CLASSIFIED INFORMATION REDACTED
     266A         AOT-DT – Violent Crimes – Predicate Offense                                     37           30
      306         Serial Killings                                                                 28        1,201
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
     067D         Support Applicant Investigations                                                21         264
                                CLASSIFIED INFORMATION REDACTED
     067B         Special Agent Applicant Investigations                                          18         138
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
     089B         Assaulting or Killing a Federal Officer                                         11          72
                                CLASSIFIED INFORMATION REDACTED
     164C         Crime Aboard Aircraft – All other                                               11         374
                                CLASSIFIED INFORMATION REDACTED
     253A         Fraud & Rel Activity – Ident Documents (FRAID) – Terrorists                     10         747
     174D         Bomb Technician Activities                                                       8          46
     300B         CT Preparedness – Aviation Security                                              8         523
                                CLASSIFIED INFORMATION REDACTED
                                CLASSIFIED INFORMATION REDACTED
     261G         Security Officer Matters – Other                                                 6         213
                                CLASSIFIED INFORMATION REDACTED


ACRONYMS:
AOT = Acts of Terrorism                       FRAID = Fraud & Related Activity Identification Documents
DT = Domestic Terrorism                       CT = Counterterrorism


Source: OIG analysis of FBI TURK data and NFIP Manual




                                           - 37 -
                                 REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       Twenty four of the 30 investigative classifications listed in Exhibit 3-11
fell under the National Foreign Intelligence Program (NFIP) and the Domestic
Terrorism (DT) Program. The largest total on-board agent increase occurred
within NFIP in Classification 265A (AOT-IT – Violent Crimes Predicate
Offense).

       Six of the 30 classifications listed in Exhibit 3-11 are from programs
not related to terrorism. The classification undergoing the largest increase
in this group, 196C (Securities/Commodities Fraud), is from the White-Collar
Crime Program. Three other classifications are within the VCMO Program:
306 (Serial Killings), 089B (Assaulting or Killing a Federal Officer), and
164C (Crime aboard Aircraft – All Other). The remaining two classifications
– 067D (Support Applicant Investigations ) and 067B (Special Agent
Applicant Investigations ) – are applicant classifications.

      Casework – We also reviewed casework data from the FBI’s Automated
Case Support (ACS) system and found that 22,993 cases (6 percent) from the
original universe of 404,318 cases worked during our review period fell into
one of the 30 investigative classifications undergoing the largest increase in
on-board agents.41 We also noted a general upward trend in total case
openings in these classifications. The only variation noted was a slight
decrease of 310 cases between FYs 2000 and 2001. By FY 2003, the FBI had
opened 2,808 more cases in these classifications than it had in FY 2000, an
increase of 81 percent. Additionally, as shown in Exhibit 3-12, the FBI closed
more cases in these classifications in each fiscal year of the review period,
culminating in a high of 7,850 case closures in FY 2003. This amounts to an
increase of 130 percent compared to FY 2000.




       41
             We designated a case as “worked” if it was open at any point during our review
period. Additionally, case counts for each classification in the top 30 increasing
classifications are contained in Appendix VI.

                                   - 38 -
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


                                EXHIBIT 3-12
                    OVERALL CASES OPENED AND CLOSED IN
                   THE TOP 30 INCREASING CLASSIFICATIONS
                      FISCAL YEARS 2000 THROUGH 2003




    Source: OIG analysis of FBI ACS data


      Exhibit 3-13 highlights changes in the number of cases opened within
each of these classifications between FYs 2000 and 2003.42 Our review
determined that the largest increase in case openings was in Classification
[CLASSIFIED INFORMATION REDACTED]. We also noted a significant increase
in cases involving Usama Bin Laden (199N), as well as foreign
counterintelligence cases [CLASSIFIED INFORMATION REDACTED]. These
findings are consistent with the FBI’s mandate to prioritize terrorism-related
work. The large amount of work in Classification 199N is also logical in light of
Usama Bin Laden’s connection to the terrorist attacks of 9/11. The large
amount of work in classifications [CLASSIFIED INFORMATION REDACTED].




       42
            Exhibit 3-13 contains only 28 of the 30 investigative classifications that
experienced the largest increases in agent utilization. Classifications 067B (Special Agent
Applicant Investigations) and 067D (Support Applicant Investigations) were excluded from
this review because only 15 cases within these classifications were captured in both fiscal
years reviewed. Based on a review of the data file, it appears that these types of
investigations are opened by FBI Headquarters, rather than FBI field offices.

                                    - 39 -
                          REDACTED AND UNCLASSIFIED
                                          REDACTED AND UNCLASSIFIED


                                              EXHIBIT 3-13
                      CHANGES IN CASE OPENINGS IN THE CLASSIFICATIONS EXPERIENCING
                              THE GREATEST INCREASES IN AGENT UTILIZATION
                                       FISCAL YEARS 2000 AND 2003




                                       CLASSIFIED INFORMATION REDACTED




Source: OIG analysis of FBI ACS data



                                                    - 40 -
                                          REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       We noted a few classifications in which case openings decreased. The
classification with the most significant reduction in case openings,
Securities/Commodities Fraud (196C), opened 266 fewer cases in FY 2003
than in FY 2000.

       Reduction in Resource Utilization – In addition to identifying the
investigative classifications experiencing the largest agent utilization
increases, we identified the investigative classifications with the greatest
reductions in agent utilization between FYs 2000 and 2003. Again, we did
not include classifications related to training or administrative matters. In
addition, we did not include any classifications that changed or were
eliminated between FYs 2000 and 2003.43 The 30 investigative
classifications experiencing the largest reduction in agent utilization are
listed in Exhibit 3-14.




      43
           The classifications eliminated from our review are noted in Appendix I.

                                   - 41 -
                         REDACTED AND UNCLASSIFIED
                               REDACTED AND UNCLASSIFIED


                                    EXHIBIT 3-14
                          30 CLASSIFICATIONS EXPERIENCING
                    THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                         BETWEEN FISCAL YEARS 2000 AND 2003
                                                                                        AOB Change
                                                                                       FYs 2000- 2003
Classification
   Number      Classification Name                                                     Number         Percent
     245C         OCDETF – Mexican Organizations                                           -123           -44
     281C         OC/DI – Mexican Organizations                                            -119           -63
     281A         OC/DI – LCN and Italian Organizations                                    -103           -34
     088A         Unlawful Flight to Avoid Prosecution – Crime of Violence                 -101           -60
     209A         Health Care Fraud – Government Sponsored Program                          -89           -36
     091A         Bank Robbery                                                              -81           -26
     281F         OC/DI – Other Major Criminal Organizations                                -76           -70
     245F         OCDETF – Other Major Criminal Organizations                               -62           -54
     245B         OCDETF – Central/South American Organizations                             -61           -53
                               CLASSIFIED INFORMATION REDACTED
     029C         FIF - $25K - $99,999 Fed-Insured Bank                                     -50           -67
     281B         OC/DI – Central/South American Organizations                              -44           -70
     281I         OC/DI – Caribbean Organizations                                           -43           -76
     281E         OC/DI – Asian Organizations                                               -40           -34
     196A         Telemarketing Fraud                                                       -38           -62
     245D         OCDETF – VCMO – Gangs                                                     -37           -28
     196D         Other Wire & Mail Fraud Schemes                                           -35           -14
     209B         Health Care Fraud – Private Ins. Program                                  -32           -34
     245I         OCDETF – Caribbean Organizations                                          -31           -45
     087B         Interstate Transportation of Stolen Property - $25K+                      -29           -56
     026B         ITSMV – Commercial Theft or Chop Shops                                    -29           -62
                  Racketeering Enterprise Investigations – Mexican
     092C                                                                                   -28           -66
                  Organizations
     196B         Insurance Fraud                                                           -28           -51
     282A         Civil Rights – Color of Law – Force &/or Violence                         -28           -34
     300A         Counterterrorism Preparedness – Special Events                            -27           -43
     049A         Bankruptcy Fraud $50K+ /or Court Officer                                  -26           -59
     249A         Environmental Crimes                                                      -25           -75
     244          Hostage Rescue Team                                                       -24           -35
                               CLASSIFIED INFORMATION REDACTED
     015B         TFIS – Loss of $25K; Weapons, Explosives                                  -21           -60
ACRONYMS:
OCDETF = Organized Crime Drug Enforcement Task Force    ITSMV = Interstate Transportation of Stolen
OC/DI = Organized Crime/Drug Investigations                      Motor Vehicles
LCN = La Cosa Nostra                                    TFIS = Theft From Interstate Shipment
FIF = Financial Institution Fraud


Source: OIG analysis of FBI TURK data and NFIP Manual




                                         - 42 -
                               REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


      Organized crime and drug-related matters accounted for 12 of the
30 investigative classifications experiencing the largest reductions in agent
resource utilization. In fact, 3 of these 12 classifications had reductions of
over 100 on-board agents: Classification 245C (OCDETF – Mexican
Organizations ), Classification 281C (OC/DI – Mexican Organizations), and
Classification 281A (OC/DI – LCN and Italian Organizations). In addition to
the 12 classifications relating to organized crime and drug matters, 8 were
white-collar crime classifications, 3 were criminal enterprise classifications, 3
were violent crime classifications, 2 came from NFIP, and 1 each came from
DT and Civil Rights. The on-board agent changes are summarized by
program areas in Exhibit 3-15.

                             EXHIBIT 3-15
           AGENT UTILIZATION CHANGE WITHIN PROGRAM AREAS
               FOR THE 30 CLASSIFICATIONS EXPERIENCING
            THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                      FISCAL YEARS 2000 AND 2003




  Source: OIG analysis of FBI TURK data


       The FBI officials we spoke with prior to our data analysis stated that
the OC/D, VCMO, and WCC programs were the investigative programs most
affected by the reprioritization and reprogramming. Our analysis of agent
utilization reductions at the FBI investigative classification level, as well as at
the FBI program level, is consistent with their statements. The reductions in
these matters are discussed in more detail in Chapter 4.

                                   - 43 -
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


       Casework – We reviewed our original universe of cases worked during
our review period to isolate those falling within the top 30 decreasing
classifications. We identified 121,798 cases that met these criteria,
reflecting 30 percent of the original sample. We then reviewed the data and
found that bank robbery investigations (Classification 091A) accounted for
41,336 of these cases, by far the largest number of cases in any single
classification.44 The next largest classification, violent fugitive investigations
(Classification 088A), accounted for 31,788 cases. When combined, these
two classifications accounted for 60 percent of the 121,798 cases identified
as being part of this sample.

      Using our sample of 121,798 cases, we determined the total number
of cases opened and closed during each fiscal year of our review period. We
found that within these classifications, in addition to opening fewer cases in
each subsequent fiscal year of the review period, the FBI opened over
17,000 fewer cases in FY 2003 than in FY 2000. Case closings reflected a
similar downward trend, with a 44 percent reduction between FYs 2000 and
2003. These results are presented in Exhibit 3-16.

                                EXHIBIT 3-16
                     TOTAL CASES OPENED AND CLOSED IN
                THE TOP 30 CLASSIFICATIONS EXPERIENCING THE
                 GREATEST REDUCTIONS IN AGENT UTILIZATION
                      FISCAL YEARS 2000 THROUGH 2003




             Source: OIG analysis of FBI ACS data




      44
           Case counts for the top 30 decreasing classifications are found in Appendix VI.

                                    - 44 -
                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       We then reviewed the data to determine how specific case openings
changed before and after 9/11. Exhibit 3-17 highlights, for the 30
classifications experiencing the largest AOB reductions, the most significant
reduction in the number of cases opened occurred in the investigations of
violent fugitives (088A), where the FBI initiated 11,617 fewer cases in
FY 2003 than it did in FY 2000. No other reductions in openings were as
significant. The result for bank robbery cases (091A) was notable because
although the FBI reduced its utilization of resources in this classification by
26 percent during our review period, the FBI actually opened 485 more
cases in FY 2003 than in FY 2000.




                                - 45 -
                      REDACTED AND UNCLASSIFIED
                                       REDACTED AND UNCLASSIFIED

                                             EXHIBIT 3-17
                 CHANGES IN CASE OPENINGS IN THE TOP 30 CLASSIFICATIONS EXPERIENCING
                            THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                                     FISCAL YEARS 2000 AND 2003




Source: OIG analysis of FBI ACS data


                                                 - 46 -
                                       REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


Chapter Summary

       Overall, our assessment of utilization rates by program areas confirms
that the FBI focused its field agent resources according to its stated
priorities. In addition, the FBI used considerably more field agents in
terrorism-related matters than it had projected in FY 2003. In fact, the FBI
overburned field agent resources in areas related to its top three priorities –
counterterrorism, counterintelligence, and cyber crime. Conversely,
resources dedicated to criminal investigative matters did not reach the
allocated staffing levels; during FY 2003, the FBI utilized significantly fewer
field agents than it had allocated in criminal investigative matters.

       We designed a portion of our analyses to identify the specific
investigative classifications most affected by the FBI’s shift in effort during
our review period. The majority of the top 30 classifications that
experienced the greatest increases in field agent utilization were related to
terrorism. Conversely, most of the top 30 classifications that experienced
the largest reductions in agent utilization were related to the FBI’s more
traditional, criminal investigative efforts. Only 3 of the 30 classifications in
which agent usage decreased the most focused on terrorism-related
matters.

       Our specific analyses of casework data revealed that the greatest
decreases in case openings occurred in traditional criminal areas where the
FBI stated it planned to reduce its efforts, while increases in case openings
occurred mainly in programs related to terrorism. Specifically, our analysis of
all cases in our universe revealed significant increases in case openings in
national foreign intelligence and domestic terrorism matters between
FYs 2000 and 2003, and significant decreases in case openings in both violent
crime and white-collar crime investigations for the same timeframe.

       As noted in this chapter, as well as in Chapter 2, the FBI primarily
reduced its investigative efforts in three traditional crime areas: organized
crime/drugs, violent crime, and white-collar crime. In Chapter 4, we discuss
the changes that occurred in the allocation and utilization of field agent
resources within these three program areas, as well as direction given to
field offices in these areas by FBI management.




                                - 47 -
                      REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED



        CHAPTER 4: REDUCTIONS IN FBI PROGRAMS

      The reprioritization efforts within the FBI called for a shift in resources
from traditional criminal investigative areas to terrorism-related initiatives.
According to the FBI, officials looked at various factors in deciding from
which programs the resources should be taken, including whether the
criminal area was one that the FBI exclusively worked. For example, given
that other law enforcement agencies conducted drug investigations and that
the Drug Enforcement Administration (DEA) was the primary federal agency
for handling drug investigations, the FBI decided that resources could be
taken from its Drug Program.

       As discussed in Chapter 2, the FBI’s Criminal Investigative Division
experienced significant reductions in the number of allocated field agent
positions. In particular, three CID program areas had fewer agents assigned
to field offices in FY 2003 than in FY 2000: Organized Crime/Drugs, Violent
Crime, and White-Collar Crime. Exhibit 4-1 illustrates changes in field agent
allocation that have occurred in these areas during our review period.

                                     EXHIBIT 4-1
                        FIELD AGENT FUNDED STAFFING LEVELS
                           IN SELECTED FBI PROGRAM AREAS
                            FISCAL YEARS 2000 AND 200345

                                            FY 2000   FY 2003
                                                                        2,460
                     2,279                                                        2,303

                                              2,004

                                                      1,710
                             1,521




               ORGANIZED CRIME/DRUGS        VIOLENT CRIME          WHITE-COLLAR CRIME

            Source: OIG Analysis of FBI Resource Management and Allocation Data




       45
             Because of the transfers of several sub-programs between VCMO and CEI in
FY 2003, to obtain a more realistic view of what occurred to the number of funded positions
for all violent crime investigations, we combined FSLs for VCMO and CEI.

                                       - 48 -
                             REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       Besides the decline in allocated agent positions, these three program
areas also experienced significant reductions in the actual utilization of
agents. In fact, 26 of the 30 investigative classifications we identified in
Chapter 3 as having experienced the greatest reductions in on-board agents
between FYs 2000 and 2003 were part of these 3 program areas. In this
chapter we discuss the changes that occurred in the allocation and utilization
of field agent resources within these program areas, as well as direction
given to field offices in these areas by FBI management.

Organized Crime/Drug Matters

       The Organized Crime/Drug (OC/D) Program, which is divided into
separate components for organized crime and drugs, targets large criminal
organizations. The Drug Section investigates organizations involved in
illegal drug trafficking, while the Organized Crime (OC) Section investigates
other organized criminal enterprises. The OC Section did not experience any
reduction in allocated resources during the FBI’s reprogramming. However,
investigative efforts related to drug trafficking were significantly affected by
the FBI’s reprioritization efforts. Therefore, we focused our attention on
drug-related matters.

       Resource Allocation and Utilization – The FBI allocates OC/D resources
into three areas: Organized Crime, Drugs, and OCDETF.46 As shown in
Exhibit 4-2, reductions in agent Funded Staffing Levels (FSLs) allocated to
Drugs accounted for nearly all of the change within OC/D between FYs 2001
and 2003, while agent resources allocated to Organized Crime and OCDETF
remained at virtually the same level.

                              EXHIBIT 4-2
                  FIELD AGENT FUNDED STAFFING LEVELS
                    ORGANIZED CRIME/DRUG PROGRAM
                    FISCAL YEARS 2001 THROUGH 2003
               Component                 FY 2001 FY 2002               FY 2003
               Drugs                       890     326                   335
               Organized Crime             700     697                   698
               OCDETF                      488     488                   488
               Source: FBI Resource Management and Allocation Office




      46
           The FBI’s FY 2000 FSL allocations only distinguished between OC/D and OCDETF; in
FY 2001 it split OC/D into two distinct categories (Organized Crime and Drugs).

                                   - 49 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


      Similar to the reductions in allocated agents, we found significant
decreases in the number of on-board agents utilized within the OC/D
Program between FYs 2000 and 2003. As evidenced in Exhibit 4-3, both
FSLs and on-board agents generally decreased in each successive fiscal
year. The only exception to this occurred in FY 2003, when FSLs increased
by 10 positions. Field agent FSLs in OC/D decreased by 758 positions, or
nearly 35 percent, from FY 2000 to FY 2003. During the same period, the
number of on-board agents utilized on OC/D matters declined by
1,032 agents, or 44 percent. These results suggest that decreases in field
agent utilization within OC/D matters exceeded even the FBI’s planned
reductions.

                          EXHIBIT 4-3
    COMPARISON OF ALLOCATED TO ACTUAL FIELD AGENT RESOURCES
                ORGANIZED CRIME/DRUG PROGRAM
               FISCAL YEARS 2000 THROUGH 200347




        Source: OIG analysis of FBI TURK data



       47
           The FSLs include allocated positions for Drugs, Organized Crime, and OCDETF.
Because OCDETF FSLs are not separately allocated to OC/D-OCDETF sub-program and the
VCMO-OCDETF sub-program, we incorporated the OCDETF-VCMO on-board agent data in
this analysis to provide a valid comparison of allocated-to-actual field agent resources.

                                   - 50 -
                         REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


          Investigative Classifications – From our identification in Chapter 3 of
    the individual investigative classifications that experienced the greatest
    reductions in field agent utilization, we found tha t 12 involved OC/D
    investigative matters.48 Moreover, 11 of these 12 classifications related to
    matters involving drugs.49 These 12 classifications and their on-board agent
    reductions are detailed in Exhibit 4-4.

                                 EXHIBIT 4-4
                GREATEST AGENT RESOURCE UTILIZATION CHANGES
                  IN ORGANIZED CRIME/DRUG CLASSIFICATIONS
                         FISCAL YEARS 2000 AND 2003
Classification Name                                   Classification AOB Change
Organized Crime/Drug Investigation (OC/DI) Classifications
   OC/DI – Mexican Organizations                           281C             -119
   OC/DI – La Cosa Nostra and Italian Organizations        281A             -103
   OC/DI – Other Major Criminal Organizations              281F              -76
   OC/DI – Central/South American Organizations            281B              -44
   OC/DI – Caribbean Organizations                         281I              -43
   OC/DI – Asian Organizations                             281E              -40
Organized Crime Drug Enforcement Task Force (OCDETF) Classifications
   OCDETF – Mexican Organizations                          245C             -123
   OCDETF – Other Major Criminal Organizations             245F              -62
   OCDETF – Central/South American Organizations           245B              -61
   OCDETF – VCMO – Gangs                                   245D              -37
   OCDETF – Caribbean Organizations                        245I              -31
Racketeering Enterprise Investigations (REI) Classifications
   REI – Mexican Organizations                             092C              -28

                             Total                                                               -767
Source: OIG analysis of FBI TURK data


           We conducted further analyses of the classifications in Exhibit 4-4 and
    identified trends in FBI field offices most affected by agent utilization
    reductions in these investigative areas. For example, on-board agent
    reductions in matters involving Central/South American organizations tended
    to impact larger field offices. In other instances, we observed that the most
    significant impacts in certain classifications occurred in distinct geographic

           48
              Classification 245D (OCDETF – VCMO – Gangs) was transferred from the VCMO
    Program during FY 2002 and assigned to the Criminal Enterprise Investigations Program in
    FY 2003. Although this is the only OCDETF related classification not assigned to the OC/D
    Program, we include Classification 245D in our discussion of OC/D matters in order to keep
    all OCDETF-related classifications together.

           49
               The one classification not specifically related to drug investigations is 092C,
    which involves racketeering enterprise investigations.

                                        - 51 -
                              REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


areas, such as matters involving Mexican drug organizations primarily
affecting offices along the nation’s southwest border. These additional
analyses of OC/D classifications are contained in Appendix VII.

      Direction to Field Offices – The mission of the FBI’s Drug Program is to
disrupt and dismantle drug trafficking organizations posing the greatest
threat to the United States and its citizens. In 2002, the Department of
Justice generated the Consolidated Priority Organization Target (CPOT) list,
which is updated regularly and identifies the most significant money
laundering and drug trafficking organizations worldwide. Although the FBI’s
Program Plans encouraged SACs at FBI field offices to use their discretion in
addressing the significant drug problems within their jurisdictions, any
investigation of an organization not on the CPOT list required approval from
FBI Headquarters. According to the FBI, if a field office had a pending
investigation with a non-CPOT organization at the time of the FBI’s
reprioritization, that office had to make an attempt to transfer the
investigation to another law enforcement agency or else close the case.

      In accordance with the FBI’s top priority, the Drug Section was to
allocate resources to first target those organizations with a credible link to
terrorist cells and to involve FBI Joint Terrorism Task Forces in any such
investigations.50 The FBI also planned to establish a Drug
Program/Counterterrorism working group to promote coordination among
these programs and enhance each program’s expertise.

       The FBI’s March 2004 strategic plan provides additional guidance for
drug investigations. The plan notes that the DEA is the primary federal
agency for combating drug trafficking, and that the FBI should complement
the DEA’s efforts through an integrated approach while increasing the
co-location of FBI drug investigative resources with the DEA. The plan also
indicates that the FBI should leverage its resources by combining its efforts
with state and local law enforcement agencies through increased
participation in OCDETF and High Intensity Drug Trafficking Area (HIDTA)
initiatives.

Violent Crime Matters

      According to the FBI, its overall mission for violent crime matters is to
deter significant violent crime and make society a safer place. In its


       50
           FBI Joint Terrorism Task Forces (JTTFs) are multi-agency, counterterrorism
working groups made up of representatives from the FBI and other federal, state, and local
law enforcement agencies. As of July 2004, there were 84 JTTFs throughout the
United States.

                                   - 52 -
                         REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


March 2004 strategic plan, the FBI noted that although general violent crime
rates have fallen in recent years, murder rates in the United States have
risen since 1999, especially rates in the northeastern portion of the country.
The FBI attributes this, in part, to a resurgence in the number of violent
street gangs in major metropolitan areas, including Chicago, New York, and
Los Angeles.

      According to the FBI, the nature of significant violent crime incidents
usually requires an immediate response by the FBI, and it is vital that the
FBI continues to combat violent crime matters across the country. The FBI
has two programs that concentrate on violent criminal matters: the Violent
Crime/Major Offenders (VCMO) Program and the Criminal Enterprise
Investigations (CEI) Program. Specifically, VCMO is responsible for
investigating a wide variety of criminal incidents, such as bank robberies,
extortions, and kidnappings; while CEI is concerned with violent gangs and
criminal enterprises involved in major thefts.

      Resource Allocation and Utilization – Based upon data obtained from
the FBI, field agent resources allocated to violent crime matters have been
reduced significantly since FY 2000. Specifically, we found a reduction of
294 violent crime positions during our review period, an almost 15 percent
decrease in resources. Further, we determined that the FBI utilized
413 fewer agents on violent crime matters in FY 2003 than in FY 2000.

       In addition to reductions in funded agent positions, FBI officials
commented that the FBI was significantly underutilizing its violent crime
agent resources. Exhibit 4-5 compares agent utilization to FSL figures for all
violent crime matters for FYs 2000 through 2003. As shown, during
FYs 2000 and 2001 the FBI overutilized its agent resources in the
investigation of violent crime matters. However, in FYs 2002 and 2003, the
FBI underutilized its agent resources in this area. During our review period,
the greatest difference between allocated agent levels and actual agent
utilization occurred in FY 2002, when the FBI utilized 310 fewer on-board
agents than it was allocated.




                               - 53 -
                     REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


                          EXHIBIT 4-5
    COMPARISON OF ON-BOARD AGENTS TO FUNDED STAFFING LEVELS
                   IN VIOLENT CRIME MATTERS
               FISCAL YEARS 2000 THROUGH 200351

                            Funded Staffing Level     On-Board Agents




            2,004 2,056
                                       1,917
                               1,821
                                                    1,656                1,710

                                                                                 1,432
                                                            1,346




               2000               2001                 2002                 2003
                                         FISCAL YEAR
     Source: OIG analysis of FBI TURK and Resource Management and Allocation Office data


      Investigative Classifications – The results of our analysis show that the
FBI is devoting fewer field agent resources to violent crime investigations.
We found that 6 of the 30 investigative classifications that experienced the
most significant reductions in on-board agents from FYs 2000 to 2003 are
related to violent crime matters.52 Three of these fall into the VCMO
Program, while the others are located within the CEI Program. As shown in
Exhibit 4-6, these 6 classifications accounted for a reduction of 285 on-board
agents.


       51
             Since FSLs are separately allocated to CEI, we included the FSL data and on-board
agent data figures for the CEI sub-programs in FYs 2002 and 2003. However, FSLs are not
specifically allocated to the Innocent Images National Initiative (IINI) sub-program. As noted,
IINI was an area that was moved from the VCMO Program to the Cyber Crime Program during FY
2002. In order to accurately compare FSL figures to agent utilization figures in FYs 2002 and
2003, the on-board agent data for IINI was removed for this analysis.

       52
          Actually, 7 of the 30 classifications experiencing the most significant reduction in
on-board agents fall within the VCMO and CEI programs. However, Classification 245D (OCDETF
– VCMO Gangs), located within the CEI Program, is an OCDETF classification that we discussed in
the OC/D section of this chapter, along with the other OCDETF classifications.

                                    - 54 -
                          REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED

                                EXHIBIT 4-6
               GREATEST AGENT RESOURCE UTILIZATION CHANGES
                     IN VIOLENT CRIME CLASSIFICATIONS
                        FISCAL YEARS 2000 AND 2003
Program Number Classification Name                                         AOB Change
                         Unlawful Flight to Avoid Prosecution – Crime of
 VCMO         088A                                                            -101
                         Violence
 VCMO         091A       Bank Robbery                                         -81
 VCMO          244       Hostage Rescue Team                                  -24
                         Interstate Transportation of Stolen Property -
   CEI        087B                                                            -29
                         $25K+

                         ITSMV (Interstate Transportation of Stolen
   CEI        026B                                                            -29
                         Motor Vehicle)–Commercial Theft or Chop Shops
                         TFIS (Theft From Interstate Shipment) – Loss of
   CEI        015B                                                            -21
                         $25K+; Weapons, Explosives
                                             Total                            -285
Source: OIG analysis of FBI TURK data


        The reductions in violent crime resources identified in Exhibit 4-6
 affected field offices differently. For instance, on-board agents investigating
 bank robberies significantly declined in several field offices, but we found no
 common variable in field office size or location among the affected offices.
 Conversely, reductions in agent utilization for fugitive-related matters
 (Classification 088A) mostly affected larger field offices. Appendix VIII
 provides additional analyses of violent crime investigative efforts for these
 classifications at the field office level.

        Direction to Field Offices – According to FBI officials, written direction
 was provided to the field detailing changes within the violent crime program
 necessitated by the FBI’s reprioritization. This direction took the form of
 electronic communications and announcements of investigative initiatives
 related to specific types of violent crime. Additionally, the FBI incorporated
 aspects of its reprioritization into the program plans it issues annually to the
 field. We reviewed the program plans related to violent crime matters for
 FYs 2001 and 2003 and found that field offices were given a list of national
 priorities for violent crime matters as a guide for prioritizing investigations.
 These priorities are based upon the violent crime problems identified by each
 field office. Although we observed slight changes in the priority list between
 the two fiscal years, as shown in Exhibit 4-7, the FBI’s national priorities for
 violent crime matters have essentially remained the same since FY 2001.
 This implies that the nation’s violent crime problems have not changed.


                                     - 55 -
                           REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


                                       EXHIBIT 4-7
                        NATIONAL VIOLENT CRIME PRIORITIES
                       FY 2001                           FY 2003
            Violent Gangs                    Violent Gangs 5 3
            Major Theft Enterprises          Major Theft Enterprises53
            Crimes Against Children          Violent Incident Crimes
            Violent Incident Crimes          Crimes Against Children
            Indian Country                   Indian Country
            Violent Fugitives                Violent Fugitives
            Special Jurisdiction Crimes      Transportation Crimes
            Transportation Crimes            Special Jurisdiction Crimes
            Other Matters
            Source: FY 2001 and FY 2003 FBI Program Plans


      The FBI’s program plans further noted that the FBI’s violent crime
strategy was to take a proactive approach to identifying and preventing the
emergence of crime trends while also maintaining a strong reactive capacity
in responding to violent crimes. As was the case with other criminal
investigative programs, the FBI’s violent crime program was directed to
leverage its limited resources. Specifically, according to an FBI
memorandum, field offices were to concentrate their violent crime efforts
primarily on criminal enterprises. Additionally, SACs were advised to keep
the FBI’s national priorities in mind while directing their limited violent crime
resources to matters that were most problematic within their jurisdictions.

White-Collar Crime Matters

      The FBI’s White-Collar Crime Program (WCC) is responsible for
investigating and preventing major frauds committed against individuals
and businesses, as well as with protecting the financial markets of the
United States. In its March 2004 strategic plan, the FBI predicted that
major white-collar crime would impact the United States economy over the
next five years, and that crimes, such as money laundering and health care
fraud, would increase in the near future.

      Resource Allocation and Utilization – From FYs 2000 to 2003, the FBI
experienced a reduction of 157 allocated WCC field agent positions,
reflecting a 6 percent decrease. Besides the allocation reductions, we also
found that the FBI was using, on average, 20 percent fewer agents on
white-collar crime investigations in FY 2003 than in FY 2000. In FY 2000,
2,426 on-board agents were involved in such investigations. In FY 2003,
the number dropped to 1,952.

       53
             These were the top priorities listed under CEI for FY 2003. As previously mentioned, CEI
did not exist in FY 2001.

                                       - 56 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED



       We compared the field agent utilization to FSL figures for FYs 2000
through 2003 for WCC. As shown in Exhibit 4-8, the FBI underutilized its
agent resources in the investigation of white-collar crime matters in each
fiscal year of our review period. However, the magnitude of the
underutilization increased during FYs 2002 and 2003 (i.e., after the
reprioritization). For example, the FBI utilized only 83 percent of its funded
white-collar agents during FY 2003, compared to 99 percent in FY 2000.

                           EXHIBIT 4-8
     COMPARISON OF ON-BOARD AGENTS TO FUNDED STAFFING LEVELS
                 IN WHITE-COLLAR CRIME MATTERS
                FISCAL YEARS 2000 THROUGH 200354
                              Funded Staffing Level          On-Board Agents


               2,460 2,426
                                    2,404
                                              2,330                         2,303
                                                         2,210

                                                                                    1,904
                                                                 1,775




                  2000                 2001                  2002              2003
                                               FISCAL YEAR

          Source: OIG analysis of FBI TURK and Resource Management and Allocation Office data

      Investigative Classifications – Among the 30 classifications that
experienced the greatest reductions in on-board agents, 8 pertained to
white-collar crime matters (see Exhibit 4-9). Included in these eight
investigative classifications were those related to health care, telemarketing,
and insurance fraud. Combined, the eight classifications listed in Exhibit 4-9
accounted for over 60 percent of the overall utilization decrease in WCC


        54
             FSLs are not specifically allocated to the Intellectual Property Rights (IP) sub-program. As
noted, IP was moved from the WCC Program to the Cyber Crime Program during FY 2002. In order to
accurately compare FSL figures to agent utilization figures in FYs 2002 and 2003, the on-board agent
data for IP was removed for this analysis.

                                       - 57 -
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


 during our review period. The changes that occurred in each of these
 classifications at the field office level are detailed in Appendix IX.

                                  EXHIBIT 4-9
                 GREATEST AGENT RESOURCE UTILIZATION CHANGES
                    IN WHITE-COLLAR CRIME CLASSIFICATIONS
                          FISCAL YEARS 2000 AND 2003
Classification
   Number        Classification Name                                AOB Change
Financial Institution Fraud:
    029C         FIF - $25K - $99,999 Fed-Insured Bank                    -50
Health Care Fraud:
    209A       Health Care Fraud – Government Sponsored Program           -89
    209B       Health Care Fraud – Private Ins. Program                   -32
Other Fraud Investigative Areas:
    196A       Telemarketing Fraud                                        -37
    196D       Other Wire & Mail Fraud Schemes                            -35
    196B       Insurance Fraud                                            -28
    049A       Bankruptcy Fraud $50K+ /or Court Officer                   -26
Environmental Crimes:
     249A     Environmental Crimes                                        -25
                      Total                                             -322
Source: OIG analysis of FBI TURK data


        Direction to Field Offices – As part of the reprioritization, FBI senior
 management provided field offices with written direction concerning the
 financial crime areas on which to focus their investigative efforts. In
 August 2002, field offices were notified of the current WCC national
 priorities, which were reiterated to field offices again in October 2002. In
 particular, the FBI’s Criminal Investigative Division emphasized that field
 offices should evaluate their current investigations to ensure that they are
 actively pursuing the top four priorities within WCC: 1) Public Corruption,
 2) Corporate/Securities and Commodities Fraud, 3) Health Care Fraud, and
 4) Financial Institution Fraud (FIF). In addition to these four priority areas,
 WCC’s FY 2003 Program Plan identified Money Laundering and Governmental
 Fraud as two additional areas that were particularly important. Although
 SACs have discretion in determining which crimes to investigate and how to
 utilize their resources, FBI management reminded the SACs to address
 white-collar crime matters in priority order.

       One of the most significant changes that has occurred within WCC
 since the reprioritization pertains to FIF matters. In the past, field offices
 were allowed to investigate FIF cases in which losses exceeded $25,000
 without approval from FBI Headquarters. In August 2002, field offices were
 informed that the dollar threshold on initiating FIF cases had been raised to
 $100,000, and the investigation of any FIF matter falling under this

                                     - 58 -
                           REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


threshold required pre-approval from FBI Headquarters. Since this policy
was initiated, FBI management has reminded field offices on several
occasions of this new requirement.

Conclusion

      Of the three program areas reviewed in this chapter, OC/D experienced
the greatest decrease in funded agent positions in the FBI’s post-9/11
reprioritization, a reduction of nearly 35 percent from FY 2000 to FY 2003.
During the same period, OC/D experienced a nearly 45 percent decrease in
agent resource utilization, predominantly within the area of drug
investigations (where the FSL for field agents dropped by 62 percent between
FYs 2001 and 2003). Moreover, 12 of the 30 classifications we identified as
having experienced the greatest reductions in on-board agents during our
review period originated in OC/D.

      FBI investigative activity in violent crime matters has also reduced by
approximately 15 percent from FY 2000 to FY 2003. In particular, in the
6 investigative classifications identified in Exhibit 4-6, the FBI experienced a
reduction of 285 on-board agents between FYs 2000 and 2003. Moreover,
after utilizing more agents than it had allocated for violent crime matters in
FYs 2000 and 2001, the FBI utilized fewer violent crime agents than
allocated in FYs 2002 and 2003.

      Our analyses of on-board agent data indicated that there were
approximately 20 percent fewer agents investigating white-collar crime
matters in FY 2003 than in FY 2000. In addition, 8 of the 30 decreasing
investigative classifications identified involved white-collar crime matters.
Specifically, we noted that the most significant agent utilization reductions
occurred in telemarketing fraud, health care fraud, and insurance fraud. We
also noted reductions in classifications pertaining to financial institution
fraud, environmental crimes, bankruptcy fraud, and wire fraud. In terms of
allocated positions, the FBI reduced the number of funded agent positions
assigned to investigate white-collar crime in the majority of field offices.
From FYs 2000 to 2003, the FSLs for the WCC Program decreased by
157 agent positions.

       The reassignment of agent resources has had an effect on FBI field
offices. In some cases, offices in particular geographic locations and offices
of particular sizes were more affected than others. Detailed information
related to the 30 investigative classifications experiencing the greatest
reductions in on-board agents between FYs 2000 and 2003 is located in
Appendices VII through IX. Detailed information on individual field offices is
located in Supplemental Appendices I through III.


                                - 59 -
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



    CHAPTER 5: CONCLUSIONS AND RECOMMENDATION

       In direct response to the 9/11 terrorist attacks, the FBI Director
initiated a transformation of the FBI that, among other things, established a
new set of priorities and formally shifted a significant number of agents from
traditional criminal investigative work to counterterrorism and
counterintelligence matters. According to the Director, each of the changes
was designed to reshape the FBI into an organization better able to combat
terrorism and to prevent another large-scale terrorist attack against the
United States.

      Many of the FBI officials we interviewed remarked that the FBI had
shifted its attention from traditional criminal areas (e.g., drugs and violent
crime) to terrorism-related matters. Specifically, they indicated three
investigative areas that were negatively impacted as a result of the
reprioritization: drugs, violent crime, and white-collar crime. In determining
from which areas to shift resources, one of the factors FBI management
considered was whether the FBI exclusively worked on particular
investigative matters. For example, other agencies are involved in the
investigation of illegal drug trafficking, particularly the DEA.

       The results of our analyses of the allocation and utilization of agents
coincide with these officials’ comments. In particular, between FYs 2000
and 2003, the FBI increased its agent utilization within the National Foreign
Intelligence Program (NFIP) by about 1,400 agents. Conversely, agent
utilization in the Organized Crime/Drugs (OC/D), White-Collar Crime (WCC),
and Violent Crime/Major Offenders (VCMO) programs combined was reduced
by 1,871 agents. This indicates that the FBI significantly shifted its agent
utilization from traditional criminal investigations to matters related to
terrorism.

       The changes in actual agent utilization were consistent with the changes
in the FBI’s Funded Staffing Levels (FSLs), or human resource allocation. The
FBI allocated a larger number of agent resources to terrorism-related matters
in FY 2003 than in FY 2000, while reducing the number of positions allotted for
organized crime/drugs, violent crime, and white-collar crime during the same
time period. Specifically, more than 560 additional field agent positions were
allocated to terrorism-related areas in FY 2003 compared to FY 2000. In turn,
the FBI reduced its funded agent resources in the noted traditional crime areas
by 1,035. The majority of this reduction occurred within the Organized
Crime/Drugs Program, which lost a total of 758 positions during our review
period. Thus, the FBI reprogrammed resources to target its top priorities
(e.g., counterintelligence and counterterrorism) by transferring resources from
its traditional crime programs (e.g., drugs and violent crime).

                                - 60 -
                      REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


       As evidenced by FY 2003 data, the FBI’s shift in agent resource
utilization exceeded the number of positions it intended to transfer from
traditional criminal investigative matters to terrorism-related areas. The FBI
used 845 more agents than it had allocated for terrorism matters, while it
utilized 879 fewer agents than planned in traditional crime areas.
Concomitantly, in our                                     EXHIBIT 5-1
review of casework, we          COMPARISON OF ALLOCATED TO UTILIZED AGENTS
found that by FY 2003 the                             FISCAL YEAR 2003
FBI opened fewer cases in
traditional criminal areas
and more in areas related
to terrorism. Specifically,
the FBI opened 70 percent
more NFIP cases and over
50 percent more DT cases
in FY 2003 than in
FY 2000. For the same
period, the FBI opened
more than 50 percent
fewer organized
crime/drug cases,
40 percent fewer violent
crime cases, and more           Source: OIG analysis of FBI TURK and RMA Office data
than 25 percent fewer
white-collar crime cases. In terms of terrorism and non-terrorism related
matters, the FBI opened 25,431 terrorism-related cases in FY 2003 compared
to 15,799 in FY 2000, an increase of 61 percent. Conversely, during the same
timeframe the number of non-terrorism related cases the FBI opened
decreased from 64,281 to 40,603, reflecting a reduction of 37 percent.

       In addition to evaluating resource utilization and allocation changes, we
performed analyses at the FBI’s investigative classification level. Of the
30 classifications experiencing the greatest increase in agent utilization
between FYs 2000 and 2003, 24 of those classifications were associated with
terrorism matters. Conversely, we identified the FBI’s 30 investigative
classifications with the greatest reductions in agent utilization. Of these, 12
pertained to organized crime/drug matters, such as Classification 245C
(OCDETF – Mexican Organizations); 6 related to violent crime matters,
including Classification 088A (Unlawful Flight to Avoid Prosecution – Crime of
Violence); and 8 pertained to white-collar crime matters, such as
Classification 209A (Health Care Fraud – Government Sponsored Program).
Combined, the FBI used 1,374 fewer on-board agents in these investigative
areas in FY 2003 than in FY 2000.

                                 - 61 -
                       REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED

                              EXHIBIT 5-2
           AGENT UTILIZATION CHANGES WITHIN PROGRAM AREAS
               FOR THE 30 CLASSIFICATIONS EXPERIENCING
             THE GREATEST REDUCTIONS IN AGENT UTILIZATION
                      FISCAL YEARS 2000 AND 2003




     Source: OIG analysis of FBI TURK data

       After analyzing how the reprioritization has affected the FBI’s resource
utilization in specific investigative areas, we plan to conduct further analyses
to determine how the FBI’s shift in priorities and operations has affected
outside entities. We hope to discuss these effects with federal, state, and
local officials in those geographical areas most affected by the reduction in
the FBI’s traditional criminal investigative efforts. By doing this, we hope to
provide useful and comprehensive feedback to aid future operational policy
decisions and to assist the FBI in its reprioritization decisions.

      This report contains comprehensive, data-driven analyses of the
changes in the FBI’s use of resources as a result of its shift in priorities and
allocation of staff. These types of analyses can be useful to FBI executive
management and program directors for evaluating progress in meeting goals
and obtaining a data-based view of the status of FBI operations.

Recommendation

We recommend that the FBI:

1.     Consider developing evaluation models similar to the ones presented in
       this report to assist in managing FBI programs.

                                    - 62 -
                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED
                                                                  APPENDIX I

    APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY

Audit Objective

       The objective of this audit was to identify internal operational changes
in the FBI resulting from the FBI’s ongoing reorganization and reprioritization
effort, including the types of offenses that the FBI is no longer investigating
at pre-September 11, 2001, levels.

Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and
included such tests of the records and procedures that we considered
necessary to accomplish the audit objective. The informational nature of our
audit objective did not require that we perform testing of the FBI’s
compliance with laws and regulations.

      We conducted work at FBI Headquarters in Washington, D.C.; the
FBI Academy and FBI Laboratory in Quantico, Virginia; and at the Critical
Incident Response Group (CIRG) facility in Aquia, Virginia. We interviewed
over 40 officials from the FBI, including the Executive Assistant Directors for
Administration, Intelligence, and Law Enforcement Services, the Assistant
Director of the Criminal Investigation Division, and the Special Assistant to
the Director for Strategic Planning. We also interviewed FBI officials from the
Finance Division, the Resource Management and Allocation (RMA) Office, and
the Automated Case Support (ACS) system, as well as numerous Section
Chiefs and Unit Chiefs representing FBI programs, the FBI Laboratory, and
the FBI Academy. Through these interviews and our review of documents
and records pertaining to the audit objective, we obtained an understanding
of the plans set forth in the FBI’s post-9/11 reorganization, reprioritization,
and reprogramming, as well as the reality of their implementation.

      To achieve the audit objective, we used computer-processed data
maintained in FBI information systems. To examine the FBI’s human
resource utilization, we reviewed data from the TURK system, a module of
the FBI’s payroll system, for the period of September 26, 1999, through
September 20, 2003. The TURK system contains work hour and Average On
Board data for most FBI agents and support involved with investigative
matters. To examine the numbers and types of cases in its various criminal
programs, we reviewed data from the Automated Case Support (ACS)
system, which assigns unique case identifiers to all investigations and
contains case-related material, for the same period.

                                - 63 -
                      REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED
                                                                                         APPENDIX I
       Because we had assessed the reliability of the computer-processed data
provided by the FBI during the recently-completed audit of FBI Casework and
Human Resource Utilization, and we were utilizing the same systems to obtain
data for analysis, we did not repeat this process.55 In the prior audit, for data
from the TURK and ACS systems, we performed tests to establish reliability
and obtained confirmation from FBI officials as to the data’s reliability. For
both systems, we reviewed management controls and we performed data
validity tests at the FBI Field Office in Chicago, Illinois. Based on our test
results and the information we obtained, we concluded the data was
sufficiently reliable to achieve our audit objective.56

Data Analysis

     We performed analyses of FBI resource allocation and utilization data,
as well as casework data, to identify trends in the FBI’s operations from
September 26, 1999, through September 20, 2003. In total, this data
amounted to 1,864,141 records.

       Funded Staffing Levels – In our analyses involving agent and support
resource allocation, we used the FBI’s Funded Staffing Levels (FSLs) that are
established by the RMA Office. We obtained field office FSLs for each
program and fiscal year, both for agents and support personnel for FYs 2000
through 2003. We also received FSLs for FBI Headquarters, organized at the
Division level, for the same period. The FSLs we obtained represented the
final allocations set for each fiscal year, which reflected any mid-year
adjustments. The two sets of data amounted to 5,453 records.

       Average on Board - TURK generally records percentages of time worked
for both agents and support personnel in the FBI’s 56 field offices
(Headquarters personnel do not record their time in TURK). TURK data
collection is divided into 13 TURK periods per fiscal year; each TURK period is
4 weeks. Each agent (or support employee) records the percentage of time
worked each day according to FBI investigative classifications
(the percentages are based on a 10-hour day for agents and an 8-hour day
for support personnel).57 These percentages are recorded and the result is

        55
            Office of the Inspector General (OIG) Audit Report number 03-37, “Federal Bureau of
Investigation Casework and Human Resource Utilization,” dated September 2003.

        56
             FBI field agents are responsible for reporting the proportion of their time worked in FBI
investigative classifications. Therefore, the data derived from the FBI TURK system are only as valid as
the information reported by FBI field agents.

        57
             The FBI assigns each of its cases to an investigative classification based on the nature of
the case. The investigative classification is the greatest level of detail for which the FBI tracks resource
utilization. Each classification is assigned to a program and, if appropriate, a sub-program.

                                        - 64 -
                              REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED
                                                                   APPENDIX I
averaged to show time worked in a specific classification equivalent to a
full-time employee, which the FBI calls Average on Board (AOB).

       For example, if two agents within a particular field office each worked
half their time (50 percent) on Bankruptcy Fraud – FBI investigative
Classification 49 - within a given TURK period, the AOB for that field office, in
classification 49, within the TURK period, would be equal to 1 agent AOB
(100 percent of 1 agent -equivalent). The FBI considers the TURK system’s
AOB data to be the best way to assess the actual time worked by FBI
employees in specific FBI investigative programs, sub-programs, and
classifications. For the purposes of this report, we use the term AOB and
on-board employee (agent or support) interchangeably.

      We received two data runs of AOB data, for both agents and support
personnel, for the period of September 26, 1999, through September 20,
2003 (covering FYs 2000 through 2003 in the TURK system). The first data
run was provided in a text file, which we imported into a database file. The
data run contained 670,791 records, each containing the following fields:

      •   Field Office: City of FBI Field Office
      •   Employee Indicator: Agent or Support
      •   Fiscal Year: 2000 through 2003
      •   Turk Period: 1 through 13
      •   Program: Numeric Indicator
      •   Sub-Program: Alpha Indicator
      •   Classification: Alpha-Numeric Indicator
      •   Average On Board: AOB for the program/sub-program/
          classification designated

       We compared the annual AOB figures at the program level to the
figures verified by the FBI in the Federal Bureau of Investigation Casework
and Human Resource Allocation report issued September 2003.86 Through
this comparison, we discovered that the figures we developed did not match
those affirmed by the FBI. We learned that the FBI retroactively adds
employee leave and miscellaneous time into the TURK record of each
employee at the program/sub-program level. The FBI does this through use
of an automated Investigative Program Allocator, which prorates the data
back into each record based on that employee’s activity in the previous six
pay periods. Because we requested data down to the classification level – a
more detailed level than the program level – employee leave time was not
included in our AOB analyses; therefore, our results did not match actual
totals. Hence, this first data run only was us ed to conduct analyses at the
classification level.


                                - 65 -
                      REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED
                                                                        APPENDIX I
      A second data run, in the same format as the first, but only down to
the program/sub-program level, was requested to conduct analyses of AOB at
such specification. Again, we received this file in a text file and exported it
into a database file for testing. The second data run possessed
339,180 records, each containing the following fields:

      •    Field Office: City of FBI Field Office
      •    Employee Indicator: Agent or Support
      •    Fiscal Year: 2000 through 2003
      •    Turk Period: 1 through 13
      •    Program: Numeric Indicator
      •    Sub-Program: Alpha Indicator
      •    Average On Board: AOB for the program/sub-program designated

       Agent Utilization – We elected to analyze AOB data by fiscal year. To
do this, we totaled the AOB for all TURK periods within each fiscal year for
each investigative program, sub-program, or classification. Next, we divided
this total by the number of TURK periods (13) to obtain the average agents
(or support personnel) working a particular program, sub-progra m, or
classification in a given fiscal year.

      Analysis at the Program/Sub-Program Level – The data universe used
to conduct analyses at the program/sub-program levels, and for the FBI as a
whole, included subtotals for each program. In order to perform our analysis,
we first removed all subtotals, and then calculated AOB for each fiscal year.
For the FBI as a whole, we reviewed AOB data for FYs 2000 through 2003.

      The audit objective was to identify internal operational changes in FBI
investigative efforts occurring as a result of the FBI’s reprioritization and
internal reorganization. Therefore, to assess the change in agent utilization,
we focused our analysis on comparing AOB totals between FYs 2000 and
2003. 58 This approach afforded a view of AOB both before and well into the
FBI’s reprioritization efforts, revealing the areas of greatest change in actual
agent (and support personnel) time worked. Thus, at the program level, and,
when necessary, at the sub-program level, we conducted analyses of the AOB
change between FYs 2000 and 2003.

      However, in order to accurately compare the change in agent utilization
at the program level, we had to account for sub-programs that transferred
programs for FY 2003. The Cyber Crime Program (CCP) and the Criminal
Enterprise Investigations (CEI) Program began tracking resource utilization in
the TURK system in FY 2003. As detailed in the following table,

      58
           The rationale for this decision is contained in Chapter 1.

                                    - 66 -
                          REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                                APPENDIX I
sub-programs in VCMO and WCC were moved to CCP and CEI beginning
FY 2003. Therefore, to accurately assess the change in the FBI’s
investigative efforts at the program level, we added the FY 2003 AOB totals
for these sub-programs back into their previous program.

            SUB-PROGRAMS TRANSFERRED BETWEEN PROGRAMS
Sub-program                  FY 2000 – FY 2002 Program FY 2003 Program
Intellectual Property Rights             WCC                 CCP
Innocent Images Initiative              VCMO                 CCP
OCDETF – VCMO                           VCMO                  CEI
Major Theft                             VCMO                  CEI
Violent Gangs                           VCMO                  CEI
Source: FBI Finance Division


       Analysis at the Investigative Classification Level – Besides conducting
analyses of resource utilization at the program/sub-program levels, we also
performed analyses down to the classification level. First, we first computed
the change in agent AOB for each classification between FYs 2000 and 2003.
Next, we determined which investigative classifications experienced the
greatest change in resource utilization, both positive change and negative
change. In line with our objective to analyze the impact on investigative
effort, we did not include classifications related to training or administrative
matters. In addition, we eliminated any classification that changed or one
that did not exist in both FYs 2000 and 2003.59

       Classifications Experiencing a Reduction in Resource Utilization – We
identified the 30 classifications that endured the largest decrease in AOB
between FYs 2000 and 2003.60 Classifications that were eliminated from our
analysis are included in the following table.61




       59
           Classification numbers that embodied disparate classification names for FYs 2000
and 2003 were not included in our analysis. Additionally, some classifications were
eliminated, while others were created between FYs 2000 and 2003, making it impossible to
accurately compare resource utilization changes within these areas.

       60
           Exhibit 3-14 in Chapter 3 contains a list of the 30 classifications that experienced
the largest AOB reductions.

       61
           We only note those classifications that, unless eliminated, would have been
included as one of the 30 classifications experiencing the greatest reduction in AOB.

                                     - 67 -
                           REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                                   APPENDIX I

    INVESTIGATIVE CLASSIFICATIONS ELIMINATED FROM ANALYSIS OF
     CLASSIFICATIONS EXPERIENCING THE GREATEST AOB REDUCTION
Classification                                                 Reason for
   Number      Classification Name                             Elimination
001A           Training – FBI Personnel (FY 2000) &          Training
               Training – Training Coordinator (FY 2003)
001B           Training-Other Fed., State, County & Local LE Training &
               personnel (FY 2000) & Training                Not in FY 2003
197            Civil Suits and Claims (FBI Programs)         Not in FY 2003
               CLASSIFIED INFORMATION REDACTED               Not in FY 2003
232A           Training Received – White-Collar Crime        Training
240            Training Received – Other                     Training
Source: OIG analysis of FBI TURK data


          Classifications Experiencing an Increase in Resource Utilization – We
   also identified the 30 classifications that endured the largest increase in AOB
   between FYs 2000 and 2003, eliminating classifications using the same
   methodology as we did in the top 30 decreasing classifications.62 The
   classifications that were eliminated and the reason for the elimination are
   detailed in the following table.63




          62
              Exhibit 3-11 in Chapter 3 contains a list of the 30 classifications that experienced
   the largest AOB increases.

          63
              We only note those classifications that, unless eliminated, would have been
   included as one of the 30 classifications experiencing the greatest increase in AOB.

                                       - 68 -
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                 APPENDIX I

    INVESTIGATIVE CLASSIFICATIONS ELIMINATED FROM ANALYSIS OF
      CLASSIFICATIONS EXPERIENCING THE GREATEST AOB INCREASE
Classification                                                       Reason for
   Number      Classification Name                                  Elimination
    001G       Domestic Terrorism – Training Received              Not in FY 2000
    001I       FCI – Training Received                                Training
    001K       International Terrorism – Training Received         Not in FY 2000
    001L       International Terrorism – Training Provided            Training
    001M       NIPCIP-Computer Intrusion – Training Received          Training
    001Q       OC/DP – Drugs – Training Received                      Training
    001U       Training VCMOP                                      Not in FY 2000
    001W       WCC – Training Received                                Training
    001Y       Firearms/Legal/Other – Training Received               Training
    001Z       Firearms/Legal/Other – Training Provided               Training
    063B       HQ Use Only – TURK Not Recorded                     Administrative
    066F       Admin. Matters Other                                Administrative
    089G       Attorney General Protection Detail                  Not in FY 2000
    196E       Internet Fraud                                      Not in FY 2000
    197A       Civil Litigation                                    Not in FY 2000
                                                                   Not in FY 2000
               CLASSIFIED INFORMATION REDACTED                     Not in FY 2000
                                                                   Not in FY 2000
    209C       Health Care Crime (Non-Insurance)                   Not in FY 2000
    245K       OCDETF – Money Laundering - Drugs                   Not in FY 2000
               National Collection Directive (FY 2000) & Targeting   Change in
    288B
               the National Info Infrastructure (FY 2003)               name
    295E       Copyright Infringement/Signal Theft Matters         Not in FY 2000
    300H       CT Preparedness – WMD Preparedness                  Not in FY 2000
               Innocent Images National Initiative Training
    305B                                                              Training
               (FY 2000) & IINI – Travelers/Enticement (FY 2003)
    305C       IINI – Producers CP                                 Not in FY 2000
    305D       IINI – Possessors of CP                             Not in FY 2000
    308A       ERT Administrative Matter                           Administrative
    308B       ERT Training Received                                  Training
    308K       ERT Crime Scene – Other                             Not in FY 2000
     314       Intelligence Base/Infragard                         Not in FY 2000
Source: OIG analysis of FBI TURK data




                                     - 69 -
                           REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED
                                                                   APPENDIX I
      FBI Casework – For our analyses of the FBI’s casework, we received
two data runs from the Automated Case Support (ACS) system containing all
FBI cases worked during our review period. We discarded the first data run
due to omissions and data organization errors prior to receiving the final one.
The information was provided in a database file containing 848,717 records,
separated into the following fields:

   Field Name               Field Description
   §   Office Code:         2 digit alpha designation for office of origin
   §   Case ID:             Universal Case File Number (UCFN)
   §   Class:               Classification of case
   §   Subclass:            Subclassification of case
   §   Program Name:        Name of program
   §   Sub-program
       Name:                Name of sub-program
   §   Open Date:           yyyymmdd format
   §   Close Date:          yyyymmdd format
   §   Days Pending:        Number of days the case is open
   §   Destroyed Case:      “D” designation when case is destroyed
   §   Previous Class:      Previous classification of case if reclassified

      In reviewing the data, we noted that instead of containing only cases
from September 26, 1999, through September 20, 2003, as we had
requested, the data run contained cases that closed after the final day of
FY 2003 and up to and including December 2, 2003. We determined that it
was not necessary to request a new data run to correct for this inaccuracy;
these FY 2004 cases are not included in any of our analyses.

      In addition, we discovered 4,977 cases in the database that were
designated as having been destroyed. Of these 4,977 cases, we found 339
that contained opening and closing dates. We determined that we could
include these 339 cases in any analyses involving case opening and closing
dates, while we needed to eliminate those that contained no open and close
dates. We therefore retained the 339 destroyed cases containing open and
close dates, and eliminated the remaining 4,638 cases that did not contain
open and close dates. These 4,638 cases reflected one percent of the
remaining database of 404,318 cases on which we performed our analyses.

       We confined our casework analysis to the data we obtained from the
ACS system, and did not review individual case files to determine the actual
level of effort expended on any single case. Thus, if a case was open during
a particular timeframe, we considered it to be worked during that period.



                                - 70 -
                      REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED
                                                              APPENDIX II

      APPENDIX II: DESCRIPTIONS OF FBI PROGRAMS

National Foreign Intelligence Program (NFIP) – the FBI’s foreign
counterterrorism and counterintelligence work is concentrated within this
program. Sub-programs found in NFIP include Foreign Counterintelligence,
FBI Security, and International Terrorism.

National Infrastructure/Computer Intrusion Program (NIPCIP) –
work performed in this program involves protection of computer networks
and critical infrastructures. Work in this program includes Computer
Intrusion Criminal Matters and Protection of Transportation Facilities. In
FY 2002 the National Infrastructure Protection Center was moved to the
Department of Homeland Security (DHS). What remained after this transfer
was the Computer Intrusion Program, which was moved into the Cyber
Division.

Domestic Terrorism Program (DT) – the FBI’s resources directed towards
“home-grown” terrorists are captured in this program. Sub-programs include
Counterterrorism Preparedness and Weapons of Mass Destruction.

White-Collar Crime Program (WCC) – FBI investigations related to most
economic-based crimes, including money laundering, government fraud,
public corruption, and antitrust matters are captured by this program.

Organized Crime/Drug Program (OC/D) – FBI investigations that identify,
dismantle, or disrupt major international and national organized criminal
enterprises fall within this program. Cases in this program target large
organized crime and drug organizations, as well as OCDETF activities.

Violent Crime/Major Offenders Program (VCMO) – Cases that target
the most significant violent crime, including crimes against children,
fugitives, and transportation crimes, are categorized under this program.

Civil Rights Program (CR) – Examples of crimes investigated within this
program are hate crimes, color of law violations, and involuntary
servitude/slavery issues.

Cyber Crime Program (CCP) – Created in FY 2002, cyber crime involves
investigating and preventing cyber attacks by foreign adversaries and
terrorists, and the investigation of all computer-based crime, such as
Internet-based child pornography, sexual predators, and Internet fraud. The
sub-programs that make up the CCP came, in part, from both the
White-Collar Crime and Violent Crime/Major Offenders programs.

                              - 71 -
                    REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED
                                                             APPENDIX II


Criminal Enterprise Investigations (CEI) – The sub-programs that make
up CEI originated in the Violent Crimes and Major Offenders Program and
involve investigations related to OCDETF gang investigations, major theft,
and violent gangs.

Applicant Program (APP) – FBI administrative work involving the
selection and processing of new agent and support personnel, as well as
background investigations for new and current hires, federal judges, and
white house staff is categorized under this program.

Training (TRAIN) – Training involving FBI employees, as well as state and
local personnel, falls within this program.

Miscellaneous Matters (MISC) – FBI administrative matters are mostly
captured by this program, including Freedom of Information Act requests,
accidents involving FBI vehicles, and public relations matters.




                              - 72 -
                    REDACTED AND UNCLASSIFIED
                                                       REDACTED AND UNCLASSIFIED
                                                                                                                      APPENDIX III
                  APPENDIX III: CROSSWALK OF FBI PROGRAMS AND SUB-PROGRAMS
                                     FYS 2000 THROUGH 2003

        FBI
                         FY 2000 SUB-PROGRAMS              FYS 2001 & 2002 SUB-PROGRAMS             FY 2003 SUB-PROGRAMS
   PROGRAMS
National Foreign      CI-Foreign Counterintelligence     CI-Foreign Counterintelligence       CI-Foreign Counterintelligence
Intelligence (NFIP)   SC-FBI Security                    SC-FBI Security                      SC-FBI Security
                      TI-International Terrorism         TI-International Terrorism           TI-International Terrorism
National                                                                                      CP-Computer Intrusion
Infrastructure                                                                                FP-Infrastructure Protection
Protection/                   No Sub-programs                        No Sub-programs
Computer
Intrusion (NIPCIP)
Domestic                                                 CT-Counterterrorism Preparedness     CT-Counterterrorism Preparedness
Terrorism (DT)                No Sub-programs            DT- Domestic Terrorism Operations    DT- Domestic Terrorism Operations
                                                         WM-Weapons of Mass Destruction       WM-Weapons of Mass Destruction
White-Collar          AT-Antitrust                       AT-Antitrust                         AT-Antitrust
Crime (WCC)           BF-Bankruptcy Fraud                BF-Bankruptcy Fraud                  BF-Bankruptcy Fraud
                      EN-Environmental Crimes            EN-Environmental Crimes              EN-Environmental Crimes
                      FI-Financial Institution Fraud     FI-Financial Institution Fraud       FI-Financial Institution Fraud
                      GF-Fraud Against the Government    GF-Fraud Against the Government      GF-Fraud Against the Government
                      HF-Health Care Fraud               HF-Health Care Fraud                 HF-Health Care Fraud
                      IF-Insurance Fraud                 IF-Insurance Fraud                   IF-Insurance Fraud
                      IP-Intellectual Property Rights    IP- Intellectual Property Rights
                      ML-Money Laundering                ML-Money Laundering                  ML-Money Laundering
                      PC-Public Corruption               PC-Public Corruption                 PC-Public Corruption
                      SF-Securities/Commodities Fraud    SF-Securities/Commodities Fraud      SF-Securities/Commodities Fraud
                      TM-Telemarketing Fraud             TM-Telemarketing Fraud               TM-Telemarketing Fraud
                      ZZ-Other Matters                   ZZ-Other Matters                     ZZ-Other Matters
                                                         WF-Other Wire & Mail Fraud Schemes   WF-Other Wire & Mail Fraud Schemes
Green script indicates creation of a new sub-program
Blue script indicates a WCC sub-program transferred to CCP in FY 2003
Red Script indicates VCMO sub-programs transferred to either CCP or CEI in FY 2003




                                                                 - 73 -
                                                       REDACTED AND UNCLASSIFIED
                                                  REDACTED AND UNCLASSIFIED
                                                                                                                            APPENDIX III


       FBI
                       FY 2000 SUB-PROGRAMS              FYS 2001 & 2002 SUB-PROGRAMS                     FY 2003 SUB-PROGRAMS
   PROGRAMS
Organized           AC-Asian Criminal Enterprise       AC-Asian Criminal Enterprise                AC-Asian Criminal Enterprise
Crime/Drugs         CO-Columbian/Caribbean             CO-Columbian/Caribbean                      CO-Columbian/Caribbean
(OC/D)              DD-Community Outreach Program      DD-Community Outreach Program               DD-Community Outreach Program
                    DE-OCDE Task Force                 DE-OCDE Task Force                          DE-OCDE Task Force
                    LC-La Cosa Nostra                  LC-La Cosa Nostra/Italian O.C./Labor Rack   LC-La Cosa Nostra/Italian O.C./Labor Rack
                    MC-Mexican Criminal Syndicates     MC-Mexican Criminal Syndicates              MC-Mexican Criminal Syndicates
                    RE-Russian/Eastern                 RE-Russian/Eastern European/Eurasia         RE-Russian/Eastern European/Eurasia
                    European/Eurasia                   OD-Other Matters-Drugs                      OD-Other Matters-Drugs
                    OM-Other Matters                   OM-Other Matters-Organized Crime            OM-Other Matters-Organized Crime
Violent Crimes      CA-Crimes Against Children         CA-Crimes Against Children                  CA-Crimes Against Children
and Major           DF-OCDE-Task Force-VCMO            DF-OCDE- Task Force-VCMO
Offenders (VCMO)    FU-Fugitives                       FU-Fugitives                                FU-Fugitives
                    IC-Crimes in Indian Country        IC-Crimes in Indian Country                 IC-Crimes in Indian Country
                    II-Innocent Images Initiative      II- Innocent Images National Initiative
                    MT-Major Theft                     MT-Major Theft
                    SJ-Special Jurisdiction Matters    SJ-Special Jurisdiction Matters             SJ-Special Jurisdiction Matters
                    TC-Transportation Crimes           TC-Transportation Crimes                    TC-Transportation Crimes
                    VC-Violent Incident Crimes         VC-Violent Incident Crimes                  VC-Violent Incident Crimes
                    VW-Victim Witness Assistance       VW-Victim Witness Assistance                VW-Victim Witness Assistance
                    ZV-Other Matters                   ZV-Other Matters                            ZV-Other Matters
                    VG-Violent Gangs                   VG-Violent Gangs
Civil Rights (CR)
                            No Sub-programs                        No Sub-programs                              No Sub-programs


Green script indicates creation of a new sub-program
Blue script indicates a WCC sub-program transferred to CCP in FY 2003
Red Script indicates VCMO sub-programs transferred to either CCP or CEI in FY 2003




                                                            - 74 -
                                                  REDACTED AND UNCLASSIFIED
                                                       REDACTED AND UNCLASSIFIED
                                                                                                                              APPENDIX III


 FYS 2000-2002
                         FY 2000 SUB-PROGRAMS              FYS 2001 & 2002 SUB-PROGRAMS                     FY 2003 SUB-PROGRAMS
   PROGRAMS
Applicants (APP)      BP-Background Investigations       BP-Background Investigations               BP-Background Investigations
                      ON-Other Non-Reimbursables         ON-Other Non-Reimbursables                 ON-Other Non-Reimbursables
                      OR-Other Reimbursables             OR-Other Reimbursables                     OR-Other Reimbursables
                      RP- Recruitment and Processing     RP- Recruitment and Processing             RP- Recruitment and Processing



Training Matters      FE-Federal                         FE-Federal                                 FE-Federal
(TRAIN)               ST-State & Local                   ST-State & Local                           ST-State & Local


Miscellaneous
(MISC)                        No Sub-programs                        No Sub-programs                            No Sub-programs

Cyber Crime                                                                                         IN-Internet Fraud
Program (CCP)64                                                                                     ID-Identity Theft

                                                                                                    IP-Intellectual Property Rights
                              No Sub-programs                        No Sub-programs
                                                                                                    II-Innocent Images National Initiative



Criminal Enterprise                                                                                 DF-OCDE Task Force
Investigations                No Sub-programs                        No Sub-programs                MT-Major Theft
(CEI)64                                                                                             VG-Violent Gangs

Green script indicates creation of a new sub-program
Blue script indicates a WCC sub-program transferred to CCP in FY 2003
Red Script indicates VCMO sub-programs transferred to either CCP or CEI in FY 2003




       64
            Both the Cyber Crime and Criminal Enterprise Investigations programs were created in FY 2003.

                                                                 - 75 -
                                                       REDACTED AND UNCLASSIFIED
                                              REDACTED AND UNCLASSIFIED
                                                                                                                                         APPENDIX IV

                  APPENDIX IV: FBI ORGANIZATIONAL CHART

      = component existing
        prior to reorganization
        effort that began in                                                                                                       Chief of Staff
        December 2001
                                                                                                                                Inspection Division
      = component created in
        reorganization of                                                                                                       Office of Public Affairs
        December 2001
                                                                                                                            Congressional Affairs Office
      =original reorganization                                          DIRECTOR
       component receiving                SAC Advisory
                                                                                                                             Office of the Ombudsman
       final approval                      Committee
                                                                            Deputy
       on March 4, 2004                                                                                                      Office of General Counsel
                                                                            Director

                                                                                                                        Office of Equal Employment Opportunity

                                                                                                                             Chief Information Officer

                                                                                                                        Office of Professional Responsibility




Executive Assistant Director      Executive Assistant Director
                                                                 Executive Assistant Director               Executive Assistant Director              Executive Assistant Director
                                     for Counterterrorism/
      for Intelligence                                            for Criminal Investigations              for Law Enforcement Services                   for Administration
                                      Counterintelligence


                                                                                           Office of Law Enforcement
                                                                                                  Coordination                                                          Records
                                                                                                                                           Office of Strategic         Management
                                                                                             Office of International                            Planning
                                                                                                                                                                        Division
                                                                                                  Operations

                                                                                           Critical Incident Response
                                                                                                      Group




          Office of               Counter-         Counter-                          Criminal                                                   Administrative
                                                                  Cyber                                   Training            Laboratory                                 Security
         Intelligence             terrorism       intelligence                     Investigative                                                  Services
                                                                 Division                                 Division             Division                                  Division
                                   Division         Division                         Division                                                     Division



                                                                                                   Criminal Justice
                                                                                                                            Investigative                               Information
                                                                                                     Information                                      Finance
                                                                                                                            Technologies                                 Resources
                                                                                                       Services                                       Division
                                                                                                                              Division                                    Division
                                                                                                       Division


Source: http://www.fbi.gov from March 2004




                                                        - 76 -
                                              REDACTED AND UNCLASSIFIED
                                                 REDACTED AND UNCLASSIFIED
                                                                                                                                         APPENDIX V

                       APPENDIX V: FBI PRE-9/11 ORGANIZATIONAL CHART
                                                         Approved on 07/23/99


                                                                   DIRECTOR


           Office of the
         General Counsel                                                                                                 Inspection
                                                                                                Chief of Staff
                                                                                                                          Division


                                                              DEPUTY DIRECTOR


                                                                                                   Office of
                                                                                                 Professional
                                                                                                Responsibility


                      Office of Public         Office of Equal
                     and Congressional          Employment
                           Affairs            Opportunity Affairs




                               Criminal
Administrative                  Justice    Information     Criminal      Counter-    National   Investigative
                 Finance                                                                                         Laboratory   Training
  Services                   Information   Resources     Investigative   terrorism   Security     Services
                 Division                                                                                         Division    Division
  Division                     Services      Division      Division       Division   Division      Division
                               Division



Source: FBI FY 2001 Authorization and Budget Request for the Congress



                                                           - 77 -
                                                 REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                                APPENDIX VI

   APPENDIX VI: CASEWORK IN TOP CLASSIFICATIONS (U)

               (S) NUMBER OF CASES WORKED IN
          THE TOP 30 INVESTIGATIVE CLASSIFICATIONS
  EXPERIENCING THE GREATEST REDUCTIONS IN ON-BOARD AGENTS
               FISCAL YEARS 2000 THROUGH 2003

Investigative Classification                                           Cases
091A Bank Robbery                                                         41,336
088A Unlawful Flight to Avoid Prosecution - Crime of Violence             31,788
196D Other Wire and Mail Fraud Schemes                                     8,097
029C FIF - $25K - $99,999 Fed-Ins. Bank                                    6,051
282A Civil Rights - Color of Law - Force &/or Violence                     5,817
209A Health Care Fraud - Government Sponsored Program                      4,742
                      CLASSIFIED INFORMATION REDACTED                      3,641
087B Interstate Transportation of Stolen Property - $25K+                  1,852
281F   OC/DI - Other Major Criminal Organizations                          1,646
281C OC/DI - Mexican Organizations                                         1,642
015B TFIS - Loss of $25K+; Weapons, Explosives                             1,553
209B Health Care Fraud - Private Insurance Program                         1,489
049A Bankruptcy Fraud $50K+ /or Court Officer                              1,451
196B Insurance Fraud                                                       1,153
300A CT Preparedness - Special Events                                      1,147
196A Telemarketing Fraud                                                   1,044
245C OCDETF - Mexican Organizations                                          981
281A OC/DI-LCN and Italian Organizations                                     919
245F   OCDETF - Other Major Criminal Organizations                           783
249A Environmental Crimes                                                    733
026B ITMSV - Commercial Theft or Chop Shops                                  706
281E   OC/DI - Asian Organizations                                           664
281B OC/DI - Central/South American Organizations                            539
                      CLASSIFIED INFORMATION REDACTED                        510
245D OCDETF/VCMO - Gangs                                                     494
245B OCDETF - Central/South American Organizations                           424
281I   OC/DI - Caribbean Organizations                                       296
245I   OCDETF - Caribbean Organizations                                      242
092C REI - Mexican Organizations                                              54
244    Hostage Rescue Team                                                     4
       TOTAL                                                            121,798
Source: OIG analysis of FBI ACS data and NFIP Manual




                                  - 78 -
                        REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED
                                                                          APPENDIX VI


              NUMBER OF CASES WORKED IN
       THE TOP 30 INVESTIGATIVE CLASSIFICATIONS
EXPERIENCING THE GREATEST INCREASES IN ON-BOARD AGENTS
            FISCAL YEARS 2000 THROUGH 2003

Investigative Classification                                                   Cases
                     CLASSIFIED INFORMATION REDACTED                              3,140
266A        AOT-DT-VC-Predicate Offense                                           2,653
                     CLASSIFIED INFORMATION REDACTED                              2,430
                     CLASSIFIED INFORMATION REDACTED                              2,119
196C        Securities/Commodities Fraud                                          1,748
089B        Assaulting or Killing a Federal Officer                               1,624
164C        Crime Aboard Aircraft - All other                                     1,293
                     CLASSIFIED    INFORMATION        REDACTED                    1,098
                     CLASSIFIED    INFORMATION        REDACTED                    1,015
                     CLASSIFIED    INFORMATION        REDACTED                    1,002
                     CLASSIFIED    INFORMATION        REDACTED                      912
                     CLASSIFIED    INFORMATION        REDACTED                      878
                     CLASSIFIED    INFORMATION        REDACTED                      695
                     CLASSIFIED    INFORMATION        REDACTED                      507
253A        Fraud & Rel Activity - Ident Documents (FRAID) - Terrorists             314
                     CLASSIFIED    INFORMATION        REDACTED                      261
                     CLASSIFIED    INFORMATION        REDACTED                      245
                     CLASSIFIED    INFORMATION        REDACTED                      231
                     CLASSIFIED    INFORMATION        REDACTED                      220
                     CLASSIFIED    INFORMATION        REDACTED                      174
174D        Bomb Technician Activities                                              125
                     CLASSIFIED INFORMATION REDACTED                                  78
                     CLASSIFIED INFORMATION REDACTED                                  70
306         Serial Killings                                                           53
300B        CT Preparedness - Aviation Security                                       46
                     CLASSIFIED INFORMATION REDACTED                                  31
067D        Support Applicant Investigations                                          15
261G        Security Officer Matters - Other                                          12
                     CLASSIFIED INFORMATION REDACTED                                   4
                                                                                      65
067B        Special Agent Applicant Investigations                                   0
            TOTAL                                                                22,993

Source: OIG analysis of FBI ACS data and NFIP Manual




       65
           No 067B-Special Agent Applicant cases are present because we only reviewed
cases originating in FBI field offices. All 067B cases in our data set originated at FBI
Headquarters.

                                      - 79 -
                            REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED
                                                                                APPENDIX VII

         APPENDIX VII: ORGANIZED CRIME/DRUG MATTERS

           As discussed in Chapter 4, we identified 12 investigative classifications
    related to Organized Crime/Drug (OC/D) matters that were among the
    30 classifications that experienced the greatest field agent resource
    reductions between FYs 2000 and 2003.66 Moreover, 11 of these 12
    classifications involved drug-related matters.67 These 12 classifications and
    their on-board agent reductions are presented in the following exhibit.

        ORGANIZED CRIME/DRUG CLASSIFICATIONS EXPERIENCING
       THE GREATEST REDUCTIONS IN AGENT RESOURCE UTILIZATION
                  FISCAL YEARS 2000 THROUGH 2003
                                                                                        AOB Change
                                                                                        FYs 2000 –
Classification Name                                   Classification                      2003
Organized Crime/Drug Investigation (OC/DI) Classifications
   OC/DI – Mexican Organizations                           281C                                  -119
   OC/DI – La Cosa Nostra and Italian Organizations        281A                                  -103
   OC/DI – Other Major Criminal Organizations              281F                                   -76
   OC/DI – Central/South American Organizations            281B                                   -44
   OC/DI – Caribbean Organizations                         281I                                   -43
   OC/DI – Asian Organizations                             281E                                   -40
Organized Crime Drug Enforcement Task Force (OCDETF) Classifications
   OCDETF – Mexican Organizations                          245C                                  -123
   OCDETF – Other Major Criminal Organizations             245F                                   -62
   OCDETF – Central/South American Organizations           245B                                   -61
   OCDETF – VCMO – Gangs                                   245D                                   -37
   OCDETF – Caribbean Organizations                        245I                                   -31
Racketeering Enterprise Investigations (REI) Classifications
   REI – Mexican Organizations                             092C                                   -28

                             Total                                                               -767
Source: OIG analysis of FBI TURK data


           We conducted additional analyses for each of these 12 OC/D-related
    classifications based upon the type of criminal organization that the


           66
              Classification 245D (OCDETF – VCMO – Gangs) was transferred from the VCMO
    Program during FY 2002 and assigned to the Criminal Enterprise Investigations Program in
    FY 2003. Although this is the only OCDETF related classification not assigned to the OC/D
    Program, we include Classification 245D in our discussion of OC/D matters in order to keep
    all OCDETF-related classifications together.

           67
               The one classification not specifically related to drug investigations is 092C,
    which involves racketeering enterprise investigations.

                                        - 80 -
                              REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII
investigative classification targeted. These analyses, presented in the
following sections, identify the FBI field offices experiencing the greatest
agent utilization reductions in these specific investigative areas.

Mexican Organizations

      Among the 12 classifications related to OC/D matters, three were
specifically involved Mexican organizations: Classification 281C (OC/DI –
Mexican Organizations ), Classification 245C (OCDETF – Mexican
Organizations ), and Classification 092C (REI – Mexican Organizations). The
following exhibit presents field agent utilization for the entire FBI within
these classifications for FYs 2000 through 2003.

               TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                     FISCAL YEARS 2000 THROUGH 2003




     Source: OIG analysis of FBI TURK data




                                   - 81 -
                         REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                         APPENDIX VII
       Field Offices – We reviewed data at the field office level and
determined that the majority of FBI field offices saw reductions within these
classifications. The following three exhibits present these results and
highlight those field offices that experienced the most significant changes in
on-board agents.

          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
              281C (OC/DI – MEXICAN ORGANIZATIONS)
                 FISCAL YEARS 2000 THROUGH 2003
  2
       ATLANTA

  0


  -2


  -4             CHICAGO   DALLAS              KANSAS
                                     HOUSTON    CITY

  -6
       ALBUQUERQUE
  -8
                                EL PASO
 -10
                                                                                   SAN
                                                                                FRANCISCO
 -12


 -14


 -16                                                           PHOENIX


 -18                                                                     SAN ANTONIO

                                                 LOS ANGELES
 -20

 Source: OIG analysis of FBI TURK data




                                       - 82 -
                             REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                     APPENDIX VII
           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
               245C (OCDETF – MEXICAN ORGANIZATIONS)
                  FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                092C (REI – MEXICAN ORGANIZATIONS)
                  FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data



                                   - 83 -
                         REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII
       As shown in the previous three exhibits, most of the offices
experiencing the greatest on-board agent reductions within classifications
related to Mexican organizations oversee territory along or near the
southwest border of the United States. In fact, the San Antonio and Phoenix
field offices, both of which contain jurisdiction on the southwest border,
experienced significant reductions in each of the three classifications
reviewed.

       In addition to our review of on-board agents, we also analyzed
casework data from the FBI’s Automated Case Support (ACS) system.
Specifically, for each classification related to Mexican organizations , we
compared the number of cases opened in each field office in FY 2000 to the
number opened in FY 2003. After determining both the number and
percentage change for each field office, we identified those offices
experiencing the greatest reductions for each classification. The following
three tables highlight those field offices that experienced the greatest
reductions in the number of cases opened within each classification. As in
our analysis of on-board agent reductions in these classifications, several of
the field offices in our casework analyses are on or near the southwest
border of the United States.

                     281C (OC/DI – MEXICAN ORGANIZATIONS)
                             FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                               FY 2000      FY 2003    Number    Percentage
    FIELD OFFICE            Cases Opened  Cases Opened Change      Change
LOS ANGELES                            42     6         -36         -85.71%
ALBUQUERQUE                            22     1         -21         -95.45%
CHICAGO                                37    19         -18         -48.65%
KANSAS CITY                            18     1         -17         -94.44%
PHOENIX                                16     2         -14         -87.50%
DETROIT                                13     2         -11         -84.62%
SAN FRANCISCO                          12     2         -10         -83.33%
EL PASO                                23    14          -9         -39.13%
HOUSTON                                14     5          -9         -64.29%
SAN ANTONIO                             8     1          -7         -87.50%
SALT LAKE CITY                          8     1          -7         -87.50%
ATLANTA                                 7     1          -6         -85.71%
MINNEAPOLIS                             7     1          -6         -85.71%
CHARLOTTE                               5     0          -5        -100.00%
PORTLAND                                6     1          -5         -83.33%
SEATTLE                                 5     0          -5        -100.00%
Source: OIG analysis of FBI ACS data



                                       - 84 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII


                   245C (OCDETF – MEXICAN ORGANIZATIONS)
                             FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                              FY 2000       FY 2003    Number   Percentage
   FIELD OFFICE            Cases Opened   Cases Opened Change     Change
SAN ANTONIO                       19         3          -16        -84.21%
LOS ANGELES                       13         3          -10        -76.92%
KANSAS CITY                        9         0           -9       -100.00%
CHARLOTTE                          9         1           -8        -88.89%
CLEVELAND                          6         0           -6       -100.00%
HOUSTON                            7         1           -6        -85.71%
INDIANAPOLIS                       5         0           -5       -100.00%
OMAHA                              5         0           -5       -100.00%
SACRAMENTO                         5         0           -5       -100.00%
Source: OIG analysis of FBI ACS data



                      092C (REI – MEXICAN ORGANIZATIONS)
                            FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                             FY 2000       FY 2003    Number    Percentage
  FIELD OFFICE            Cases Opened   Cases Opened Change      Change
SAN FRANCISCO                   2              0        -2         -100.00%
ALBUQUERQUE                     1              0        -1         -100.00%
CHARLOTTE                       1              0        -1         -100.00%
DALLAS                          1              0        -1         -100.00%
LAS VEGAS                       1              0        -1         -100.00%
Source: OIG analysis of FBI ACS data


Central/South American Organizations

       Two classifications involving Central/South American organizations
were among those investigative areas with the greatest reductions in agent
utilization: Classifications 281B (OC/DI – Central/South American
Organizations ) and 245B (OCDETF – Central/South American Organizations ).
As illustrated in the following exhibit, agent utilization for these two
classifications decreased in each year from FY 2000 through FY 2003.




                                       - 85 -
                             REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED
                                                                   APPENDIX VII

                TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                      FISCAL YEARS 2000 THROUGH 2003




                           Source: OIG analysis of FBI TURK data


      Field Offices – The following two exhibits contain field office-level
analyses of changes occurring within these classifications. Unlike our
analysis of Mexican organizations, we found no geographic commonality
among those field offices experiencing the greatest reductions. However, we
did determine that the most significant reductions related to Central/South
American organizations generally occurred within the FBI’s larger offices.

          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
       281B (OC/DI – CENTRAL/SOUTH AMERICAN ORGANIZATIONS)
                  FISCAL YEARS 2000 THROUGH 2003




  Source: OIG analysis of FBI TURK data

                                      - 86 -
                            REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII
          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
       245B (OCDETF – CENTRAL/SOUTH AMERICAN ORGANIZATIONS)
                   FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


       As with Mexican organizations, we reviewed casework data for those
classifications related to Central/South American organizations.


        281B (OC/DI – CENTRAL/SOUTH AMERICAN ORGANIZATIONS)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000       FY 2003    Number    Percentage
   FIELD OFFICE             Cases Opened  Cases Opened Change      Change
CHICAGO                           7             1        -6          -85.71%
LOS ANGELES                       5             0        -5         -100.00%
NEWARK                            8             3        -5          -62.50%
MIAMI                            13             9        -4          -30.77%
CHARLOTTE                         3             0        -3         -100.00%
PITTSBURGH                        3             0        -3         -100.00%
BALTIMORE                         2             0        -2         -100.00%
NEW HAVEN                         2             0        -2         -100.00%
NEW YORK                          9             7        -2          -22.22%
TAMPA                             3             1        -2          -66.67%
Source: OIG analysis of FBI ACS data




                                       - 87 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII

      245B (OCDETF – CENTRAL/SOUTH AMERICAN ORGANIZATIONS)
                              FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                             FY 2000         FY 2003   Number    Percentage
 FIELD OFFICE             Cases Opened    Cases Opened Change      Change
MIAMI                           10              3        -7          -70.00%
HOUSTON                          3              0        -3         -100.00%
TAMPA                            3              0        -3         -100.00%
ALBANY                           2              0        -2         -100.00%
CHICAGO                          2              0        -2         -100.00%
LOS ANGELES                      2              0        -2         -100.00%
PHILADELPHIA                     3              1        -2          -66.67%
Source: OIG analysis of FBI ACS data


Caribbean Organizations

      The following exhibit illustrates on-board field agent utilization in the
two Caribbean-related classifications listed among those investigative areas
with the greatest reductions in on-board agents: Classification 281I (OC/DI
– Caribbean Organizations ) and Classification 245I (OCDETF – Caribbean
Organizations ).

                  TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                        FISCAL YEARS 2000 THROUGH 2003




             Source: OIG analysis of FBI TURK data


     Field Offices – The following two exhibits illustrate on-board agent
changes experienced by each FBI field office from FYs 2000 through 2003 in
matters related to Caribbean organizations.


                                       - 88 -
                             REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED
                                                    APPENDIX VII
          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
             281I (OC/DI -- CARIBBEAN ORGANIZATIONS)
                 FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
             245I (OCDETF -- CARIBBEAN ORGANIZATIONS)
                  FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data




                                 - 89 -
                       REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED
                                                               APPENDIX VII

      Similar to matters involving Central/South American organizations, the
decrease in agent utilization in classifications associated with Caribbean
enterprises occurred within some of the FBI’s larger field offices, New York
City, Washington, and Miami.

      Our analysis of casework in matters related to Caribbean organizations
revealed that several of the offices experiencing the greatest reductions in
case openings did not open any 281I and 245I cases in FY 2003.


                   281I (OC/DI -- CARIBBEAN ORGANIZATIONS)
                             FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                            FY 2000        FY 2003    Number   Percentage
 FIELD OFFICE            Cases Opened Cases Opened Change        Change
SAN JUAN                       11             4         -7         -63.64%
BOSTON                          9             4         -5         -55.56%
MIAMI                           9             5         -4         -44.44%
PITTSBURGH                      4             0         -4        -100.00%
PHILADELPHIA                    4             1         -3         -75.00%
WASHINGTON                      3             0         -3        -100.00%
ALBANY                          2             0         -2        -100.00%
COLUMBIA                        2             0         -2        -100.00%
Source: OIG analysis of FBI ACS data



                 245I (OCDETF -- CARIBBEAN ORGANIZATIONS)
                            FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                            FY 2000       FY 2003    Number    Percentage
 FIELD OFFICE            Cases Opened Cases Opened Change        Change
BOSTON                         6             0         -6         -100.00%
NEW YORK                       6             0         -6         -100.00%
HOUSTON                        3             0         -3         -100.00%
ALBANY                         2             0         -2         -100.00%
ATLANTA                        2             0         -2         -100.00%
COLUMBIA                       2             0         -2         -100.00%
CLEVELAND                      3             1         -2          -66.67%
JACKSONVILLE                   2             0         -2         -100.00%
LAS VEGAS                      2             0         -2         -100.00%
MIAMI                          4             2         -2          -50.00%
NEWARK                         2             0         -2         -100.00%
Source: OIG analysis of FBI ACS data




                                        - 90 -
                              REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                                APPENDIX VII
La Cosa Nostra and Italian Organizations

      Only one of the OC/D investigative classifications we identified involved
organizations related to La Cosa Nostra (LCN) and Italian enterprises:
Classification 281A (OC/DI La Cosa Nostra and Italian Organizations ). The
following exhibit presents field agent utilization within this classification for
FYs 2000 through 2003.

               TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                     FISCAL YEARS 2000 THROUGH 2003




     Source: OIG analysis of FBI TURK data


       Field Offices – As shown in the following exhibit, by far the most
significant on-board agent reductions within LCN and Italian organization
matters occurred in the New York City and Newark field offices. According to
FBI program documents, investigations involving these organizations are
concentrated in the New York City Metropolitan area; thus, these results
were not surprising.




                                   - 91 -
                         REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                           APPENDIX VII
          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
      281A (OC/DI – LA COSA NOSTRA AND ITALIAN ORGANIZATIONS)
                   FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


       Our review of 281A case openings, which follows, showed no
significant reductions.

   281A (OC/DI – LA COSA NOSTRA AND ITALIAN ORGANIZATIONS)
                  FIELD OFFICE CASE OPENINGS
                FISCAL YEARS 2000 THROUGH 2003
                   FY 2000      FY 2003    Number Percentage
 FIELD OFFICE Cases Opened Cases Opened Change      Change
BOSTON                 8            1        -7       -87.50%
KANSAS CITY            7            0        -7      -100.00%
NEWARK                11            4        -7       -63.64%
PHILADELPHIA           6            1        -5       -83.33%
NEW HAVEN              7            4        -3       -42.86%
NEW ORLEANS            3            1        -2       -66.67%
ATLANTA                1            0        -1      -100.00%
BUFFALO                1            0        -1      -100.00%
CHICAGO                9            8        -1       -11.11%
DALLAS                 2            1        -1       -50.00%
HOUSTON                1            0        -1      -100.00%
PHOENIX                1            0        -1      -100.00%
SAN FRANCISCO          1            0        -1      -100.00%
TAMPA                  3            2        -1       -33.33%
Source: OIG analysis of FBI ACS data


                                       - 92 -
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                           APPENDIX VII
Asian Organizations

      As with LCN and Italian organization matters, only one classification
associated with Asian organizations experienced the most significant
reductions in on-board agents between FYs 2000 and 2003. The following
exhibit reveals the field agent resource utilization for this classification:
281E (OC/DI – Asian Organizations).

               TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                     FISCAL YEARS 2000 THROUGH 2003




                 Source: OIG analysis of FBI TURK data


       Field Offices – As illustrated in the following exhibit, the majority of the
FBI’s field offices experienced a decrease in onboard agents in
Classification 281E between FYs 2000 and 2003. Although the most
significant agent utilization reductions were not concentrated in a specific
geographic area, they generally occurred within the FBI’s larger field offices.
In fact, five of these field offices, including New York City and Los Angeles,
are among the FBI’s ten largest offices.68




       68
           In addition to the Los Angeles and New York City field offices, these offices
include the Houston, San Francisco, and Washington field offices.

                                     - 93 -
                           REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                              APPENDIX VII

             CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                  281E (OC/DI – ASIAN ORGANIZATIONS)
                    FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data

       As shown in the following exhibit, almost every field office that
experienced the greatest reductions in Asian organization matters contain
territory that borders either the Pacific or Atlantic Ocean.

                         281E (OC/DI – ASIAN ORGANIZATIONS)
                              FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                             FY 2000         FY 2003    Number   Percentage
  FIELD OFFICE             Cases Opened   Cases Opened Change      Change
SAN FRANCISCO                   18              4         -14        -77.78%
LOS ANGELES                     18              5         -13        -72.22%
ANCHORAGE                        9              0          -9       -100.00%
BALTIMORE                        6              0          -6       -100.00%
HONOLULU                         7              2          -5        -71.43%
NEW YORK                         8              3          -5        -62.50%
SEATTLE                          6              1          -5        -83.33%
MINNEAPOLIS                      6              2          -4        -66.67%
NEWARK                          12              8          -4        -33.33%
BOSTON                           4              1          -3        -75.00%
WASHINGTON                       3              0          -3       -100.00%
Source: OIG analysis of FBI ACS data

                                       - 94 -
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                 APPENDIX VII
Other Criminal Organizations

      Of the 30 classifications with the most significant agent utilization
reductions, three investigative areas did not pertain to a specific type of
criminal organization: Classifications 245D (OCDETF – VCMO Gangs ),
Classification 281F (OC/DI – Other Major Criminal Organizations), and
Classification 245F (OCDETF – Other Major Criminal Organizations ). The
following exhibit illustrates the agent utilization within these classifications
for FYs 2000 through 2003.

                TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                     FISCAL YEARS 2000 THROUGH 2003




        Source: OIG analysis of FBI TURK data


      Field Offices – We discerned no similarities among the field offices with
the greatest reductions in agent utilization within these classifications. As
shown in the following exhibit, the offices affected were large, medium, and
small with no geographic connectivity among them.




                                     - 95 -
                           REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                       APPENDIX VII

           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                    245D (OCDETF – VCMO - GANGS)
                  FISCAL YEARS 2000 THROUGH 2003




  Source: OIG analysis of FBI TURK data


          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
         281F (OC/DI – OTHER MAJOR CRIMINAL ORGANIZATIONS)
                   FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data



                                     - 96 -
                           REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                              APPENDIX VII
            CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
          245F (OCDETF – OTHER MAJOR CRIMINAL ORGANIZATIONS)
                    FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


     The following three tables provide information about reductions in case
openings within matters involving other criminal organizations.

                            245D (OCDETF – VCMO - GANGS)
                            FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                             FY 2000      FY 2003    Number   Percentage
 FIELD OFFICE             Cases Opened Cases Opened Change      Change
MIAMI                           4             0        -4        -100.00%
ATLANTA                         3             0        -3        -100.00%
DALLAS                          3             0        -3        -100.00%
DENVER                          3             0        -3        -100.00%
MILWAUKEE                       3             0        -3        -100.00%
OKLAHOMA CITY                   3             0        -3        -100.00%
SACRAMENTO                      3             0        -3        -100.00%
Source: OIG analysis of FBI ACS data




                                       - 97 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                              APPENDIX VII


      281F (OC/DI – OTHER MAJOR CRIMINAL ORGANIZATIONS)
                  FIELD OFFICE CASE OPENINGS
                FISCAL YEARS 2000 THROUGH 2003
                   FY 2000      FY 2003    Number Percentage
  FIELD OFFICE Cases Opened Cases Opened Change     Change
DETROIT               30           4         -26      -86.67%
PHILADELPHIA          28           2         -26      -92.86%
SPRINGFIELD           18           2         -16      -88.89%
BIRMINGHAM            14           0         -14     -100.00%
PITTSBURGH            12           0         -12     -100.00%
NORFOLK               12           1         -11      -91.67%
INDIANAPOLIS          11           1         -10      -90.91%
JACKSON               11           1         -10      -90.91%
LOUISVILLE            14           4         -10      -71.43%
ALBANY                11           2          -9      -81.82%
DALLAS                10           1          -9      -90.00%
NEWARK                11           2          -9      -81.82%
SALT LAKE CITY        11           3          -8      -72.73%
Source: OIG analysis of FBI ACS data


        245F (OCDETF – OTHER MAJOR CRIMINAL ORGANIZATIONS)
                            FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                             FY 2000      FY 2003    Number   Percentage
  FIELD OFFICE            Cases Opened Cases Opened Change      Change
CHARLOTTE                       9             1        -8         -88.89%
MEMPHIS                         7             0        -7        -100.00%
ATLANTA                         7             1        -6         -85.71%
NORFOLK                         6             0        -6        -100.00%
INDIANAPOLIS                    5             0        -5        -100.00%
PHILADELPHIA                    5             0        -5        -100.00%
COLUMBIA                        5             1        -4         -80.00%
DETROIT                         4             0        -4        -100.00%
PITTSBURGH                      4             0        -4        -100.00%
ST. LOUIS                       5             1        -4         -80.00%
Source: OIG analysis of FBI ACS data




                                       - 98 -
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                           APPENDIX VIII

              APPENDIX VIII: VIOLENT CRIME MATTERS

        Six of the 30 investigative classifications that experienced the most
 significant reductions in on-board agents from FYs 2000 through 2003 fall
 within the realm of violent crime.69 Three of these fall into the Violent
 Crime/Major Offenders (VCMO) Program, while the others are located within
 the Criminal Enterprise Investigations (CEI) Program.

           VIOLENT CRIME CLASSIFICATIONS EXPERIENCING
       THE GREATEST REDUCTIONS IN FIELD AGENT UTILIZATION
                 FISCAL YEARS 2000 THROUGH 2003
                                                       AOB Change
                                                       FYs 2000 –
Program Number Classification Name                        2003
                        Unlawful Flight to Avoid Prosecution – Crime of
 VCMO         088A                                                                     -101
                        Violence
 VCMO         091A      Bank Robbery                                                    -81
 VCMO          244      Hostage Rescue Team                                             -24
                        Interstate Transportatio n of Stolen Property -
   CEI        087B                                                                      -29
                        $25K+
                        ITSMV (Interstate Transportation of Stolen
   CEI        026B      Motor Vehicle)–Commercial Theft or Chop Shops                   -29

                        TFIS (Theft From Interstate Shipment) – Loss of
   CEI        015B                                                                      -21
                        $25K+; Weapons, Explosives
                                               Total                                   -285
Source: OIG analysis of FBI TURK data

         As was the case with OC/D matters, we identified trends in the field
 offices most affected by agent utilization reductions in these violent crime
 classifications. Additionally, we reviewed changes in the number of case
 openings for each of the six violent crime classifications at the field office
 level between FYs 2000 and 2003. Our analyses of agent utilization and
 case openings are presented in the following sections.




         69
           Actually, 7 of the 30 classifications experiencing the most significant reduction in
 on-board agents fall within the VCMO and CEI programs. However, Classification 245D
 (OCDETF – VCMO Gangs), located within the CEI Program, is an OCDETF classification that
 was discussed in Appendix VII, along with the other OCDETF classifications.

                                     - 99 -
                           REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                              APPENDIX VIII
Violent Fugitives

       Classification 088A (Unlawful Flight to Avoid Prosecution – Crime of
Violence) involves the investigation of fugitives charged with a violent crime.
The following exhibit details the general decline in field agent resources
utilized within this classification for FYs 2000 through 2003.

              TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                   FISCAL YEARS 2000 THROUGH 2003




       Source: OIG analysis of FBI TURK data


      Field Offices – The following exhibit shows the changes that occurred
within all FBI field offices. As shown, several offices experienced significant
resource utilization reductions in this fugitive area, many of which were
among the FBI’s larger offices.




                                  - 100 -
                        REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                               APPENDIX VIII

         CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
 088A (UNLAWFUL FLIGHT TO AVOID PROSECUTION – CRIME OF VIOLENCE)
                 FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


       Besides the reductions in field agent utilization, this investigative area
experienced the greatest reduction in case openings, by far, of any other
classification identified in the top 30 decreasing classifications. The FBI
opened 13,384 violent fugitive investigations in FY 2000, but reduced that to
only 1,767 in FY 2003. This significant drop in case openings amounts to a
decrease of 87 percent. The following table lists the field offices that
experienced a reduction of at least 25 case openings. As seen from the list,
42 of the FBI’s 56 field offices opened significantly fewer violent fugitive cases
in FY 2003 than in FY 2000. Notably, the New York City Field Office, after
opening 376 violent fugitive cases in FY 2000, opened none in FY 2003.




                                   - 101 -
                         REDACTED AND UNCLASSIFIED
                                  REDACTED AND UNCLASSIFIED
                                                              APPENDIX VIII

     088A (UNLAWFUL FLIGHT TO AVOID PROSECUTION – CRIME OF VIOLENCE)
                        FIELD OFFICE CASE OPENINGS
                     FISCAL YEARS 2000 THROUGH 2003
                     FY 2000           FY 2003     Number    Percentage
   FIELD OFFICE   Cases Opened      Cases Opened   Change     Change
NEWARK                 1,130              22        -1,108        -98.05%
MIAMI                   867               23         -844         -97.35%
LAS VEGAS               802               67         -735         -91.65%
WASHINGTON              650               26         -624         -96.00%
BOSTON                  594                8         -586         -98.65%
BALTIMORE               575               20         -555         -96.52%
ST. LOUIS               499               77         -422         -84.57%
PHILADELPHIA            576              155         -421         -73.09%
ALBUQUERQUE             400                1         -399         -99.75%
NEW YORK                376                0         -376        -100.00%
SAN ANTONIO             370                5         -365         -98.65%
DETROIT                 523              184         -339         -64.82%
CHARLOTTE               352               25         -327         -92.90%
CHICAGO                 387               62         -325         -83.98%
SEATTLE                 303               12         -291         -96.04%
SAN FRANCISCO           333               45         -288         -86.49%
PHOENIX                 291               29         -262         -90.03%
INDIANAPOLIS            253               10         -243         -96.05%
MILWAUKEE               247                7         -240         -97.17%
NEW HAVEN               261               40         -221         -84.67%
LOS ANGELES             294               74         -220         -74.83%
DENVER                  232               15         -217         -93.53%
SALT LAKE CITY          234               17         -217         -92.74%
MOBILE                  207                6         -201         -97.10%
PITTSBURGH              206                8         -198         -96.12%
CLEVELAND               487              298         -189         -38.81%
SACRAMENTO              197               27         -170         -86.29%
CINCINNATI              158                7         -151         -95.57%
NORFOLK                 157               15         -142         -90.45%
JACKSONVILLE            133                7         -126         -94.74%
MINNEAPOLIS             189               65         -124         -65.61%
HOUSTON                 85                 0          -85        -100.00%
DALLAS                  93                10          -83         -89.25%
ATLANTA                 144               67          -77         -53.47%
PORTLAND                100               23          -77         -77.00%
RICHMOND                74                 5          -69         -93.24%
SAN DIEGO               77                13          -64         -83.12%
BIRMINGHAM              61                 4          -57         -93.44%
JACKSON                 62                 6          -56         -90.32%
MEMPHIS                 33                 3          -30         -90.91%
OMAHA                   28                 2          -26         -92.86%
NEW ORLEANS             31                 6          -25         -80.65%
Source: OIG analysis of FBI ACS data

                                            - 102 -
                                  REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                                 APPENDIX VIII
Bank Robbery

      Between FYs 2000 and 2003 the number of agents working on bank
robbery investigations significantly dropped. The following exhibit provides
an overview of the on-board agents involved in such investigations during
this period.

              TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                    FISCAL YEARS 2000 THROUGH 2003




        Source: OIG analysis of FBI TURK data


      Field Offices – Changes in agent utilization of all field offices in
091A matters are highlighted in the following exhibit. As shown, virtually
every office had some sort of on-board agent reduction. Furthermore, many
of the significant utilization declines occurred in the FBI’s larger field offices,
like Chicago and Los Angeles.




                                   - 103 -
                         REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                           APPENDIX VIII


         CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                      091A (BANK ROBBERY)
                FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


       In our review of casework in 091A matters, we found that although 3
field offices opened at least 111 fewer cases in FY 2003 than FY 2000, 091A
case openings in the majority of FBI field offices increased during this
timeframe. Field offices experiencing the greatest reductions in cases
openings in this classification are highlighted in the following exhibit.




                                   - 104 -
                         REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX VIII


                                   091A (BANK ROBBERY)
                             FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                               FY 2000      FY 2003    Number     Percentage
    FIELD OFFICE            Cases Opened  Cases Opened Change       Change
LOS ANGELES                            689     561       -128        -18.58%
CINCINNATI                             238     113       -125        -52.52%
PHOENIX                                220     109       -111        -50.45%
TAMPA                                  242     182        -60        -24.79%
SEATTLE                                288     229        -59        -20.49%
NORFOLK                                64      16         -48        -75.00%
ALBANY                                 64      29         -35        -54.69%
SACRAMENTO                             197     165        -32        -16.24%
OMAHA                                  98      70         -28        -28.57%
LAS VEGAS                              151     126        -25        -16.56%
KANSAS CITY                            114     93         -21        -18.42%
INDIANAPOLIS                           121     103        -18        -14.88%
COLUMBIA                               124     112        -12         -9.68%
MINNEAPOLIS                            83      71         -12        -14.46%
MILWAUKEE                              90      83          -7         -7.78%
SAN JUAN                               21      16          -5        -23.81%
WASHINGTON                             55      52          -3         -5.45%
DENVER                                 123     121         -2         -1.63%
Source: OIG analysis of FBI ACS data


Hostage Rescue Team

       Another violent crime classification that experienced a reduction in
field agent resource utilization was Classification 244 (Hostage Rescue
Team). The following exhibit illustrates the decline in the number of
on-board agents involved in these investigative matters between FYs 2000
through 2003.




                                       - 105 -
                             REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED
                                                               APPENDIX VIII


             TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                   FISCAL YEARS 2000 THROUGH 2003




              Source: OIG analysis of FBI TURK data


       Field Offices – When analyzing the resource utilization changes at the
field office level, we found that no office experienced significant fluctuations
(whether increasing or decreasing) in on-board agents. Instead, the
majority of the utilization reduction in 244 matters occurred within the
Critical Incident Response Group (CIRG), which provides tactical support to
FBI field offices for incidents ranging from hostage rescue to fugitive
apprehension. Thus, it was not surprising that CIRG accounted for a large
portion of the overall reduction in this investigative classification.

Interstate Transportation of Stolen Property

       Resource utilization for investigations involving the transportation of
stolen property across state lines valued at $25,000 or more are tracked in
Classification 087B (Interstate Transportation of Stolen Property - $25K+).
This violent crime area was also among the 30 classifications experiencing
significant field agent resource utilization reductions. The following exhibit
provides the on-board agents utilized in this investigative area between
FYs 2000 through 2003.




                                 - 106 -
                       REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                             APPENDIX VIII


           TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                      FISCAL YEARS 2000 THROUGH 2003




          Source: OIG analysis of FBI TURK data


       Field Offices – The following exhibit represents the agent resource
utilization changes among FBI field offices. As illustrated, the majority of
offices experienced on-board agent reductions involving investigations of
087B matters. Additionally, the greatest agent utilization declines occurred
in the FBI’s larger field offices: Baltimore, Dallas, New York City, Phoenix,
and Washington.




                                  - 107 -
                        REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                              APPENDIX VIII
         CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
   087B (INTERSTATE TRANSPORTATION OF STOLEN PROPERTY-$25K+)
                 FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data

      As shown in the following exhibit, three of the field offices experiencing
the greatest reductions in 087B case openings (Chicago, Los Angeles, and
Dallas) were among the largest FBI field offices.

    087B (INTERSTATE TRANSPORTATION OF STOLEN PROPERTY-$25K+)
                    FIELD OFFICE CASE OPENINGS
                  FISCAL YEARS 2000 THROUGH 2003
                      FY 2000       FY 2003    Number  Percentage
    FIELD OFFICE   Cases Opened   Cases Opened Change   Change
CHICAGO                  18             6        -12       -66.67%
LOS ANGELES              13             2        -11       -84.62%
DALLAS                   17             8         -9       -52.94%
LAS VEGAS                9              0         -9      -100.00%
CINCINNATI               9              1         -8       -88.89%
NEWARK                   12             5         -7       -58.33%
BIRMINGHAM               9              3         -6       -66.67%
LITTLE ROCK              6              0         -6      -100.00%
LOUISVILLE               9              3         -6       -66.67%
OKLAHOMA CITY            6              0         -6      -100.00%
BALTIMORE                5              0         -5      -100.00%
DETROIT                  12             7         -5       -41.67%
INDIANAPOLIS             7              2         -5       -71.43%
MINNEAPOLIS              7              2         -5       -71.43%
Source: OIG analysis of FBI ACS data

                                       - 108 -
                             REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                               APPENDIX VIII
Interstate Transportation of Stolen Motor Vehicles

       Classification 026B (ITSMV – Commercial Theft or Chop Shops) was
another investigative area involving violent crime that experienced a
significant reduction in field agent resource utilization. The overall number
of on-board agents working on these matters from FYs 2000 through 2003 is
shown in the following exhibit.

           TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                       FISCAL YEARS 2000 THROUGH 2003




       Source: OIG analysis of FBI TURK data


       Field Offices – Changes in agent utilization within each FBI field office
are highlighted in the following exhibit for investigations involving
026B matters. Although some field offices actually had utilization increases
in this area, the changes were nominal. In turn, the majority of the offices
experienced on-board agent reductions, with the most significant declines
occurring in larger offices with the exception of El Paso and Knoxville.




                                  - 109 -
                        REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                               APPENDIX VIII


          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
           026B (ITSMV – COMMERCIAL THEFT OR CHOP SHOPS)
                   FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


      Within 026B investigative matters, we determined that the greatest
reduction in case openings in any one field office was only eight. However,
nearly all of the offices listed as experiencing the greatest reductions in case
openings did not open any 026B investigations in FY 2003.

             026B (ITSMV – COMMERCIAL THEFT OR CHOP SHOPS)
                             FIELD OFFICE CASE OPENINGS
                          FISCAL YEARS 2000 THROUGH 2003
                               FY 2000      FY 2003    Number     Percentage
    FIELD OFFICE            Cases Opened  Cases Opened Change       Change
LAS VEGAS                              8      0           -8        -100.00%
LITTLE ROCK                            6      0           -6        -100.00%
JACKSONVILLE                           5      0           -5        -100.00%
NEW ORLEANS                            6      1           -5         -83.33%
CHARLOTTE                              4      0           -4        -100.00%
CHICAGO                                4      0           -4        -100.00%
BIRMINGHAM                             4      1           -3         -75.00%
DALLAS                                 4      1           -3         -75.00%
HONOLULU                               3      0           -3        -100.00%
KNOXVILLE                              3      0           -3        -100.00%
NEWARK                                 3      0           -3        -100.00%
Source: OIG analysis of FBI ACS data

                                       - 110 -
                             REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED
                                                              APPENDIX VIII
Theft From Interstate Shipment

      Of the six violent crime classifications experiencing significant field
agent resource utilization reductions, the final one identified was
Classification 015B (TFIS – Loss of $25K+; Weapons, Explosives). The
following exhibit illustrates the on-board agents involved in this investigative
area from FYs 2000 through 2003.

             TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                  FISCAL YEARS 2000 THROUGH 2003




           Source: OIG analysis of FBI TURK data

      Field Offices – We found that several FBI field offices experienced
some sort of reduction in on-board agents from FYs 2000 to 2003, as
depicted in the following graph. Many of the changes were nominal;
however, we did note that four of the FBI’s six largest field offices
experienced the most significant field agent utilization declines.




                                - 111 -
                      REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                              APPENDIX VIII
             CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
             015B (TFIS – LOSS OF $25K+; WEAPONS, EXPLOSIVES)
                      FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data


      Our analysis of Classification 015B revealed that the FBI overall
opened 241 fewer cases in FY 2003 than in FY 2000. The following exhibit
details those field offices with the greatest reductions in case openings in
015B matters.

          015B (TFIS – LOSS OF $25K+; WEAPONS, EXPLOSIVES)
    FIELD OFFICE CASE OPENINGS – FISCAL YEARS 2000 THROUGH 2003
                      FY 2000        FY 2003    Number Percentage
   FIELD OFFICE    Cases Opened   Cases Opened  Change    Change
CHICAGO                                74    9          -65         -87.84%
DALLAS                                 33    3          -30         -90.91%
NEWARK                                 36   12          -24         -66.67%
NEW YORK                               29    9          -20         -68.97%
INDIANAPOLIS                           15    2          -13         -86.67%
SAN FRANCISCO                          13    0          -13        -100.00%
COLUMBIA                               10    0          -10        -100.00%
MEMPHIS                                14    4          -10         -71.43%
LOS ANGELES                            10    1           -9         -90.00%
KANSAS CITY                             6    0           -6        -100.00%
PORTLAND                                6    0           -6        -100.00%
HOUSTON                                 8    3           -5         -62.50%
TAMPA                                   8    3           -5         -62.50%
Source: OIG analysis of FBI ACS data



                                       - 112 -
                             REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                                  APPENDIX IX

         APPENDIX IX: WHITE-COLLAR CRIME MATTERS

        As noted in Chapter 4, of the 30 FBI investigative classifications that
 experienced the greatest field agent resource utilization reductions from
 FYs 2000 through 2003, 8 pertained to white-collar crime matters and are
 listed in the following exhibit. Included in these eight classifications are
 those related to health care fraud, telemarketing fraud, and insurance fraud;
 all of which are crime areas that an FBI official thought would see a growth
 in the near term.

          WHITE-COLLAR CRIME CLASSIFICATIONS EXPERIENCING
       THE GREATEST REDUCTIONS IN AGENT RESOURCE UTILIZATION
                  FISCAL YEARS 2000 THROUGH 2003
                                                                    AOB Change
Classification                                                       FYs 2000 -
   Number       Classification Name                                    2003
Financial Institution Fraud:
    029C        FIF - $25K - $99,999 Fed-Insured Bank                    -50
Health Care Fraud:
    209A       Health Care Fraud – Government Sponsored Program          -89
    209B       Health Care Fraud – Private Insurance Program             -32
Other Fraud Investigative Areas:
    196A      Telemarketing Fraud                                        -37
    196D      Other Wire & Mail Fraud Schemes                            -35
    196B      Insurance Fraud                                            -28
    049A      Bankruptcy Fraud $50K+ /or Court Officer                   -26
Environmental Crimes:
    249A      Environmental Crimes                                       -25
                 Total                                                  -322
Source: OIG analysis of FBI TURK data

        We conducted additional analyses of each of these classifications and
 identified any trends in the FBI field offices most affected by field agent
 resource utilization reductions in these investigative areas. In addition, we
 performed analyses of case openings at the field office level for each
 classification. Our analyses are presented in the following sections.

 Financial Institution Fraud

        We identified one investigative area related to financial institution
 fraud (FIF) that experienced a significant reduction in field agent resource
 utilization: Classification 029C (FIF – $25K - $99,999 Fed-Insured Bank).
 As shown in the following graph, the overall number of on-board agents
 involved in these investigations declined in each year from FY 2000 through
 FY 2003.

                                  - 113 -
                        REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                                APPENDIX IX
                    TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                          FISCAL YEARS 2000 THROUGH 2003




                    Source: OIG analysis of FBI TURK data


       Field Offices – The following exhibit shows field agent utilization
changes among all FBI field offices. As shown, every office, except for one,
experienced on-board agent reductions in 029C matters from FYs 2000
through 2003.70 Although an FBI official speculated that changes in this area
would have a greater impact on smaller field offices, we found that the most
significant declines primarily occurred in the FBI’s larger field offices.

               CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                 029C (FIF – $25K - $99,999 FED-INSURED BANK)
                       FISCAL YEARS 2000 THROUGH 2003




  Source: OIG analysis of FBI TURK data


        70
           The San Juan Field Office was the only office that had an increase in the number of
on-board agents handling Classification 029C matters from FY 2000 to 2003; however, this increase
only amounted to 0.01 on-board agents.

                                       - 114 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX IX
        We found that overall the FBI opened only 230 new 029C cases in
  FY 2003 compared to the 1,456 it opened in FY 2000, reflecting a reduction
  of 1,226 case openings. Among individual field offices, we identified several
  that reduced their openings of 029C investigations by at least 22 cases.


                   029C (FIF - $25K - $99,999 FED-INSURED BANK)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000      FY 2003    Number        Percentage
   FIELD OFFICE            Cases Opened Cases Opened Change           Change
DETROIT                          97           14        -83           -85.57%
CHICAGO                          67            1        -66           -98.51%
CLEVELAND                        65            5        -60           -92.31%
PHILADELPHIA                     61            7        -54           -88.52%
OKLAHOMA CITY                    56            7        -49           -87.50%
DALLAS                           58           10        -48           -82.76%
SEATTLE                          46            4        -42           -91.30%
PHOENIX                          40            1        -39           -97.50%
CINCINNATI                       43            6        -37           -86.05%
NEW ORLEANS                      45            9        -36           -80.00%
MINNEAPOLIS                      39            4        -35           -89.74%
MILWAUKEE                        34            0        -34          -100.00%
WASHINGTON                       37            4        -33           -89.19%
KANSAS CITY                      32            2        -30           -93.75%
LOUISVILLE                       34            5        -29           -85.29%
PITTSBURGH                       30            1        -29           -96.67%
ATLANTA                          39           11        -28           -71.79%
DENVER                           29            1        -28           -96.55%
SAN ANTONIO                      33            5        -28           -84.85%
BOSTON                           33            7        -26           -78.79%
CHARLOTTE                        27            1        -26           -96.30%
HOUSTON                          28            3        -25           -89.29%
SALT LAKE CITY                   27            4        -23           -85.19%
INDIANAPOLIS                     26            4        -22           -84.62%
Source: OIG analysis of FBI ACS data


  Health Care Fraud

         Although the FBI expects the incidence of health care fraud to
  dramatically increase over the next decade as the general population ages
  and health care spending increases, two of the eight white-collar crime
  classifications experiencing significant field agent resource utilization
  reductions involve health care fraud matters: Classifications 209A (Health
  Care Fraud – Government Sponsored Program) and 209B (Health Care Fraud

                                       - 115 -
                             REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                                  APPENDIX IX
– Private Insurance Program). The following exhibit presents the on-board
agent data utilized in each of these classifications from FYs 2000 through
2003.

              TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                    FISCAL YEARS 2000 THROUGH 2003




          Source: OIG analysis of FBI TURK data


       Field Offices – The following two exhibits identify field agent utilization
changes among FBI field offices for 209A and 209B matters. As illustrated,
the majority of the offices experienced a decrease in onboard agents in each
of these health care fraud areas. Although the most significant agent
utilization reductions were not concentrated in a specific geographic area,
they generally occurred within the FBI’s larger field offices. We did,
however, note that the Tampa and Washington field offices had considerable
on-board agent declines in both 209A and 209B investigative matters.




                                  - 116 -
                        REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED
                                                   APPENDIX IX

       CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
 209A (HEALTH CARE FRAUD – GOVERNMENT SPONSORED PROGRAM)
               FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


         CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
      209B (HEALTH CARE FRAUD – PRIVATE INSURANCE PROGRAM)
                 FISCAL YEARS 2000 THROUGH 2003




 Source: OIG analysis of FBI TURK data

                                 - 117 -
                       REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED
                                                                APPENDIX IX
      Besides the on-board agent reductions, we identified the changes in
case openings at the field office level for both health care fraud areas. As
shown in the following two exhibits, 209A matters, overall, experienced
greater decreases in case openings within field offices than did 209B
matters.


       209A (HEALTH CARE FRAUD – GOVERNMENT SPONSORED PROGRAM)
                              FIELD OFFICE CASE OPENINGS
                            FISCAL YEARS 2000 THROUGH 2003
                              FY 2000       FY 2003    Number         Percentage
   FIELD OFFICE             Cases Opened Cases Opened   Change          Change
SACRAMENTO                      132            23        -109          -82.58%
DETROIT                          49            16         -33          -67.35%
CHICAGO                          31            10         -21          -67.74%
BALTIMORE                        24             4         -20          -83.33%
TAMPA                            22             4         -18          -81.82%
DENVER                           21             5         -16          -76.19%
WASHINGTON                       20             4         -16          -80.00%
MIAMI                            35            20         -15          -42.86%
BOSTON                           20             6         -14          -70.00%
SAN FRANCISCO                    18             4         -14          -77.78%
PITTSBURGH                       22             9         -13          -59.09%
NEW YORK                         27            15         -12          -44.44%
RICHMOND                         22            11         -11          -50.00%
BIRMINGHAM                       14             4         -10          -71.43%
COLUMBIA                         11             1         -10          -90.91%
PHILADELPHIA                     13             3         -10          -76.92%
PORTLAND                         11             2          -9          -81.82%
Source: OIG analysis of FBI ACS data




                                     - 118 -
                           REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED
                                                               APPENDIX IX

           209B (HEALTH CARE FRAUD – PRIVATE INSURANCE PROGRAM)
                              FIELD OFFICE CASE OPENINGS
                            FISCAL YEARS 2000 THROUGH 2003
                               FY 2000      FY 2003    Number       Percentage
   FIELD OFFICE             Cases Opened Cases Opened   Change        Change
WASHINGTON                        19            3         -16         -84.21%
CLEVELAND                         15            6          -9         -60.00%
PHILADELPHIA                      19           10          -9         -47.37%
MINNEAPOLIS                       10            2          -8         -80.00%
NEW ORLEANS                       11            3          -8         -72.73%
PITTSBURGH                         9            1          -8         -88.89%
BOSTON                             8            3          -5         -62.50%
NORFOLK                            5            0          -5        -100.00%
SAN DIEGO                          7            2          -5         -71.43%
NEW YORK                          17           13          -4         -23.53%
PHOENIX                            4            0          -4        -100.00%
CHARLOTTE                          4            1          -3         -75.00%
DENVER                             4            1          -3         -75.00%
SAN FRANCISCO                      3            0          -3        -100.00%
TAMPA                              5            2          -3         -60.00%
Source: OIG analysis of FBI ACS data


 Other Fraud Investigative Areas

       We identified four other fraudulent classifications in which the FBI’s
 agent utilization significantly decreased. Specifically, these were:
 Classifications 196A (Telemarketing Fraud), 196B (Insurance Fraud), 196D
 (Other Wire & Mail Fraud Schemes), and 049A (Bankruptcy Fraud $50K+ /or
 Court Officer). The following exhibit provides an overview of the field agent
 resource utilization within each of these four classifications from FYs 2000
 through 2003.




                                      - 119 -
                            REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                                 APPENDIX IX
               TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                     FISCAL YEARS 2000 THROUGH 2003




  Source: OIG analysis of FBI TURK data


       Field Offices – As depicted in the following four exhibits, the majority of
the field offices experienced field agent utilization reductions of some kind in
each of these other fraud-related areas. We further noted that the most
significant on-board agent declines primarily occurred in the FBI’s larger
offices and were located in offices dispersed throughout the United States.




                                  - 120 -
                        REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                      APPENDIX IX
           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
              196D (OTHER WIRE & MAIL FRAUD SCHEMES)
                  FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                    196A (TELEMARKETING FRAUD)
                  FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data



                                   - 121 -
                         REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED
                                                     APPENDIX IX
          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                      196B (INSURANCE FRAUD)
                 FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data


          CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
         049A (BANKRUPTCY FRAUD $50K+ /OR COURT OFFICER)
                  FISCAL YEARS 2000 THROUGH 2003




Source: OIG analysis of FBI TURK data



                                  - 122 -
                        REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                APPENDIX IX
      The following four tables list the greatest reductions in case openings
  among field offices for the other fraud related investigative matters.


                     196D (OTHER WIRE & MAIL FRAUD SCHEMES)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000      FY 2003    Number       Percentage
   FIELD OFFICE            Cases Opened Cases Opened Change          Change
SALT LAKE CITY                   76           24        -52         -68.42%
NEW YORK                         68           34        -34         -50.00%
KNOXVILLE                        33            2        -31         -93.94%
LOS ANGELES                      75           44        -31         -41.33%
BOSTON                           70           40        -30         -42.86%
CLEVELAND                        46           18        -28         -60.87%
SEATTLE                          41           17        -24         -58.54%
CHICAGO                          65           44        -21         -32.31%
RICHMOND                         33           13        -20         -60.61%
DENVER                           27            9        -18         -66.67%
OKLAHOMA CITY                    41           23        -18         -43.90%
JACKSON                          21            4        -17         -80.95%
ATLANTA                          58           42        -16         -27.59%
CHARLOTTE                        33           17        -16         -48.48%
DALLAS                           61           45        -16         -26.23%
HOUSTON                          28           13        -15         -53.57%
INDIANAPOLIS                     34           19        -15         -44.12%
NEWARK                           36           21        -15         -41.67%
NEW ORLEANS                      46           31        -15         -32.61%
PORTLAND                         26           11        -15         -57.69%
BIRMINGHAM                       19            8        -11         -57.89%
OMAHA                            20            9        -11         -55.00%
SAN ANTONIO                      27           17        -10         -37.04%
Source: OIG analysis of FBI ACS data




                                       - 123 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                               APPENDIX IX

                              196A (TELEMARKETING FRAUD)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000      FY 2003    Number     Percentage
   FIELD OFFICE            Cases Opened Cases Opened Change        Change
LOS ANGELES                      31           11        -20        -64.52%
SAN DIEGO                        12            1        -11        -91.67%
MIAMI                            10            0        -10       -100.00%
LAS VEGAS                         7            0         -7       -100.00%
TAMPA                             7            1         -6        -85.71%
DENVER                            5            0         -5       -100.00%
SEATTLE                           6            1         -5        -83.33%
BUFFALO                           7            3         -4        -57.14%
BIRMINGHAM                        4            0         -4       -100.00%
HOUSTON                           4            0         -4       -100.00%
KNOXVILLE                         4            0         -4       -100.00%
PHILADELPHIA                      6            2         -4        -66.67%
PHOENIX                           9            5         -4        -44.44%
SACRAMENTO                        4            0         -4       -100.00%
SALT LAKE CITY                    6            2         -4        -66.67%
Source: OIG analysis of FBI ACS data



                                 196B (INSURANCE FRAUD)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000      FY 2003    Number     Percentage
   FIELD OFFICE            Cases Opened Cases Opened Change        Change
BOSTON                           16            4        -12        -75.00%
OKLAHOMA CITY                    13            2        -11        -84.62%
DETROIT                          13            4         -9        -69.23%
LOUISVILLE                        8            0         -8       -100.00%
CLEVELAND                         8            1         -7        -87.50%
NEW YORK                          8            1         -7        -87.50%
PHOENIX                           7            0         -7       -100.00%
ATLANTA                           8            2         -6        -75.00%
BIRMINGHAM                        7            1         -6        -85.71%
CHARLOTTE                         7            1         -6        -85.71%
SAN ANTONIO                       7            1         -6        -85.71%
CHICAGO                           7            2         -5        -71.43%
LOS ANGELES                       5            0         -5       -100.00%
Source: OIG analysis of FBI ACS data




                                       - 124 -
                             REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                                   APPENDIX IX

               049A (BANKRUPTCY FRAUD $50K+ /OR COURT OFFICER)
                               FIELD OFFICE CASE OPENINGS
                            FISCAL YEARS 2000 THROUGH 2003
                              FY 2000         FY 2003    Number      Percentage
    FIELD OFFICE            Cases Opened   Cases Opened   Change       Change
LOS ANGELES                      135             13        -122        -90.37%
CHICAGO                           20              1         -19        -95.00%
BOSTON                            20              2         -18        -90.00%
BUFFALO                           13              1         -12        -92.31%
DALLAS                            13              1         -12        -92.31%
SALT LAKE CITY                    12              1         -11        -91.67%
NEW YORK                          9               0          -9       -100.00%
ATLANTA                           8               0          -8       -100.00%
MINNEAPOLIS                       8               0          -8       -100.00%
OMAHA                             8               0          -8       -100.00%
PHILADELPHIA                      9               1          -8        -88.89%
DENVER                            7               0          -7       -100.00%
SEATTLE                           11              4          -7        -63.64%
Source: OIG analysis of FBI ACS data


  Environmental Crimes

         Classification 249A (Environmental Crimes) was another investigative
  area among the eight white-collar crime classifications experiencing
  significant field agent utilization reductions. The following exhibit identifies
  the number of on-board agents involved in this investigative area from
  FYs 2000 through 2003 and shows that the utilization of field agents handling
  such matters decreased in each fiscal year.

                     TOTAL FBI FIELD AGENT RESOURCE UTILIZATION
                           FISCAL YEARS 2000 THROUGH 2003




                      Source: OIG analysis of FBI TURK data

                                       - 125 -
                             REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED
                                                                   APPENDIX IX
       Field Offices – As illustrated in the following exhibit, virtually every field
office experienced reductions in the utilization of field agents on 249A matters.
However, only three offices (Dallas, Houston, and New Orleans) had an
on-board agent decrease that was greater than one.

           CHANGES IN ON-BOARD AGENTS IN FBI FIELD OFFICES
                    249A (ENVIRONMENTAL CRIMES)
                  FISCAL YEARS 2000 THROUGH 2003




  Source: OIG analysis of FBI TURK data


      The following table shows reductions in the number of environmental
crime investigations opened in field offices from FY 2000 through FY 2003.
Although we observed no common factors between field offices experiencing
the greatest reductions, we di d note that most of them revealed in our
analysis experienced reductions of 100 percent.




                                   - 126 -
                         REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED
                                                               APPENDIX IX

                             249A (ENVIRONMENTAL CRIMES)
                             FIELD OFFICE CASE OPENINGS
                           FISCAL YEARS 2000 THROUGH 2003
                              FY 2000      FY 2003    Number     Percentage
   FIELD OFFICE            Cases Opened Cases Opened Change        Change
HOUSTON                          14            0        -14       -100.00%
KNOXVILLE                        13            1        -12        -92.31%
DETROIT                           9            0         -9       -100.00%
TAMPA                             9            0         -9       -100.00%
LOUISVILLE                        8            0         -8       -100.00%
BALTIMORE                         7            0         -7       -100.00%
ANCHORAGE                         6            0         -6       -100.00%
MOBILE                            7            1         -6        -85.71%
WASHINGTON                        7            1         -6        -85.71%
CINCINNATI                        5            0         -5       -100.00%
CLEVELAND                         6            1         -5        -83.33%
NEWARK                            5            0         -5       -100.00%
PHILADELPHIA                      5            0         -5       -100.00%
SAN DIEGO                         5            0         -5       -100.00%
SAN FRANCISCO                     5            0         -5       -100.00%
Source: OIG analysis of FBI ACS data




                                       - 127 -
                             REDACTED AND UNCLASSIFIED
         REDACTED AND UNCLASSIFIED
                                     APPENDIX X

FEDERAL BUREAU OF INVESTIGATION RESPONSE




                   - 128 -
         REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED
                            APPENDIX X




          - 129 -
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED
                            APPENDIX X




          - 130 -
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED
                            APPENDIX X




          - 131 -
REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED
                                                                  APPENDIX XI

  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                 TO CLOSE THE REPORT

      In its response to our draft audit report, the FBI concurred with our
recommendation and stated that its Criminal Investigative Division (CID)
was already performing the detailed reviews that we recommended
(Appendix X). In addition to responding to the recommendation, the FBI
expressed some disagreement with nine specific areas of the draft report, as
noted in Appendix X. The first part of this appendix is a response to those
comments made by the FBI. The second part analyzes the FBI’s response to
the recommendation and summarizes actions necessary to close the
recommendation.

Part I – OIG Response to FBI Comments

      In its response, the FBI questioned certain data values we obtained in
our analyses, disagreed with information contained in three paragraphs, and
expressed problems with three exhibits. The following are our responses to
each of the FBI’s comments.

Executive Summary

     The FBI commented on the second paragraph found on page i of the
Executive Summary of the draft audit report, which stated:

           Prior to 9/11, the FBI was a more traditional,
           reactive law enforcement agency; a crime occurred
           and the FBI investigated it. According to the FBI,
           since the reprioritization it is striving to incorporate
           more proactive, intelligence-based tactics and
           operations into its procedures, particularly in
           terrorism-related matters.

     The FBI’s response states:

              The second paragraph is not fairly stated considering
              the number of proactive investigations being pursued
              against organized criminal enterprise, white collar
              crime, and public corruption. The paragraph, as
              written, would be fine if we were only engaged in
              violent crimes and civil rights.
      In order to clarify the meaning of the paragraph in question, we have
altered it slightly. Our changes are noted in bold text, as follows:

                               - 132 -
                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED
                                                                 APPENDIX XI


            Prior to 9/11, the FBI utilized more of its field
            agent resources to investigate traditional
            criminal activity than to investigate matters
            related to terrorism. According to the FBI, since
            the reprioritization it is striving to incorporate more
            proactive, intelligence-based tactics and operations
            into its procedures, particularly in terrorism-related
            matters.

Incorrect Data Values

      The FBI claimed that certain OIG-determined AOB values in
Exhibit 3-11 on page 37 of the draft audit report are incorrect. The FBI
response states:

            Exhibit 3-11 reflects an AOB change for 196C cases
            with numbers reflected as 73 and 54. CID could not
            determine the significance of these numbers. AOB
            for 196C cases were as follows: 159 in 2000, 177 in
            2001, 182 in 2002, and 250 in 2003. Overall, the
            purpose of the last column of numbers is suspect.

       Using FBI source data, we determined the AOB for 196C cases to be
135 in FY 2000 and 208 in FY 2003. We contacted the FBI’s TURK Program
Manager, and she confirmed that the values we computed were correct. As
to the purpose of the last column of the exhibit being “suspect,” its purpose
is to provide additional information on the percentage change in AOB from
FY 2000 through FY 2003. We believe that such an analysis is valid and
consistent with our audit objective.

      The FBI also questioned the accuracy of FSL data presented in
Exhibits 4-2 and 4-3 on pages 49 and 50, respectively. The FBI states,
“Exhibit 4-2 should reflect 491 agents for the Drug Program in FY 2002,” and
“Exhibit 4-3 should reflect 1677 for the 2002 FSL (not considering the FSL
for CEI).”

        We reviewed our analyses of FSL data and determined the discrepancy
the FBI notes in its response resulted from the FBI reviewing material from a
different data set. For all of our analyses, we utilized the final adjusted FSLs
for each fiscal year, provided to us by the FBI’s Resource Management and
Allocation Office. The FBI, on the other hand, appears to have utilized the
initial FSLs established for each fiscal year. In order to clarify this issue, we
spoke to an official in the Resource Management and Allocation Office, who

                                - 133 -
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED
                                                                APPENDIX XI
advised that, essentially, both data sets could be considered correct.
Because we consistently utilized the final adjusted FSLs throughout our
report, we did not make the change that the FBI suggested. However, in
order to clarify this issue, we added footnote 12 on page 9 of the report,
stating that we utilized final adjusted FSLs in every analysis we have
included in our report.

Missing, Unreadable, and Incomplete Materials

      In its response, the FBI noted that four exhibits in the draft audit
report were either missing data, were unreadable, or were incomplete. The
FBI states that on:

  •   page 12, “The chart is missing data for the Organized Crime/Drug
      Program;”

  •   pages 40 and 46, “Case classifications and names are not readable;”

  •   page 55, ”Exhibit 4-6 is incomplete.”

       We reviewed these issues and found that on page 12, data for the
Organized Crime/Drug Program is listed as the second entry under the Field
Agent FSL Subtotal header. Additionally, we were able to read the
classifications and names in the exhibits on pages 40 and 46, as were other
FBI personnel who performed a line item sensitivity and classification review
on both charts. Finally, while the FBI states Exhibit 4-6 on page 55 is
incomplete, it provides no further details to explain what the exhibit is
missing. We believe the exhibit contains all necessary and pertinent data.

Violent Crime Program

      The FBI noted that some of our statements on page 55 of the draft
audit report regarding the FBI’s violent crime program are inaccurate. The
relevant paragraph on page 55 of our report states:

           Direction to Field Offices – According to FBI officials,
           little written direction was given to the field with
           regard to the reprioritization and the specific impact it
           would have on violent crime investigations. Rather,
           the FBI incorporated aspects of this reprioritization
           into the program plans it issues annually to the field.
           We reviewed the program plans related to violent
           crime matters for FYs 2001 and 2003 and found that
           field offices were given a list of national priorities for

                               - 134 -
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED
                                                               APPENDIX XI
           violent crime matters as a guide for prioritizing
           investigations. Although we observed slight changes
           in the priority list between the two fiscal years, as
           shown in Exhibit 4-7, the FBI’s national priorities for
           violent crime matters have essentially remained the
           same since FY 2001.

     In its response, the FBI states:

           This paragraph seems to implicitly criticize that our
           priorities within the program have not changed as a
           result of 9-11, and that we should have reprioritized
           based on their resource utilization analysis. This is
           incorrect. Priorities are based on the crime problem
           and not resource utilization. All of our intelligence
           and latest crime survey indicates that the crime
           problems identified as priorities have not changed
           and, thus, the priorities should not be changed.

     The FBI further disagrees with information in the same paragraph on
page 55. The FBI response states:

           The paragraph also seems to imply criticism about
           the lack of written direction given to the field based
           on input from (unnamed) FBI officials. The program
           plan contains specific direction and course of action
           for the field in the SAC Guidance section for each
           goal and objective. In addition to the program plan
           and the field guidance ECs on the list previously
           provided, CID also issued guidance regarding
           priorities in EC dated 10/21/2003, 66F-HQ-
           A1246974-A, Serial 582. In addition to previous
           guidance VCS recently issued updated guidance on
           appropriate response to bank robberies in same file,
           Serial 963. There are other specific ECs regarding
           on specific initiatives such as the Child Prostitution
           Initiative, Retail Theft Initiative, Violent Cities
           Initiative, as well as guidance ECs related to dealing
           with FAMS and TSA.

     In order to clarify the meaning of our statements, we have altered the
paragraph in question. Our changes are noted in bold text, as follows:



                              - 135 -
                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED
                                                                APPENDIX XI
           Direction to Field Offices – According to FBI officials,
           written direction was provided to the field
           detailing changes w ithin the violent crime
           program necessitated by the FBI’s
           reprioritization. This direction took the form of
           electronic communications and announcements
           of investigative initiatives related to specific
           types of violent crime. Additionally, the FBI
           incorporated aspects of its reprioritization into the
           program plans it issues annually to the field. We
           reviewed the program plans related to violent crime
           matters for FYs 2001 and 2003 and found that field
           offices were given a list of national priorities for
           violent crime matters as a guide for prioritizing
           investigations. These priorities are based upon the
           violent crime problems identified by each field office.
           Although we observed slight changes in the priority
           list between the two fiscal years, as shown in
           Exhibit 4-7, the FBI’s national priorities for violent
           crime matters have essentially remained the same
           since FY 2001. This implies that the nation’s
           violent crime problems have not changed.

     The FBI also disagrees with aspects of the following portion of a
paragraph found on page 56 of the draft audit report:

           …As was the case with other criminal investigative
           programs, FBI officials stated that the FBI’s violent
           crime efforts would focus primarily on the “big
           players.” However, SACs were advised to use their
           discretion in allocating limited violent crime resources
           to matters that were most problematic within their
           jurisdictions.

     The FBI’s response states:

           This is also misleading. First of all, CID did not issue
           guidance of this kind to SACs, as stated. SACs are
           supposed to establish priorities based on the national
           priorities and the crime problem identified in their
           divisions, and allocate resources accordingly. This
           guidance is also contained in the program plan.



                               - 136 -
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED
                                                              APPENDIX XI
       Based on the material we collected and information we obtained during
the audit, we continue to stand behind our statement that SACs were to use
their discretion in allocating violent crime resources to the most problematic
areas in their jurisdictions. Specifically, our support includes: 1) the FBI’s
2003 Program Plans, 2) an EC issued by the Criminal Investigative Program
Management and Coordination Unit, and 3) a statement made by the
Assistant Director of the Criminal Investigative Division during an interview
with OIG personnel. In order to further clarify our statements, we have
altered the relevant portion of the paragraph in question. Our changes are
noted in bold text, as follows:

           …As was the case with other criminal investigative
           programs, the FBI’s violent crime program was
           directed to leverage its limited resources.
           Specifically, according to an FBI memorandum,
           field offices were to concentrate their violent
           crime efforts primarily on criminal enterprises.
           Additionally, SACs were advised to keep the
           FBI’s national priorities in mind while directing
           their limited violent crime resources to matters
           that were most problematic within their
           jurisdictions.




                               - 137 -
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED
                                                               APPENDIX XI

Part II – Status of Recommendations and FBI Actions Necessary to
Close the Audit

Recommendation Number:

1.   Resolved. The FBI stated that it concurs with our recommendation to
     consider developing evaluation models similar to the ones presented in
     our report, and in that the FBI’s Criminal Investigative Division (CID)
     already does this in a variety of ways. In order to close this
     recommendation, please provide us with examples of the evaluation
     models CID utilizes to manage its programs. These models should
     contain information regarding OC/D, VCMO, and WCC activities at the
     investigative classification level, the same level of detail to which our
     analyses extended. Additionally, please provide us with examples of
     how other, non-CID programs, such as the National Foreign
     Intelligence Program, Domestic Terrorism Program, and the National
     Infrastructure Protection/Computer Intrusion Program, utilize
     information at this level to assist in the management process.




                              - 138 -
                    REDACTED AND UNCLASSIFIED
